<html>
<title> - THE WAY FORWARD ON BORDER SECURITY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   THE WAY FORWARD ON BORDER SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2019

                               __________

                            Serial No. 116-4

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
35-380 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="07776847647274736f626b772964686a29">[email&#160;protected]</a>                              

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                                Witness

Hon. Kirstjen Nielsen, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    13

                             For the Record

Statement of Amnesty International...............................    69
Statement of the Center for Victims of Torture...................    74
Statement of CWS.................................................    77
Letter From the Electronic Privacy Information Center............    79
Statement of First Focus.........................................    82
Statement of HIAS................................................    84
Statement of Kids in Need of Defense (KIND)......................    85
Statement of Physicians for Human Rights.........................    91
Letters From Honorable Sheila Jackson Lee........................    91

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    95
Questions From Honorable Xochitl Torres Small....................    97
Questions From Honorable Lauren Underwood........................    98
Questions From Ranking Member Mike Rogers........................    99
Questions From Honorable Clay Higgins............................    99
Question From Honorable Michael Guest............................   100

 
                  
                  THE WAY FORWARD ON BORDER SECURITY

                              ----------                              


                         Tuesday, March 6, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room 310, Cannon House Office Building, Hon. Bennie G. Thompson 
(Chairman of the committee) presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Richmond, Payne, Rice, Correa, Torres Small, Rose, Underwood, 
Slotkin, Cleaver, Green of Texas, Clarke, Titus, Watson 
Coleman, Barragan, Demings, Rogers, King, McCaul, Katko, 
Walker, Higgings, Lesko, Green of Tennessee, Taylor, Joyce, 
Crenshaw, and Guest.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    What I would like to do is, for the members of the press, 
we all ask that you part where you are right there and get to 
the side, take your pictures as you like. But before we begin, 
we would like to accommodate the public behind you.
    OK, those press folk who are where you are, we are going to 
ask that you get to the side.
    The committee is meeting today to receive testimony on the 
way forward on border security.
    Now, before I begin, I want to express my condolences to 
those who lost loved ones in the devastating storms in the 
Southeast on Sunday. At least 23 people lost their lives, and 
still more were injured in Lee County, Alabama, the Ranking 
Member's district. I would like to speak for the Members of the 
committee and say that our thoughts and prayers are with you 
and all your constituents at this difficult time.
    Mr. Rogers. Thank you.
    Chairman Thompson. In addition, I would like to express our 
sympathies to Congressman Katko in the loss of his father last 
week. A lot of us have been there. It is a difficult time. But 
know that we are all in support of you.
    Turning to today's hearing, I note it has been nearly a 
year since the Secretary of Homeland Security testified before 
this committee, as well as a number of the Members of the 
committee are meeting you for the first time.
    A great deal has happened in that time. The Department of 
Homeland Security separated thousands of children from their 
parents at the border. Two small children died in the 
Department's custody. The President shut down the Federal 
Government over demands for more taxpayer money for a border 
wall. Most recently, the President declared a non-existent 
emergency at the border because Congress would not capitulate 
to his funding demands.
    Clearly, oversight of the Trump administration's border 
policy is long overdue.
    Under my Chairmanship, the days of lax oversight of the 
Department by this committee are over. With the hope of 
informing our hearing discussion on January 4, 2019, I wrote to 
Secretary Nielsen asking for documents related to the border 
wall, the Department's interference with asylum seekers at 
ports of entry, separation of families at the border, and 
treatment of children in their custody.
    More than 2 months later, the committee has only received a 
handful of the requested documents. This is unacceptable. The 
committee needs this information for its oversight, and the 
Department's failure to provide it raises further questions 
about this administration's credibility. Let me be clear. I am 
prepared to use the tools at the committee's disposal to obtain 
the information if the Secretary fails to comply.
    Today, we will look at what the administration has said and 
done about border security and line it up against the facts. 
When it comes to border security, what the American people have 
heard from the Trump administration is misleading at best. The 
Secretary has said the administration had no policy to separate 
children from their parents. But internal memorandum makes 
clear she was aware the administration's policy would require 
families to be separated.
    No amount of verbal gymnastics will change that she knew 
the Trump administration was implementing a policy to separate 
families at the border. To make matters worse, the 
administration bungled implementation of a cruel plan, losing 
track of children and even deporting parents to Central America 
without their children.
    The Department also began limiting lawful asylum seekers 
presenting themselves at ports of entry, driving desperate 
families into more remote parts of the border and overwhelming 
border personnel and resources in those areas.
    Tragically, two young children died when they became ill in 
custody. Shortly thereafter, the President shut down the 
Government and declared a border emergency, an emergency that 
does not exist, to get more funding for a wall.
    The President himself admitted there is no emergency, even 
as he was announcing his declaration, saying, ``I didn't need 
to do this. I just want to do it faster.'' The President wants 
to build a wall so there is something to point to or have his 
picture taken in front of to convince the American people he 
has border security figured out.
    Real border security cannot be achieved by building a wall 
on the Southern Border, blocking asylum seekers, or separating 
children from their parents. These things are simplistic 
solutions that may have political appeal for some but offer 
little security value, if any.
    Indeed, focusing on the Southern Border, to the exclusion 
of threats elsewhere, undermines homeland security. Today, the 
Secretary can choose whether to be complicit in this 
administration's misinformation campaign or she can correct the 
record and start a serious discussion about the way forward on 
border security. For the sake of our country, I urge her to 
choose the latter.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 6, 2019
    I would note it has been nearly a year since the Secretary of 
Homeland Security testified before this committee. A great deal has 
happened in that time. The Department of Homeland Security separated 
thousands of children from their parents at the border. Two small 
children died in the Department's custody. The President shut down the 
Federal Government over demands for more taxpayer money for a border 
wall. And most recently, the President declared a nonexistent 
``emergency'' at the border because Congress would not capitulate to 
his funding demands.
    Clearly, oversight of the Trump administration's border policy is 
long overdue. Under my Chairmanship, the days of lax oversight of the 
Department by this committee are over.
    With the hope of informing our hearing discussion, on January 4, 
2019, I wrote to Secretary Nielsen asking for documents related to the 
border wall, the Department's interference with asylum seekers at ports 
of entry, separation of families at the border, and treatment of 
children in their custody. More than 2 months later, the committee has 
only received a handful of the requested documents. This is 
unacceptable.
    The committee needs this information for its oversight, and the 
Department's failure to provide it raises further questions about this 
administration's credibility. Let me be clear--I am prepared to use the 
tools at the committee's disposal to obtain the information if the 
Secretary fails to comply.
    Today, we will look at what the administration has said and done 
about border security and line it up against the facts. When it comes 
to border security, what the American people have heard from the Trump 
administration is misleading at best.
    The Secretary has said the administration had no policy to separate 
children from their parents, but internal memoranda make clear she was 
aware the administration's policy would require families to be 
separated. No amount of verbal gymnastics will change that she knew the 
Trump administration was implementing policy to separate families at 
the border. To make matters worse, the administration bungled 
implementation of its cruel plan, losing track of children and even 
deporting parents to Central America without their children. The 
Department also began limiting lawful asylum seekers presenting 
themselves at ports of entry, driving desperate families into more 
remote parts of the border and overwhelming border personnel and 
resources in those areas. Tragically, two young children died when they 
became ill in custody.
    Shortly thereafter, the President shut down the Government and 
declared a border ``emergency''--an emergency that does not exist--to 
get more funding for a wall. The President himself admitted there is no 
emergency, even as he was announcing his declaration, saying ``I didn't 
need to do this. I just want to do it faster.'' The President wants to 
build a wall so there is something to point to, or have his picture 
taken in front of, to convince the American people he has border 
security figured out.
    Real border security cannot be achieved by building a wall on the 
Southern Border, blocking asylum seekers, or separating children from 
their parents. These things are simplistic solutions that may have 
political appeal for some but offer little security value, if any. 
Indeed, focusing on the Southern Border to the exclusion of threats 
elsewhere undermines homeland security.
    Today, the Secretary can choose whether to be complicit in this 
administration's misinformation campaign, or she can correct the record 
and start a serious discussion about the way forward on border 
security. For the sake of our country, I urge her to choose the latter.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from Alabama, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman. I appreciate you 
calling this hearing today.
    Thank you, Secretary Nielsen, for being here and for your 
service to our country.
    I do appreciate the Chairman and his acknowledgment of what 
happened in my district on Sunday. It really is breathtaking 
when you go down and see the devastation of a tornado that was 
nearly a mile wide and stayed on the ground for 70 miles.
    As the Chairman said, we have 23 dead, 90 injured, and more 
than 100 homes just completely destroyed. This committee should 
take a lot of pride in the fact that we have made a difference 
in this country over the last 15 years. The first responders 
were just wonderful.
    Our local first responders, many of whom got training 
through Federal money, were flawless, worked their hearts out. 
FEMA did a great job. They were ready to go yesterday, nearby, 
kept us informed. I know they are doing a great job in the 
rebuilding.
    But we make a difference what we have done in preparing 
first responders around this country. I know the Governor has 
been in touch working with EMA and the FEMA officials and they 
are doing a great job. But I appreciate your prayers as we try 
to start the rebuilding now that we have finished the search 
and recovery.
    With that, thank you, Secretary Nielsen for everything your 
Department is doing to assist the citizens of Alabama's Third 
Congressional District.
    This hearing comes at an important moment. There is a 
growing crisis at our Southwest Border. First, changing 
demographics have created extraordinary challenges for our 
Border Patrol. In the past, most illegal border crossers were 
young Mexican men and our laws allowed to us swiftly return 
them to Mexico.
    Today, we see massive rise in the number of families and 
unaccompanied children from Central America and beyond. Human 
smugglers are exploiting the loopholes in our laws and take 
advantage of our broken immigration system. Smugglers are 
telling vulnerable families that your child is your, ``visa'', 
to stay in the United States if they turn themselves in at the 
border.
    The smugglers' propaganda is working. Already, family 
apprehensions in fiscal year 2019 are more than 800 percent 
higher than 2013. We are also seeing migrants arriving at the 
border in groups of record sizes. These massive groups 
overwhelm everything from the remote Border Patrol stations to 
busy ports of entry.
    Seventy groups of more than 100 migrants each have been 
apprehended by the Border Patrol since October of last year. 
Just 5 months, 70 groups. Some of these are not just a hundred, 
they are thousands. If you are curious, 2 years ago, we only 
had due 2 groups of more than 100 people. That has happened in 
a short amount of time.
    Migrants arriving at our border had a long and arduous 
journey. The smugglers and traffickers that advertise a ticket 
in the United States don't care about their victim's well-
being, they only care about making money. They lead these 
migrants into dangerous conditions without a second thought. As 
a result, Border Patrol projects 158 percent increase in 
migrants needing medical treatment for when they cross the 
border from last year.
    These change in migrant flows place men and women of CBP 
and Border Patrol in perilous situations. Our officers are in 
our search-and-rescue teams, paramedics are having to service 
rescue teams, paramedics, and family counselors to groups of 
over 100 strangers at a single time. Gangs and drug cartels are 
taking advantage of our porous border to bring hundreds of 
thousands of pounds of drugs into our country.
    In fiscal year 2018, CBP seized 895,000 pounds of drugs at 
the border. That includes approximately 2,100 pounds of 
fentanyl. To put that in perspective, just 2 milligrams of 
fentanyl are a fatal dose to a person according to the DEA; 
2,135 pounds of fentanyl represents a lethal dose for 484 
million people, more than the entire population of our country. 
That equals--if that isn't of an emergency, I don't know what 
is.
    Contrary to what some say, CBP actually seizes more pounds 
of drugs between ports of entry than at ports of entry. Since 
fiscal year 2012, CBP has seized more than 11 million pounds of 
drugs between ports of entry compared to only 4 million pounds 
at ports of entry.
    Mr. Chairman, we have to stop the flow of illegal 
immigrants and community-destroying drugs across our Southwest 
Border. We must put an end to transnational gangs that profit 
off these illegal enterprises and bring crime to American 
streets. The only way to do that is to secure the border.
    We need an all-of-the-above approach to border security 
that includes manpower, 21st Century technology, and barriers. 
With this approach, we will deter human trafficking, human 
smugglers, and others from crossing hundreds of miles of open 
desert with innocent children and putting children in grave 
danger. Fewer drugs will make it into the United States, saving 
lives and making our communities safer.
    We know an all-of-the-above approach works. In areas where 
we built a wall system, illegal traffic has plummeted. In San 
Diego, illegal traffic dropped 92 percent after the barrier was 
erected. In El Paso, illegal traffic dropped 95 percent. In 
Tucson, illegal traffic dropped 90 percent.
    Let us build on this success. Border security and keeping 
Americans safe used to be priorities for both our parties. I 
have been on this committee since, just like the Chairman, 
since its inception. We never argued about whether barriers 
worked until Donald Trump wanted them. This is not rocket 
science.
    Now that today many of my Democrat colleagues are going to 
be calling for the abolition of ICE, and I don't understand 
that. Rather than use this hearing to score political points, I 
encourage my colleagues to take this opportunity to hear from 
the Secretary herself about the challenges at our border and 
what the committee can do to address the changing dynamics as I 
have just described. I welcome the Secretary's testimony and 
the excellent work she has been doing for our committee and I 
thank the Chairman for the time and yield back.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
    I would like to take a moment to acknowledge my constituents in Lee 
County, Alabama whose communities were ravaged by tornado strikes this 
weekend. Our hearts are with them as they begin to rebuild their 
families and homes. I'd like to thank the State and local first 
responders who were on the scene to aid their neighbors. I know 
Governor Ivey and others are in touch with FEMA officials and I'm sure 
they'll do everything they can to help get folks back on their feet. 
Thank you, Secretary Nielsen, for everything your Department is doing 
to assist the citizens of Alabama's 3rd district.
    This hearing comes at an important moment. There is a growing 
crisis at our Southwest Border.
    First, changing demographics have created extraordinary challenges 
for our Border Patrol. In the past, most illegal border-crossers were 
young, Mexican men. And, our laws allowed us to swiftly return them 
back to Mexico.
    Today, we're seeing a massive rise in the number of families and 
unaccompanied children from Central America and beyond. Human smugglers 
are exploiting the loopholes in our laws and are taking advantage of 
our broken immigration system. Smugglers are telling vulnerable 
families that a child is their ``visa'' to stay in the United States if 
they turn themselves in at the border. The smugglers' propaganda is 
working.
    Already, family apprehensions in fiscal year 2019 are more than 800 
percent higher than fiscal year 2013. We're also seeing migrants 
arriving at the border in groups of record size.
    These massive groups overwhelm everything from remote Border Patrol 
stations to busy ports of entry. Seventy groups of more than 100 
migrants each, have been apprehended by Border Patrol or presented to 
CBP since Oct. 1, 2018.
    If you're curious, there were just TWO migrant groups over 100 
people that reached our Southwest Border in fiscal year 2017. In the 
last 5 months, there have been 70.
    Migrants arriving at our border have had a long, and arduous 
journey. The smugglers and traffickers that advertise a ticket into the 
United States don't care about their victims' well-being, they only 
care about making money. They lead them into dangerous conditions 
without a second thought.
    As a result, Border Patrol projects a 158 percent increase in 
migrants needing medical treatment after crossing the border over last 
year. These changing migrant flows place the men and women of CBP and 
Border Patrol in a perilous situation. Our officers are now search-and-
rescue teams, paramedics, and family counselors to groups of over 100 
strangers at a time.
    Gangs and drug cartels are taking advantage of our porous border to 
bring hundreds of thousands of pounds of drugs into our country. In 
fiscal year 2018, CBP seized 895,011 pounds of drugs at the border. 
That includes approximately 2,135 pounds of fentanyl. To put that in 
perspective, just 2 milligrams of fentanyl are a fatal dose to most 
people according to the DEA. Two thousand, one hundred thirty-five 
pounds of fentanyl represents a lethal dose for about 484 MILLION 
people. That equals a lethal dose for more than the entire population 
of the United States. If that isn't an emergency, I don't know what is.
    And, contrary to what some say, CBP actually seizes more pounds of 
drugs BETWEEN ports of entry than AT ports of entry. Since fiscal year 
2012, CBP has seized more than 11 million pounds of drugs between ports 
of entry, compared with only 4 million pounds at ports of entry.
    Mr. Chairman, we have to stop the flow of illegal immigrants and 
community-destroying drugs across our Southwest Border. We must put an 
end to the transnational gangs that profit off these illegal 
enterprises and bring crime to American streets.
    The only way to do that is to secure our border. We need an ``all-
of the-above'' approach to border security that includes manpower, 
21st-Century technology, and barriers.
    With this approach, we will deter human smugglers and others from 
crossing hundreds of miles of open desert with innocent children. And 
putting those children in grave danger. Fewer drugs will make it into 
the United States, saving lives and making our communities safer.
    We know an all-of-the-above approach works. In areas where we have 
built a wall system, illegal traffic has plummeted.
    In San Diego, illegal traffic has dropped 92 percent. In El Paso, 
illegal traffic has dropped 95 percent. And in Tucson, illegal traffic 
has dropped 90 percent.
    Let's build on this success. Border security and keeping America 
safe used to be priorities for both Democrats and Republicans.
    We used to hear Democrats calling for consensus. Now many of my 
Democratic colleagues are going as far as calling to abolish ICE.
    Rather than use this hearing to score political points, I encourage 
my colleagues to take this opportunity to hear from the Secretary 
herself about the challenges at our border and what the committee can 
do to address the changing dynamics I have just described. I welcome 
the Secretary's testimony about the excellent work she's doing to 
secure our borders.

    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that under the 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             March 6, 2019
    Thank you Chairman Thompson, and Ranking Member Rogers, for 
convening this opportunity for the Homeland Security Committee to hear 
from Secretary Nielsen on ``The Way Forward on Border Security.''
    Thank you Secretary Nielsen for joining us for a discussion on how 
to hold the Department of Homeland Security (DHS or Department) 
accountable for its border security policy, programs, and activities.
    Over the past 17 years we have learned a great deal about the 
capacity and strengthen of the men and women who work at the Department 
of Homeland Security.
    I hold them in the highest regard for their dedication and service 
to our country.
    I joined my Democratic colleagues on the House floor in opposition 
to the President's Federal Government shutdown in an ill-conceived plan 
to force Congress to pay for his border wall.
    My concern has and will continue to be for the well-being of DHS 
employees who have been impacted by the shutdown on personnel, in 
particular I want to know:
  <bullet> Have all employees received all back pay, including overtime 
        where earned?
  <bullet> What steps are being taken to address negative credit damage 
        caused by missed bill payments during the 35-day period? and
  <bullet> How is the morale of DHS personnel since the shutdown?
    This Nation depends on the men and women of the Department of 
Homeland Security to protect citizens from those who wish to do them 
harm.
    Because of the dedication of DHS professional we are better 
prepared to face these challenges as one Nation united against a common 
foe.
    My primary domestic security concerns are:
  <bullet> Making sure that our immigration policies in word and deed 
        reflect that best of our Nation's values and institutions;
  <bullet> Separating fact from fiction in the debate over U.S. 
        immigration and border policy;
  <bullet> Controlling access to firearms for those who are deemed to 
        be too dangerous to fly;
  <bullet> Countering international and home-grown violent extremism;
  <bullet> preserving Constitutional rights and due process for all 
        persons;
  <bullet> protecting critical infrastructure from physical and cyber 
        attack, including technology used in public elections;
  <bullet> creating equity and fairness in our Nation's immigration 
        policies by addressing TPS and DACA recipients; and
  <bullet> strengthening the capacity of the Department of Homeland 
        Security and the Department of Justice to meet the challenges 
        posed by natural disasters.
    As a former Chair and Ranking Member of the Homeland Security's 
Subcommittee on Transportation Security my commitment to air travel 
security and protecting the homeland from terrorist attacks remains 
unwavering.
                            border security
    Real border security cannot be achieved by building a wall on the 
Southern Border, blocking asylum seekers, or separating children from 
their parents.
    These things are in fact making border security more difficult, 
creating unnecessary tensions with our neighbors in Mexico, Central and 
South America while here at home these policies appeal to anti-American 
nativist views.
    Our Nation must and should look at all threats, from those who seek 
to cross our borders by air, who may try to exploit our maritime 
borders, or who cross either of our land borders with intent to smuggle 
or do harm, and develop a strategy to implement thoughtful, proven, and 
fair solutions to keep America secure.
    To further strengthen security along our border the practice of 
impeding or metering persons outside of our borders in Mexico 
undermines the enforcement of immigration law, treaties, and proper 
application of Federal regulations intended to assure safety and 
security.
    The practice is called ``metering'' and is creating unnecessary 
hardship for people seeking entry and fermenting a toxic environment 
where men, women, and children are being held under conditions that can 
easily lead to deteriorating health and safety conditions.
    We should not be wasting resources on fabricated threats such as a 
fake National Emergency, but seek out ways to identify domestic threats 
and prevent the type of attacks that are becoming all too common.
    By any metric, the spate of mass shootings in the last many years 
has killed more Americans than ISIS or any other group.
    Often, the shooters are born within our country's borders and have 
ready access to high-powered, high-capacity weapons.
    It is no coincidence that the rate of these shootings has 
dramatically increased since the lapse of legislation banning assault 
weapons.
                temporary protected status and dreamers
    I strongly advocate for a crucial legislative fix for debate and 
vote that will provide permanent legal residence and a path to 
citizenship to the more than 800,000 Dreamers, including the 124,000 
who live in Texas, whose lives have been turned upside down because of 
this administration's cruel, unwise, and reckless termination of DACA, 
the Deferred Action for Childhood Arrivals program.
    And in connection with legislation to protect Dreamers, I will 
insist that the administration rescind the revocation of Temporary 
Protected Status (TPS) for Haiti, El Salvador, and Honduras, or failing 
that, TPS for those countries be extended by Congressional legislation.
    There are 44,800 residents of Texas who are TPS holders from El 
Salvador (36,300), Honduras (8,400), and Haiti, who combined are 
parents of 53,800 U.S.-born children in Texas and 14,000 of whom have 
home mortgages.
    These TPS holders are integral members of the Texas's social 
fabric, having lived in Texas an average of 20 years, and contribute an 
aggregate $2.2 billion to the Texas economy.
    I, along with other Members who have served on this committee since 
its inception, made a commitment that a terrorist attack of the 
magnitude that occurred on September 11, 2001 would never happen again.
    We needed that collaboration and cooperation with the public to 
succeed in identifying and ultimately stopping the attackers; for this 
reason, I believe that more can and must be done to get and maintain 
public trust and support.
    For this reason, it is imperative that the 28-minute video left by 
the bomber be part of a comprehensive briefing on the Austin attacks.
    Community involvement and support for the investigation and 
prevention of violent acts should be uppermost in the minds of law 
enforcement and policy makers.
    A delay in having a similar briefing on the Austin bombing only 
causes further complications because it will contribute to a public 
perception that the lives lost did not matter.
    The nature of the attacks and the skill of the bomb maker make this 
briefing on the Austin bombings of vital importance to the work of this 
committee.
    This, coupled with the issuance of a Black Identity Extremism 
report by the Federal Bureau of Investigations' Domestic Terrorism 
Analysis Unit, leaves the African-American community once again 
questioning the motivations of the Nation's premier Federal law 
enforcement agency.
                 domestic terrorist threats and attacks
    The FBI recently arrested Christopher Paul Hasson, a U.S. Coast 
Guard lieutenant and self-identified white nationalist, after Federal 
investigators uncovered a cache of weapons and ammunition in his 
Maryland home that authorities say he stockpiled to launch a wide-
spread domestic terrorist attack targeting politicians and journalists.
    Mr. Hasson, according to court records called for ``focused 
violence'' to ``establish a white homeland'' and said, he dreamed of a 
way to kill almost every last person on the earth, according to court 
records filed in U.S. District Court in Maryland.
    Unlike Dylann Storm Roof, the white supremacist who murdered 9 
parishioners in a church because they were African American, Mr. 
Hansson's plans for mass murder were stopped by investigators before 
they could be carried out.
    Unfortunately, these incidents do not seem to be isolated--as you 
know during the last 9 days of last year's general election, Cesar 
Sayoc sent bombs in the mail perceived enemies of President Trump.
    Also, last year a series of bombing attacks in Austin, Texas that 
killed 2 and injured 5 others has raised concerns about domestic 
terrorists and their efforts to impose by violence their view of 
American society.
    Three of the deadliest mass shootings in American history have 
occurred within the 2 years, including one in a church in Sutherland 
Springs, in my home State of Texas.
    The shooting in Las Vegas, where over 50 were killed and over 400 
injured, to the shootings at high schools around the Nation and there 
seems to be no end or solution in sights.
    Marjory Stoneman Douglas High School in Parkland, Florida, is the 
eighteenth such mass shooting event in the first month-and-a-half of 
2018.
    We must do more to protect the American public from real threats 
and spend less time on non-emergencies--and we do need to know that the 
leadership at the Department of Homeland Security understand the 
difference.
    I look forward to the Secretary's testimony before the committee.
    Thank you. I yield back the balance of my time.

    Chairman Thompson. The Chair also wishes to remind Members 
of the committee and members of the audience that Rule 10(A) 
prohibits breaches of committee decorum and allows the Chair to 
respond accordingly.
    With that, let me introduce our witness today. Secretary 
Kirstjen Nielsen has been the Secretary of Homeland Security 
since December 2017 and was last before the committee in April 
2018. I want to thank her for joining us today and look forward 
to her testimony.
    I now ask the Secretary to rise and be sworn in. Please 
raise your right hand. Do you swear or affirm under penalty of 
perjury that the testimony you are about to give is true and 
correct to the best of your knowledge, information, and belief, 
so help you God?
    [Witness sworn.]
    Chairman Thompson. I want to thank the Secretary without 
objection. The witness' full statement will be incremented in 
the record. I now recognize the Secretary to summarize her 
statement for 5 minutes.

 STATEMENT OF HON. KIRSTJEN NIELSEN, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Nielsen. Thank you. Chairman Thompson, Ranking 
Member Rogers, and distinguished Members of the committee it is 
my honor to appear before you today.
    Before I begin, I want to note that our Department has many 
missions. Our people work tirelessly every day around the clock 
to strengthen the safety and security of the American people 
against terrorists, transnational criminal organizations, 
hackers, rogue nation-states, natural disasters, and more. I 
want to applaud them always for their extraordinary vigilance 
in protecting us all from persistent and emerge threats.
    But today I want to focus on one core mission in 
particular--our duty to secure our borders. This is one of the 
highest priorities of our President, this administration, and 
my Department. Indeed, it is among the most fundamental 
responsibilities of any sovereign nation.
    I want to start by stressing that our country remains a 
beacon of hope, freedom, and opportunity to the world. We 
welcome more immigrants, temporary workers, and foreign 
travelers every year than any other nation on Earth. Each year, 
more than 1 million people become lawful permanent residents of 
the United States. Legal immigration has been a bedrock of this 
country.
    We want to strengthen legal immigration and welcome more 
individuals through a merit-based system that enhances our 
economic vitality and the vibrancy of our diverse Nation.
    We also continue to uphold our humanitarian ideals, but 
illegal immigration is simply spiraling out of control and 
threatening public safety and National security. We face a 
crisis, a real serious and sustained crisis at our borders. We 
have tens of thousands of illegal aliens arriving at our 
doorstep every month.
    We have drugs, criminals, and violence spilling into our 
country every week, and we have smugglers and traffickers 
profiting from human misery every single day by exploiting 
people who are seeking a better life, deceiving them about our 
laws, and fielding everything from sexual slavery to child 
explication to the smuggling of illicit goods.
    Make no mistake--this chain of human misery is getting 
worse. Yesterday we announced that the numbers of apprehension 
at our Southern Border have spiked again substantially. Since 
last year, we had been seeing 50,000 to 60,000 migrants arrive 
at our Southern Border each month. But in February, we saw a 30 
percent jump over the previous month with agents apprehending 
or encountering nearly 75,000 aliens.
    This is an 80 percent increase over the same time last 
year, and I report today that CBP is forecasting the problem 
will get even worse this spring as the weather warms up.
    The projections are dire. The agency is now on track to 
apprehend more migrants crossing illegally in the first 6 
months of this fiscal year than the entirety of fiscal year 
2017. At the current pace we are on track to encounter close to 
1 million illegal aliens at our Southern Border this year.
    Our capacity is already severely restrained, but these 
increases will overwhelm the system entirely. This is not a 
manufactured crisis. This is truly an emergency.
    What is different about the current migrant flows--and this 
is important--is not just how many people are coming but who is 
arriving.
    Historically illegal aliens crossing into the United States 
are predominantly single adult males from Mexico with no legal 
rights to stay and who we could quickly detain and removed 
within 48 hours, but in recent years we have seen the numbers 
of vulnerable populations, children, and families skyrocket. 
Over 60 percent of the current flows are family units and 
unaccompanied alien children and 60 percent are non-Mexican.
    Because of outdated laws, misguided court decisions, and a 
massive backlog of cases, we are often forced to release these 
groups into the United States and we have virtually no hope of 
removing them in the future. Importantly, our ability to help 
those truly in need is severely limited.
    The vast majority of these individuals are from Central 
America. While many of them initially claim asylum and are let 
into the United States, only 1 in 10 are ultimately granted 
asylum by an immigration judge. Unfortunately, when it comes 
time to remove the other 90 percent, they have often 
disappeared into the interior of our country.
    Smugglers and traffickers have caught on, realizing that 
the outdated laws, lack of resources, and bad court decisions 
effectively give them a free ticket into America. Information 
about the weaknesses in our system has spread quickly in 
Central America. In fact, they are advertised. Our booming 
economy under President Trump has made the dangerous journey 
even more attractive to migrants.
    As a result, the flow of families and children has become a 
flood. In the past 5 years, we have seen a 620 percent increase 
in families or those posing as families apprehended at the 
border. This last fiscal year was the highest on record, and of 
great concern to me is that the children are being used as 
pawns to get into our country.
    We have encountered recycling rings where innocent young 
people are used multiple times to help aliens gain illegal 
entry. As a Nation, we simply cannot stand for this. We must 
fix the system.
    Today's migrant flows have created a humanitarian 
catastrophe. In one study, more than 30 percent of women 
reported sexual assault along the way and 70 percent of all 
migrants reported experiencing violence.
    Smugglers and traffickers are forcing migrants into 
inhumane conditions, demanding extraordinary sums of money, and 
putting their lives in danger. Vulnerable populations, 
especially children, are coming into DHS sicker than ever 
before.
    This is also a public safety and National security crisis. 
TCOs are using the situation to line their pockets, fueling a 
rise in other illegal activity and the spread of violent crime 
into our country. Gang members are smuggling new recruits into 
the United States, with CBP recording a 50 percent spike over 
the last fiscal year in the number of gang members apprehended 
at the Southern Border alone. DHS personnel are grappling daily 
with the movement of drugs, illicit goods, and unknown threat 
actors coming across the borders.
    So what are we doing about this? At the President's 
direction we are confronting it head-on in many ways. Let me 
try to quickly summarize.
    We have championed a border wall system which includes 
infrastructure technology and additional personnel. We have 
implemented virtually every measure within our authority to end 
catch-and-release to keep aliens with no legal right to stay 
from being released into our country. We worked with the 
Pentagon to deploy troops to the Southern Border, which has 
helped us achieve tens of thousands of apprehensions and turn-
backs of illegal aliens. We have dramatically increased 
referrals for prosecutions of single adults illegally crossing 
the border from 12 percent at the start of the administration 
to nearly 50 percent today.
    We have worked tirelessly with the Northern Triangle 
countries. I myself can attest to the many trips that I have 
made and the conversations and negotiations I have had, to deal 
with the root causes of migration and to address the challenges 
at the source.
    I talk to my counterparts in Central America almost weekly. 
I travel down there regularly. This month I am happy to report 
that we expect to sign a historic regional compact, the first 
ever with those countries, to counter irregular migration, 
human smuggling, trafficking, and the formation of caravans. 
This is something I have been pursuing for years and will have 
a real effect on this crisis.
    We have stepped up efforts to protect women and children 
from being abused, kidnapped, sexually assaulted, and exploited 
upon the dangerous journey and are doing more to dismantle 
TCOs, including through concerted interagency action and deeper 
foreign partnerships.
    We have intensified operations to seize illicit drugs, 
especially opioids, as they are smuggled into the United 
States, including the deployment of new technology. We are 
putting in place important measures to reduce asylum fraud, so 
we can better help those who are truly fleeing persecution. 
This includes having certain individuals wait in Mexico until 
their claims are processed and where they are afforded 
humanitarian protection to ensure that the flow is safe and 
orderly.
    But it is simply still not enough. We need Congress to act 
so that we can take operational control of the border, as 
Congress directed us in law to do, to protect vulnerable 
populations, to reduce the life-ending flow of drugs into 
America, and to confront the scourge of human trafficking.
    Without Congressional action, America's borders will never 
be secure. Until we deal with the outdated laws that contribute 
to this problem, the situation will only get worse. Simply put, 
the laws are not keeping up with the migrant flows. The gaps in 
the system are obvious.
    Just as laws must be revised to address technological 
advances and emerging threats, so, too, must the laws be 
changed to address vastly different circumstances at the 
border.
    If migrants arrive with children, we can only detain them 
for days and then we have to release them. Even when they have 
no legal right to stay, we cannot keep them together as a 
family.
    Chairman Thompson. Please summarize your statement.
    Secretary Nielsen. Please.
    So what do we need? We need Congress to change the law to 
promote family unity, to ensure the safe and prompt return of 
UACs back to their home countries, and to close loopholes that 
allow dangerous criminals to get released into our communities.
    Happy to, in response to questions, talk more about our 
activities with the Northern Triangle. But I would just like to 
conclude my remarks by asking for Congress to work with me. I 
am happy to meet with anyone that has a suggested solution.
    No rational person would design an immigration system like 
we have today. It is dangerous for Americans, it is dangerous 
for migrants, it undermines our Nation's values, and it fails 
to uphold our fundamental obligations to the American people.
    Although we may disagree on solutions, I hope there can be 
a consensus that the current system isn't working and that this 
is an emergency we must address together.
    I look forward to your questions. Thank you, Chairman.
    [The prepared statement of Secretary Nielsen follows:]
            Prepared Statement of Honorable Kirstjen Nielsen
                             March 6, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee: It is an honor to appear before you today.
    I want to start by thanking the men and women of the Department of 
Homeland Security (DHS) for their exceptional service to our Nation. 
Last week, we celebrated the Department's 16th anniversary, and we 
marked the extraordinary progress that has been made to protect our 
Nation against a vast array of threats and hazards. In the past year 
alone, DHS has made notable strides and reached new milestones. For 
example, we:
  <bullet> Responded decisively to record-breaking natural disasters 
        and helped Americans rebuild when they needed our help the 
        most;
  <bullet> Prevented the hacking of U.S. elections and guarded against 
        foreign interference in our democracy;
  <bullet> Hardened our digital defenses, organized ourselves for the 
        interconnected era with the Cybersecurity and Infrastructure 
        Security Agency, and pushed for tougher consequences against 
        cyber adversaries;
  <bullet> Created a new hub--the National Risk Management Center--to 
        identify and mitigate the most serious risks to our Nation's 
        critical infrastructure;
  <bullet> Thwarted terrorist plotting and helped bring dangerous 
        individuals to justice;
  <bullet> Launched new, sophisticated efforts to block terrorists and 
        criminals from reaching the United States, including through 
        our new National Vetting Center;
  <bullet> Ramped up security measures to protect Americans against 
        emerging threats--from weaponized drones to chemical and 
        biological weapons;
  <bullet> Reorganized our intelligence and science & technology 
        organizations to better meet the needs of front-line defenders;
  <bullet> Strengthened our campaigns against human trafficking and 
        smuggling, child exploitation, drugs, and transnational 
        criminal organizations;
  <bullet> Raised the baseline of aviation security across the board--
        and around the world;
  <bullet> Took decisive action to enhance school safety and security 
        Nation-wide in order to stop attacks before they happen;
  <bullet>  . . . and much, much more.
    We have also undertaken historic efforts to secure our borders and 
enforce our Nation's immigration laws. This is the subject of today's 
hearing, and this morning I want to outline for you the very real 
humanitarian and security crisis we face, how we are responding, and 
what's urgently needed from Congress to fix the situation.
    The men and women of my Department will tell you that it is no easy 
task to secure the more than 7,000 miles of America's shared border 
with Mexico and Canada while facilitating legal trade and travel. Each 
day, dedicated DHS officers and agents inspect hundreds of tons of 
cargo for illegal substances or explosives, process thousands of 
individuals for admission, and patrol many miles of remote border. They 
do this in order to answer a crucial question: Who and what is coming 
into the country? This mission--safeguarding our territory--is one of 
the most critical charges of our Department and one of the most 
fundamental responsibilities of any government.
      the humanitarian and security crisis at our southern border
    Let me start by saying, the United States leads the world in 
welcoming individuals fleeing persecution. In the 2017 calendar year, 
the United States granted asylum and refugee status to more individuals 
than any other country in the world. We welcome those who come to us 
legally, especially those who are truly fleeing persecution and who 
seek refuge in our country.
    Illegal and uncontrolled migration, however, poses a serious and 
growing risk to U.S. public safety, National security, and the rule of 
law. This cannot be a partisan issue. Every Secretary of this 
Department has sounded the alarm about our unsecured border and 
highlighted the associated threats and consequences to our National 
security. Today we are seeing the results of a failure to act and a 
broken system.
    Our Nation is facing a dire humanitarian and security crisis at our 
Southern Border. In the first 4 months of the fiscal year, we saw 
approximately 60,000 migrants each month cross illegally or present at 
ports of entry without documents. Moreover, the numbers are rising. In 
February, agents apprehended or encountered more than 76,000 aliens, a 
31 percent increase over January, and CBP is forecasting the problem 
will get even worse this spring. The agency is now on track to 
apprehend more migrants crossing illegally in the first 6 months of 
this fiscal year than the entirety of fiscal year 2017. Our capacity is 
already severely strained, but these increases will overwhelm it 
completely.
    What's different about the current migration flow is not just how 
many people are coming but who is arriving. For most of recent history, 
the majority of individuals arriving illegally or without documentation 
were single adults, who we could quickly detain and remove. This is how 
the immigration system is supposed to work. However, in recent years we 
have seen the proportion of vulnerable populations--children and 
families--skyrocket. Because of outdated laws and misguided court 
decisions, we are often forced to release these groups into the 
interior of the United States and we have virtually no hope of removing 
them.
    The details here are critically important. Historically, illegal 
aliens crossing into the United States were predominantly single adult 
males from Mexico, and they were generally removed within 48 hours if 
they had no legal right to stay. Now over 60 percent are family units 
and unaccompanied alien children, and 60 percent are non-Mexican. Many 
of these families are from the Northern Triangle countries (Guatemala, 
Honduras, El Salvador) and claim asylum, so they are released into the 
United States--as required by the Flores court decision--while they 
await a court date that can be years away. Only 1 in 10 individuals 
from the Northern Triangle are ultimately granted asylum by an 
immigration judge. Unfortunately, when it comes time to remove the 
other 90 percent--who have been determined by an immigration judge to 
have no legal right to stay in the United States--they have absconded 
from their last known location. And we do not have sufficient resources 
to find and remove them.
    Make no mistake: The problem is getting worse. The smugglers and 
traffickers have caught on, realizing this is a ``free ticket'' into 
America. As a result, the flow of families and children has become a 
flood. In the past 5 years, we have seen a 620 percent increase in 
families--or those posing as families--apprehended at the border. This 
last fiscal year was the highest on record. Children are being used as 
pawns to get into our country. We have even uncovered ``recycling 
rings'' where innocent young people are used multiple times to help 
aliens fraudulently gain entry. As a Nation, we cannot stand for this.
    The phenomenon of large groups (which is defined as a group of 100 
or more aliens apprehended together in a single event) of migrants 
organized into caravans arriving along our Southern Border provides a 
window into the wide-spread challenges faced everyday by DHS personnel. 
For example, in fiscal year 2017, CBP encountered only two large 
groups. By fiscal year 2018, this grew to 13 groups. And this fiscal 
year through February 28, CBP has experienced 68 groups in the U.S. 
Border Patrol's El Paso, Rio Grande Valley, Tucson, and Yuma Sectors. 
This is not a manufactured crisis. It is real, it is serious, and it is 
overwhelming our front-line personnel.
    Apprehending large groups places a tremendous strain on CBP's 
limited resources, pulling front-line personnel to conduct humanitarian 
efforts and drawing resources away from front-line enforcement, 
effectively placing border security at risk. Associated with the 
increase in large groups and caravans, we saw a 21 percent increase in 
the number of unaccompanied alien minors from the year prior, and a 40 
percent increase in number of family units in fiscal year 2018 compared 
to fiscal year 2017. To make matters worse, we know that transnational 
criminal organizations (TCOs) are taking advantage of these large 
groups as a distraction in order to conduct criminal activity elsewhere 
on the border, as they know CBP resources will be tied up.
    Today's migration flows have created a humanitarian catastrophe. 
Criminals are targeting vulnerable populations along the dangerous 
journey to our borders. In one study, more than 30 percent of women 
reported sexual assault along the way, and 70 percent of all migrants 
reported experiencing violence. Smugglers and traffickers are 
exploiting these migrants. They are forcing them into inhumane 
conditions, demanding large sums of money, and putting their lives in 
danger every day. Vulnerable populations--especially children--are 
coming into DHS custody sicker than ever before, arriving with 
illnesses and injuries. In recent weeks, an average of 56 aliens a day 
have required emergency medical care at the Southern Border.
    The care of those in DHS custody is paramount, and the United 
States Border Patrol is doing everything in its power to handle this 
crisis, but our facilities along the Southern Border were not designed 
to support such large vulnerable populations. These facilities are 
short-term processing facilities, designed to hold individuals for 72 
hours or less. I am grateful for the $415 million in humanitarian 
assistance Congress provided in the most recent DHS appropriations 
bill. The bottom line is that Border Patrol stations built decades ago 
are not designed to handle this crisis and are not the best facilities 
to house children with their parents for extended periods.
    This is also a public safety and National security crisis. TCOs are 
using this situation to line their pockets, fueling a rise in other 
illegal activity and the spread of violent crime into our country. The 
results are disturbing. Across the Nation, Immigration and Customs 
Enforcement (ICE) officers made approximately 266,000 arrests of aliens 
with various criminal charges or convictions in 2017 and 2018--which 
included roughly 100,000 charges or convictions for assault, 30,000 for 
sex crimes, and 4,000 for homicides. Many of these were individuals who 
came across illegally at our Southern Border.
    DHS personnel have also witnessed an increase in the trafficking of 
illegal drugs into our communities. Alarmingly, CBP has reported that 
fentanyl smuggling between ports of entry at the Southern Border has 
more than doubled over our last fiscal year, from fiscal year 2017 to 
fiscal year 2018. Although these seizures represent just a quarter of 
fentanyl seizures along the border, the rate at which they have 
increased is concerning. Fentanyl was responsible for more than 28,400 
overdose deaths of Americans in 2017. Just a few weeks ago, CBP made 
its largest fentanyl bust in U.S. history, seizing 254 pounds of 
fentanyl--enough for 115 million fatal doses--in a truck trailer 
compartment. These drugs are smuggled at and between ports of entry, 
but our officers and agents are not able to devote the full resources 
and attention they could to interdicting them because of the migration 
crisis that is taxing our resources.
    A tough border security posture is essential to keep other 
potential threat actors out of the United States. There are thousands 
of individuals on the terrorist watch list that traveled through our 
Hemisphere last year alone, and we work very hard to keep these 
individuals from traveling on illicit pathways to our country. While 
most terror suspects attempting to reach the United States do so by 
air, terrorist groups are clearly interested in exploiting deficiencies 
along our borders to enter the United States. We must vigilantly guard 
against any such efforts.
    Moreover, last year alone, DHS encountered 3,000+ ``special 
interest aliens'' (SIAs)--individuals with suspicious travel patterns 
who could pose a National security risk--at our Southern Border. 
Foreign partners throughout the Western Hemisphere continue to share 
their concerns with me about the growing volume of SIAs. Often these 
partners lack the ability to determine the identities and intentions of 
such individuals before they cross international borders and make their 
way toward our own.
                        responding to the crisis
    DHS is grateful that Congress was finally able to pass a budget for 
the Department, but the crisis is getting worse and our current funding 
neither provides adequate resources nor the additional authorities that 
our DHS personnel need to gain full operational control of our border. 
Congress has repeatedly failed to give DHS the resources needed to 
confront this situation and to handle the influx of aliens, drugs, and 
other illicit traffic into our country. That is why I strongly support 
the President's decision to unlock additional funding for physical 
barriers, including resources from the Department of Treasury and the 
Department of Defense.
    Moreover, I applaud the President's decision to declare a National 
emergency. This is a crisis--pure and simple--and we need to respond 
accordingly. We cannot stand idly by as our border security is further 
compromised and our immigration laws are exploited. Now is the time to 
act and to uphold our fundamental responsibility to our citizens and 
our Nation to safeguard U.S. territory. Although we may disagree on 
solutions, I hope there can be a consensus that the current system 
requires immediate attention.
    Despite these challenges, DHS personnel have worked hard to keep 
our communities safe and have done their best to uphold our Nation's 
laws. Our agents, officers, and enlisted personnel--those from CBP, 
ICE, USCIS, USCG, and beyond--have done an extraordinary job of 
prioritizing the highest threats and risks in their operating areas and 
going after them. Whether they are apprehending illegal aliens, 
interdicting smugglers, conducting life-saving rescues of migrants, or 
arresting dangerous individuals sneaking between our ports of entry--
the work by our DHS personnel on the border is imperative to our 
continued security and prosperity as a Nation. DHS is taking an end-to-
end approach to the humanitarian and security crisis at our Southern 
Border. Below are examples of the actions we have been taking:
    Constructing Border Barriers and Leveraging Technology.--The United 
States has long built barriers along its Southern Border, first in 1909 
and regularly since then according to need. DHS is now constructing the 
first new border wall in nearly a decade, which will improve our 
ability to impede and deny illegal entry. Since the first barriers were 
constructed in San Diego in 1991, U.S. Border Patrol field commanders 
have continued to advocate for border wall and the enduring capability 
it creates to prevent illegal entry while allowing additional time for 
agents to respond. At the same time, we are aggressively pursuing the 
deployment of new technology at our borders to increase the situational 
awareness of our agents and officers and to detect illicit activity.
    Deploying the U.S. Military.--DHS is grateful for the robust 
involvement of Department of Defense (DOD) and National Guard personnel 
who have been deployed to support our border security mission. Every 
administration since President Ronald Reagan has sent troops to the 
border, and other Presidents before him, including President Woodrow 
Wilson who deployed 150,000 guardsmen to secure our Southern Border in 
1916. Our Nation's troops and enabling personnel are assisting with 
surveillance, force protection, logistics, medical response, and much 
more. Already these deployments have enabled thousands of drug 
interdictions and apprehensions of illegal aliens. We are continuing to 
work closely with DOD on expanding barrier protections, as well as 
exploring additional ways to collaborate to ensure CBP personnel are 
freed up to perform their border security mission effectively and 
supported in crisis conditions.
    Amplifying Regional Cooperation.--As Secretary, I engage almost 
weekly with my counterparts in Mexico and the Northern Triangle 
governments of Central America to work toward addressing the migration 
crisis at the source. Last month, I met with security ministers from 
the Northern Triangle in El Salvador to discuss an action plan to deal 
with the crisis. I am pleased to report we reached a breakthrough and 
agreed to negotiate a Memorandum of Cooperation (MOC) to address the 
smuggling, trafficking, irregular migration, and formation of caravans. 
These efforts will include a whole-of-Government approach to addressing 
the security-related drivers of migration and improving border security 
in the region. Our joint statement, which outlined a clear path toward 
increased collaboration between the United States and Northern 
Triangle, emphasized four areas of increased collaboration: Combatting 
Human Trafficking and Migrant Smuggling, Countering Organized Crime and 
Gangs, Expanding Information and Intelligence Sharing, and 
Strengthening Border Security. I look forward to reporting back to 
Congress on the signing of the final regional MOC.
    Instituting the Migrant Protection Protocols.--Late last year, we 
announced a major milestone--the Migrant Protection Protocols (MPP)--to 
address the urgent humanitarian and security crisis at the Southern 
Border. We have begun to implement MPP, which relies on long-standing 
statutory authority to allow us to return migrants to Mexico to await 
the conclusion of their U.S. immigration proceedings while ensuring 
they receive all appropriate humanitarian protections. Ultimately, MPP 
will allow us to focus more attention on individuals legitimately 
fleeing persecution, dissuade those who intend to file false claims, 
and bring order to a chaotic flow.
    Protecting Vulnerable Populations.--At my direction, DHS personnel 
have put in place new policies, procedures, and resources to protect 
children and families. This includes surging medical assistance to the 
Southern Border to deal with the arrival of large groups and sick 
individuals, as well as protocols to ensure that unaccompanied alien 
children are not held with individuals who could pose a danger to them 
while in DHS custody. We have also doubled-down on our efforts to crack 
down on human smuggling and trafficking, including the abuse of 
children. And every day the extraordinary men and women of CBP go above 
and beyond the call of duty to save lives of migrants in trouble, 
including women, children, and infants found abandoned in the desert by 
smugglers. These rescue missions, which take place between ports of 
entry in remote locations on our Southern Border, are extremely 
difficult but also demonstrate our commitment to upholding America's 
values and rescuing those who need our protection.
    Combating Transnational Criminals.--DHS is stepping up its efforts 
to dismantle TCOs. We have reached agreements with governments in the 
region to increase action against TCOs, including through greater 
intelligence sharing, integrated units of U.S. personnel and partner 
agencies, joint investigations, and more. Here at home, we have also 
worked with other departments and agencies to take a more holistic 
approach to combating TCOs, including improving interagency 
coordination structures to take down nefarious groups with greater 
precision and coordination.
    Countering Illegal Drug Smuggling.--DHS continues to seize 
thousands of pounds of illegal and dangerous drugs, including fentanyl, 
as they are smuggled into the United States. We are deploying 
additional technology and resources at the Southern Border both at and 
between ports of entry to help detect and disrupt drug-smuggling 
activity. This also includes deeper cooperation throughout the U.S. 
Government and with regional partners to find and bring drug smugglers 
to justice and dismantle cartels.
    Confronting Asylum Fraud.--DHS is putting in place important 
measures to reduce asylum fraud and frivolous filings. For example, we 
have implemented a ``Last In, First Out'' approach, which means we 
prioritize the most recently filed applications when scheduling 
affirmative asylum interviews. The aim is to deter individuals from 
using our Nation's large asylum backlogs solely to obtain employment. 
By cutting down on asylum fraud, we will be able to devote more 
attention to applicants who are legitimately fleeing persecution and 
require U.S. protection under our laws.
    Increased Local Cooperation.--DHS recognizes the inordinate impact 
that the surge of illegal migration has had on our border communities, 
and we have stepped up cooperation to enlist State and local officials 
in our border security efforts. For instance, DHS has doubled the 
number of 287(g) agreements with local law enforcement to enlist their 
voluntary cooperation on immigration enforcement. At the same time, we 
have increased available funds for Southwest Border localities to 
provide assistance on border protection through grant programs. DHS is 
also working with partner agencies in States, and especially with 
county, local, and Tribal agencies to share information, provide 
resources, and build communication capacity.
                        a comprehensive solution
    Despite all of our efforts, DHS cannot fix this crisis on its own. 
That is why I respectfully request, and will continue to ask, that 
Congress pass legislation to fix outdated laws and gaps in our 
authorities. These legal impediments hamper enforcement of the law, 
weaken border security, and endanger both the American public and the 
illegal aliens making the dangerous journey to the Southwest Border. 
They are also ``pull'' factors that drive illegal migration and 
undermine the territorial integrity of the United States. Only Congress 
has the Constitutional authority to enact immigration law. We are, 
therefore, completely dependent on Congress to change the outdated 
statutes that impede our ability to enforce the law and that handicap 
our ability to keep America safe.
    There are several key legislative reforms that we need to address 
this crisis. Among other actions, we ask Congress to do the following:
    Promote Family Unity.--One of the main challenges is the inability 
of DHS to keep families together during the immigration proceedings. In 
1997, the Immigration and Naturalization Service (INS) entered into the 
Flores settlement agreement relating to detention of minors and their 
release. Since that time, litigation on this agreement has continued, 
and multiple court decisions interpreting the agreement have impeded 
the United States Government's ability to maintain custody of minors 
and, now, based on the most recent interpretation, families. The 
provisions of the settlement agreement should be superseded by 
legislation. Legislation on this issue should be focused on allowing us 
to keep families together during their immigration proceedings and 
promoting a uniform standard of care and accommodation for minors in 
custody, while ensuring our laws are enforced.
    Ensure the Safe and Prompt Return of Unaccompanied Alien Children 
(UAC).--We must also update our laws to ensure that all UACs who are 
not victims of trafficking or persecution (regardless of their country 
of origin) can be returned home and reunited with their families. 
Current law has created a financial incentive for TCOs, smugglers, and 
traffickers to transport UACs to and across our border. The result is 
that children are exploited by criminals for their own gain, and are 
put in danger. We must stop this exploitation and ensure the safe and 
prompt removal of UACs. Government officials in Central America 
continue to express to me their urgent desire to have their children 
returned home, not harbored in the United States. This requires a 
legislative fix.
    Crack Down on Asylum Fraud and Protect Those Who Need It.--We have 
requested that Congress reform asylum standards to deter fraud and 
otherwise ensure that those truly eligible for protection have prompt 
access to the judicial system to adjudicate their claim. Specifically, 
Congress should legislate a standard that requires that it is more 
probable than not that the statements made by the alien in support of 
the alien's claims are true. Reforming this standard helps promote the 
adjudication of meritorious asylum claims by ensuring those who are 
statutorily ineligible for asylum are not found to have a credible fear 
of removal.
    Safeguard Americans from Dangerous, Criminal Aliens.--We also need 
Congressional assistance to update laws that allow criminal aliens to 
circumvent the removal process. Right now, the system is broken, and 
because of a series of misguided court decisions, DHS is forced to 
release dangerous criminal aliens from custody and is unable to remove 
others from the United States even when they have been convicted of 
serious criminal offenses. Specifically, we must clarify the definition 
of ``conviction'' in the Immigration and Nationality Act to address 
aliens who receive post-conviction relief or sentence modifications for 
the purpose of flouting immigration consequences. In addition, we must 
remedy U.S. Courts of Appeals and U.S. Supreme Court decisions, 
including Mathis v. United States, 136 S. Ct. 2243 (2016), that have 
made it increasingly difficult for ICE to remove convicted aliens on 
criminal grounds of removal.
    We must also urgently close loopholes created by the U.S. Supreme 
Court's decision in Zadvydas v. Davis, 533 U.S. 678 (2001). This 
decision generally requires that DHS release a criminal alien ordered 
removed who has been detained for 180 days after the period for removal 
began unless DHS can show that there is a significant likelihood that 
removal can be effectuated in the reasonably foreseeable future. The 
result is that we have been forced to release dangerous individuals--
including those responsible for terrible crimes--back into the 
population. We must close loopholes created by the Zadvydas decision to 
give DHS authority to keep dangerous criminal aliens who are subject to 
final orders of removal off our streets and keep our communities safe. 
Finally, for the safety and security of the American people, Congress 
should ensure that DHS has full authority to detain and remove alien 
criminal gang members, alien gang associates, and aliens who 
participate in gang-related activities. We must be able to safeguard 
Americans from aliens associated with criminal gangs, including 
detaining and removing violent gang members such as MS-13.
                               conclusion
    Make no mistake: Despite the challenges DHS faces, we welcome those 
who come to us legally--including those who are truly fleeing 
persecution. America is a beacon of hope and freedom to the entire 
world, and we welcome more immigrants every year than any other nation 
on earth. Nevertheless, we must be able to uphold our values and the 
rule of law while also maintaining our security.
    That is why I call for common-sense solutions--including physical 
barriers, fixes to outdated laws, and the resources needed to bring 
order to the chaos. Today, I implore Congress to listen to the 
solutions offered by those who see this security crisis up close. The 
humanitarian crisis can no longer be ignored. The security crisis 
cannot be wished away. We must change the status quo now. It will 
require bold action to address gaps in our border security that are 
being taken advantage of every day.
    I thank this committee again for its leadership on this issue, and 
I look forward to your questions.

    Chairman Thompson. Thank you very much.
    We allowed you to go over because some people need to hear 
you for the first time.
    Secretary Nielsen. I greatly appreciate that, sir.
    Chairman Thompson. Thank you. As I said in my opening 
statements, Madam Secretary, we have sent requests for a number 
of information to you and we have not gotten the information 
back. Can you commit to this committee to get that information 
back?
    Secretary Nielsen. Yes, sir.
    Chairman Thompson. It is in detail. It is not where it 
needs to be, so I want to encourage you there.
    Asylum seekers. A lot of us have had an opportunity to talk 
to a number of people involved. Can you tell the committee why 
asylum seekers are being turned around, contrary to law?
    Secretary Nielsen. Sir, all asylum seekers have the 
opportunity to present their case. We are not turning anybody 
around.
    What we are doing is exercising statutory authority that 
enables us, in conjunction with Mexico, to return to Mexico 
migrants who have arrived from that country to await their 
processing. This is to assure a safe and orderly flow and to 
ensure that their humanitarian rights are protected.
    Chairman Thompson. So your testimony is that, to your 
knowledge, no one presents themselves for asylum and is not 
presented their rights as to what they have to do?
    Secretary Nielsen. Our policy and processes when we 
encounter, as you know, an alien, is we do provide them with 
information on their legal rights, their ability to access 
counsel.
    I am not sure if you are referring to credible fear. If you 
do not pass that initial credible fear screening, obviously 
then you do not--you can appeal that. But generally speaking, 
you do not go on to meet before an immigration judge for your 
asylum claim.
    Chairman Thompson. So is that something you do in writing? 
Or you do it orally?
    Secretary Nielsen. Both. Both. They are presented with 
information in writing, and then we also, of course, advise 
them orally.
    Chairman Thompson. Can you present this committee with the 
written direction that asylum seekers receive from your 
Department when they present themselves?
    Secretary Nielsen. Yes.
    Chairman Thompson. The other situation is, the President 
made a comment that he really didn't need to do the emergency 
declaration, he just wanted to do it faster. Do you have any 
information for the committee as to what he was talking about?
    Secretary Nielsen. My conversations, of course, with the 
President, generally speaking, are protected under privilege.
    But what I would say is his explanation in general in 
public has been that he hoped Congress would act, that it 
didn't have to come to issuing the emergency declaration if 
Congress had met his request to fund the resources that CBP has 
requested.
    Chairman Thompson. To your knowledge, are you aware of 
family members who have been separated from their children and 
deported back to a country without their children?
    Secretary Nielsen. Yes, sir.
    Chairman Thompson. Can you provide this committee with a 
list of those individuals?
    Secretary Nielsen. I am happy to do that with the one 
caveat that, as you know, that is part of on-going litigation 
in Ms. L, and as long as there are no privacy concerns from the 
court, of course we are happy to provide that. A lot of the 
information is in the Ms. L court with respect to each migrant.
    I would also just note that, consistent with long-standing 
practice and the law, before we deport any alien after they 
have gone through the process and receive a final order of 
removal, we do ask them if they would like to take their 
children with them. At that same time, their consulate or 
embassy, for purposes of issuing them travel papers, also asks 
them, Would you like to be removed with your children as you 
are removed? As part of Ms. L, the judge also asked us to go 
back--ask the parents again, in conjunction with the ACLU, 
which we did.
    So there was no parent who has been deported, to my 
knowledge, without multiple opportunities to take their 
children with them.
    Chairman Thompson. So is this with counsel present?
    Secretary Nielsen. I am sorry?
    Chairman Thompson. Is this with their attorney present?
    Secretary Nielsen. I can't speak to every case with that, 
sir.
    Chairman Thompson. So what is----
    Secretary Nielsen. They have the right to a counsel, as you 
know, but the U.S. Government does not pay for that, pursuant 
to the law.
    Chairman Thompson. So explain how one would acquire counsel 
if they don't know it.
    Secretary Nielsen. We give them lists of available 
resources, legal resources in the area. We work closely with 
the NGO's to ensure that they understand the options for that. 
Then certainly, when they work with the consulates and 
embassies as part of that removal process to receive the travel 
authorization, the embassies and consulates also provide them 
with information and ability to access counsel.
    Chairman Thompson. Some of us have had an opportunity to 
see some of the enhanced barriers being placed on ports of 
entry. We tried to find a policy directive that said we should 
close lanes and put barriers on those, concrete barriers and 
barbed wire. Are you familiar with any such policy?
    Secretary Nielsen. The general direction for the safety of 
the migrants and the officers who work at the ports of entry is 
to ensure a controlled environment, particularly after we saw 
the violence from one of the caravans in the fall. Many of the 
local border chiefs, border--excuse me, the OFO officers at the 
ports determined what was needed to ensure that there was 
safety and security at the ports. So that is for the migrants, 
that is for the officers.
    So generally speaking, that was done on a case-by-case 
situation with the overall direction to ensure the integrity 
and safety of that area.
    Chairman Thompson. So there is no written policy?
    Secretary Nielsen. It is not a policy, sir, per se. But the 
direction is clear--to protect officers and migrants and ensure 
a safe and orderly flow.
    To do that, we have to make sure that the migrants go 
through the designated area. So the enhancements to the port of 
entry was to disable them from at their own risk, which we have 
seen many times, running across lanes of traffic or trying to 
go around a port of entry.
    Chairman Thompson. Thank you.
    The Chair now recognizes the Ranking Member.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to follow up on something you referenced in your 
opening statement and then the Chairman probed you on, to more 
fully understand this asylum-seeker circumstance.
    You made reference in your statement that for many of--
well, first of all, that 90 percent of the asylum seekers are 
denied when they actually finally have their hearing. Those 90 
percent generally have already blended into the society. We 
can't get rid of them.
    If we know only 10 percent are going to be approved based 
on history, I just don't understand why we are letting people 
in while they wait on their hearing. You made reference in your 
statement that many of them are allowed to stay in Mexico until 
their hearing date.
    My question is, why aren't all of them required to stay in 
Mexico until their hearing date, so that way we can monitor 
them while they are here for the hearing and if they are 
approved, they can stay, if they can't, they go back to Mexico? 
Is that because of some statutory reason or why?
    Secretary Nielsen. It is actually more based around we are 
trying to do this in a very reasoned way. So we are expanding 
that program across the border. We work and notify the Mexicans 
as we do that. You have seen statements made by their 
equivalent to Secretary Pompeo and my equivalent that they are 
determined to protect the humanitarian rights.
    So we do it in conjunction with them. As we expand the 
program, we are doing it in a systematic way. But the goal is 
to expand that across the border.
    Mr. Rogers. So you are trying to get to the point where 
only people can get in for the hearing at the time of the 
hearing?
    Secretary Nielsen. Yes.
    Mr. Rogers. Excellent.
    What can we help you with to make that happen more rapidly?
    Secretary Nielsen. So we have all of the authority we need 
from the underlying INA statute. What we are looking for is 
additional requests, if any, that we need to come back to you 
with. This requires some new things--for example, 
transportation from the ports to the courts. So when we have 
the court date, we will go back to the port to pick up the 
migrant, take he or she to the court. That is not a 
transportation need we have had in the past.
    So that is just one example, but we are looking through to 
see if we can fund those as we expand the program with our 
current resources. If not, we would come back with a request.
    Mr. Rogers. My understanding is that the Mexican government 
has made available asylum to all asylum seekers who have been 
coming from south of Mexico into the country trying to get to 
the United States. Is that accurate?
    Secretary Nielsen. My understanding is they have offered 
both asylum to the vast majority, if not all, of the migrants 
but they have also offered work permits.
    Mr. Rogers. So if somebody is fleeing Venezuela or Honduras 
because of their concerns over safety, and they get into 
Mexico, by the time they get to Mexico's northern border to 
come in our country, there is no danger to them and their 
safety.
    Secretary Nielsen. My plea to anybody that chooses to take 
this journey is to please seek protection as soon in the 
journey as possible. It is an extraordinarily dangerous 
journey. So my advice to migrants throughout the region is 
please accept protection as soon as possible.
    Mr. Rogers. OK.
    I would like to give you some time--you made reference to 
the Northern Triangle that you--in your opening statement--if 
you would like to talk more about it, would you tell us what 
you had in mind?
    Secretary Nielsen. Sure. So beginning about 9 months ago, I 
traveled to the region many times between the border and the 
Northern Triangle in Mexico. I have been there about 25 times 
and have had multiple discussions with my partners in the 
Northern Triangle.
    What we are working on together are ways to dismantle 
transnational criminal organizations, to identify the criminals 
who are preying on the vulnerable populations, to work with 
international organizations such as UNHCR to increase asylum 
capacity in the region, to make sure that we are sharing 
information so we understand who is in the flow--that latter 
relates to the increases in special interest aliens that are in 
the flow--and to make sure that we can keep families together. 
So how can we design a system that begins at the start to make 
sure that migrants are protected and they don't need to take 
this dangerous journey?
    Mr. Rogers. Great. Do you know how much the smugglers 
charge people to get across the border generally?
    Secretary Nielsen. So it varies. Our estimates and then 
most recently as last week what we heard from Mexican 
counterparts is about $6,000 a migrant. It is more for 
families.
    Mr. Rogers. To your knowledge do they coach the migrants as 
to what to say when they get to the border to be able to get 
in?
    Secretary Nielsen. We have seen instances, absolutely, 
throughout the region where they are provided information on 
pieces of paper. There are also advertisements through social 
media. There is a WhatsApp conversation particular to this, to 
give them, if you will, specific words to claim credible fear 
once they reach our border.
    Mr. Rogers. Great.
    Thank you. My time is expired. I appreciate your service.
    Chairman Thompson. Thank you.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman and the Ranking 
Member for holding this hearing and the Chairman's leadership 
on the issues.
    Madam Secretary, let me thank you for your service.
    Over of the past couple of months, I am very proud of the 
Members of this committee, particularly my colleagues on the 
Democratic side, who almost everyone have been to the border 
because of their desire to be proficient and efficient on 
making the right decisions.
    So my knowledge of this committee has been that every 
single Secretary of Homeland Security I have had a terrific 
working relationship with regardless of the Presidential 
politics or party, because our commitment here is to secure the 
Nation. I believe if a horrific tragedy happens again, it is 
this committee and that in the Senate that will be looked to by 
the American people to devise the right approach.
    Do you believe that you, as Secretary of Homeland Security, 
have the independence of the White House to make the right 
decisions? Can you independently make a decision in contrary to 
the President of the United States on behalf of the American 
people for what is best for them?
    Secretary Nielsen. Ma'am, what I can tell you is I take my 
oath with utmost extreme importance. I always do my best.
    Ms. Jackson Lee. Is that your oath to the American people 
or your oath to the President of the United States?
    Secretary Nielsen. No, ma'am. The oath, as you know, is to 
the Constitution and the people.
    Ms. Jackson Lee. Right, and in that vein, do you have the 
ability to make independent determinations?
    Secretary Nielsen. I do what I believe is best for the men 
and women of DHS and this country.
    Ms. Jackson Lee. Have you advised the President on his 
emergency declaration? Have you given him the grounds for this 
emergency declaration in the context of what emergency means?
    Secretary Nielsen. What I have done is I have given him all 
the facts from the men and women working at the border, many of 
whom I know you have met with, and thank you for that. So what 
I do is I give him the operational reality. Here is what we are 
facing, here is what we are seeing, here are the facts. By my 
read of it, it is an emergency, it is a dual crisis. That is 
the information I provide.
    Ms. Jackson Lee. Well, if there is any data that you have 
given him in particular, I am going to request that it be made 
available to this committee, whether in a Classified session, 
or not, in writing. If there have been any memos that you have 
directed to the President that would have given him the basis 
of calling for, in my opinion, a false emergency declaration, I 
will not judge your data, and you are giving facts, then I 
would like that to be submitted to this committee. Let me----
    Secretary Nielsen. Ma'am, if I could, I would be remiss if 
I didn't say, much of the information that I give in private to 
the President, of course, is covered under confidentiality 
privileges. We are happy to give you any information that we 
work on from the operators, we are very transparent. Most of 
that information, as you know, is published on our website. 
Happy to give you that. But I would not be able to speak to any 
particular conversation I had with the President.
    Ms. Jackson Lee. Well, I will not dwell on that. I will 
leave this to the Chairman of the full committee on the 
question of confidentiality. I think Members of Congress are 
due Classified information and there is a question of 
confidentiality or privilege. I am not sure what you are 
exerting here. But I would offer that----
    Secretary Nielsen. I am not--it is not mine to exert or 
waive.
    Ms. Jackson Lee. Right. So I would say that I would want 
the material that you had provided to the President of the 
United States to make his decision.
    Let me ask you, do you have a census of all of the children 
that are being detained in the various facilities, both the 
ones at the border and others, that are in partnership with 
HHS? Do you know how many young people are detained?
    Secretary Nielsen. Yes, ma'am. I don't have that number in 
front of me. We have all of the numbers----
    Ms. Jackson Lee. Would you provide that for me?
    Secretary Nielsen. Yes.
    Ms. Jackson Lee. The next question is, what is the pathway 
of reuniting those children detained? My number is about 
12,000-plus. What is the pathway for reuniting those children 
presently existing in detention centers who have been there for 
1 year, 2 year, 3 years-plus?
    Secretary Nielsen. So, the best data that we have is the 
data that is been approved from the Ms. L case. I believe you 
all have access to that. I don't want to take up time, unless 
you would like me to, in reading it. But it walks through how 
many children remain in the custody----
    Ms. Jackson Lee. But can you give me a number for the 
record?
    Secretary Nielsen. Yes. So, there is--sure. It breaks down 
two--of the original 2,816 that the court identified, 2,735 
have been discharged.
    Ms. Jackson Lee. Right. But I am asking you for those that 
are in the partnership between Homeland Security and HHS, you 
have centers around the Nation, some run by Southwest Keys, 
upwards of 12,000 children. Have you tried to reunite them with 
some guardian or family member?
    Secretary Nielsen. Yes. So, HHS is, as you know, under 
TVPRA, it is required to find a sponsor for the child. That is 
what they do. So that is part of----
    Ms. Jackson Lee. That is a program that I designed and I 
believe that it should be in cooperation. I would ask you on 
the record not to give the answer now but I need to know the 
numbers and how many are being reunited. Because ICE has 
represented that they are stopping those families from being 
reunited.
    Secretary Nielsen. ICE is not stopping families from being 
represented. There are 3----
    Ms. Jackson Lee. Reunited.
    Secretary Nielsen. Reunited. There are 3 instances, long-
standing practice, which CBP, not ICE, encounters a family unit 
presenting as a family unit, where separation may be necessary. 
The first one is if the adult accompanying that child is not a 
parent or legal guardian. The second, if there is a risk to the 
child. The third is if the parent otherwise needs to go to a 
custodial prosecutorial setting.
    Long-standing process, the numbers are not high, happy to 
provide them with you. But that is what CBP does at the border 
for the protection of the child.
    Ms. Jackson Lee. Mr. Chairman, thank you. I will have 
questions for the record. Thank you. The answers have not been 
given. Thank you so very much.
    Chairman Thompson. Thank you very much. Chair recognizes 
the gentleman from New York, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary, thank you for your service and I appreciate you 
being here today. I would like to focus, if we could, on 
unaccompanied minors, specifically involving MS-13. My 
district, unfortunately, is probably the epicenter of MS-13. We 
had a series of 25 murders within 18 months in the fall of 2015 
to the spring of 2017. I think almost all the victims were 
immigrants, documented and undocumented.
    So it was a slaughter within the immigrant community. What 
we found was that many of those murders were carried out by 
unaccompanied minors. I think in the most recent series of 
indictments, of the 11 indicted for murder, 7 of them had come 
across as unaccompanied minors.
    Let me commend your Department and others. Since April 
2017, there have been no murders. There are 25 in the previous 
18 months, none in Suffolk County since then. I commend you for 
that. HSI has done an outstanding job. FBI, Justice Department, 
are working in conjunction with the Suffolk and Nassau County 
police. So I thank you for that.
    But what was found at the time was that these minors coming 
across, a number of them, were actually sent by MS-13 or--if 
they weren't sent by MS-13, the families that volunteered to 
take them in from HHS were either supporters of MS-13 or had 
relatives back in Central America whose lives were being 
threatened if they did not take them in. Then they went into 
the schools and in certain schools, there are actually areas of 
the school that were taken over by MS-13 young people.
    Again, as I said, a series of the--and lots of those 
murders were carried out by MS-13. What the police said at the 
time was, they were concerned that there was no vetting when 
these unaccompanied minors--I know they get turned over to HHS 
so this is more--maybe more of an HHS issue than yours.
    But again, as to whether or not they had any MS-13 
connections, nor was there any vetting of the families who were 
volunteering to take them. Nor were the local police notified 
when these unaccompanied minors were coming into these school 
districts. The school district had no choice but to take them.
    So, I ask you now, is there increased vetting as to knowing 
whether or not these unaccompanied minors have any MS-13 
connections, whether or not the families volunteering to take 
them have MS-13 connections, and are local law enforcement 
notified when these unaccompanied minors come into their 
districts?
    Secretary Nielsen. Thank you. Let me take them in bite 
sizes. We do now do background checks. One of the things I was 
very concerned about when I came in as Secretary is that we 
were not doing enough to protect children to ensure that the 
adult coming to pick them up out of HHS care did not pose them 
a threat. Certainly one of the threats that could be posed 
would be if that adult was part of MS-13.
    We now do background checks. HHS uses the information on 
that background check to determine the suitability of the 
sponsor before they release the child. I am not aware, and I am 
happy to get back to you, for the record, I am not aware of HHS 
consistently tells communities where UACs are placed and if 
there is a concern that the UAC might have gang ties. I am not 
aware of that but I am happy to get you that information from 
HHS.
    On the front end, when we encounter UACs, certainly if we 
believe they are a risk in any way, the brief time that we have 
them before we transfer them to HHS, we will separate them out 
from the other population of children for the safety of the 
other children. But other than that, we do not have a 
systematic way to ask UACs or look into their background while 
they are in our custody.
    Mr. King. Do you feel there is enough cooperation between 
DHS and HHS?
    Secretary Nielsen. We do work very closely together. Day to 
day, we share the modeling, the projections, what children are 
coming in, what children they are releasing. It does, in my 
opinion, need to be a bit stronger with respect to ensuring 
that the sponsors do not pose a threat.
    Mr. King. OK. Thank you, Secretary.
    Again, thank you for your efforts. It has been--again, that 
drop-off for murders has been phenomenal. From 25 to zero. So 
thank you very much.
    Chairman Thompson. The Chair now recognizes the gentleman 
from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Madam Secretary, welcome. Thank you for being here today.
    Now let me establish, from the outset, that we all want 
stronger border security. The question is what is the most 
efficacious way of getting us there and not creating a solution 
that fills a political promise but doesn't really achieve 
strong border security.
    So I want to just follow up on an issue brought up by the 
Chairman earlier regarding border crossings. Look, I have long 
held that and I have an interest in ensuring that we are making 
policy based on sound data and credible threats. So it is my 
understanding, and you have testified to some of this this 
morning, that your Department keeps accurate statistics of the 
number of apprehensions at the border. Is that correct?
    Secretary Nielsen. It is, yes.
    Mr. Langevin. These statistics are compiled annually by 
U.S. Customs and Border Protection and published publicly on 
its website. That is correct?
    Secretary Nielsen. Yes. We actually compile them monthly 
and publish them, but yes.
    Mr. Langevin. According to this report, so the number of 
apprehensions at the border in 2000 was 1.6 million. Does that 
sound right?
    Secretary Nielsen. It was over a million. Yes, sir.
    Mr. Langevin. OK. These statistics show that in 2018 the 
number of apprehensions had fallen to just under 400,000. That 
is a drop of 75 percent. Is that right?
    Secretary Nielsen. Yes, sounds about right.
    Mr. Langevin. OK. So I have a chart that I would like to 
display that shows the change in apprehensions. So I want to 
ask you about what the President had said about border 
apprehensions. While touring the South Texas border on January 
10, the President stated of the Border Patrol, there were so 
many apprehensions ever in our history. So, Secretary Nielsen, 
what the President said was not accurate, was it?
    Secretary Nielsen. I apologize. I don't know the full 
context of that. What I can tell you is we have encountered 
more family units per month than ever in history.
    Mr. Langevin. No, no. What the President said, is it 
accurate or not?
    Secretary Nielsen. I just don't know the context of his 
statement, sir. If he was talking about family units in a 
particular sector, that is----
    Mr. Langevin. No, no. I am talking about the number. We 
went from 1.6 million in 2000, apprehensions, and 400,000 in 
2018. The President said that there were never so many 
apprehensions at the border in history, up until now. Is that 
accurate? Was the President accurate?
    Secretary Nielsen. Again, it depends on the context, 
because it depends on the type of migrant, sir.
    Mr. Langevin. OK. It is either--the 400,000 figure is 
either accurate or it is not. If it is accurate then the 
President was not accurate. Is that correct?
    Secretary Nielsen. Again, we have had monumental high 
numbers in some areas of the border----
    Mr. Langevin. Mr. Chairman, I am just trying to get a yes 
or a no. It seems self-evident----
    Secretary Nielsen. Sir, I just don't know the----
    Mr. Langevin [continuing]. To me.
    Secretary Nielsen. I just don't know the context of his 
statement.
    Mr. Langevin. OK.
    Secretary Nielsen. So I am trying to give you my most 
accurate testimony. What I can tell you is that, in some 
places, we have had record months of families. In some areas, 
we have had record numbers of apprehensions.
    Mr. Langevin. OK. Well----
    Chairman Thompson. The gentleman, I think he is asking for 
the total number, not a selected category.
    Secretary Nielsen. The total number, we are on track for 
this year for 900,000 apprehensions at the border.
    Chairman Thompson. But that wasn't the question.
    Secretary Nielsen. OK.
    Mr. Langevin. Is the President misleading the American 
people? Is he accurate in what he is saying? It is the largest 
amount of detentions or is it not, apprehensions at the border?
    Secretary Nielsen. In some categories, we have had record-
breaking apprehensions.
    Mr. Langevin. OK. Well, the President has claimed--and the 
way I read it, it has misled the American people. It gave the 
public fundamentally flawed factual information on a key border 
question. Did you take any steps to correct the information 
when the President stated what he did?
    Secretary Nielsen. We provide information that we gather 
from CBP and, well, all of our components for that matter. We 
provide them as a matter of course, to the White House, and we 
try to put those numbers in context.
    Mr. Langevin. Well, Madam Secretary, you know, the reason I 
ask these questions is they really go directly to the heart of 
the rationale for the President's emergency declaration. The 
President has been telling the public that there is an 
emergency at the border because crossings and apprehensions are 
at record-high levels.
    But as you really have conceded yourself in the testimony, 
the facts are exactly the opposite when you are talking--
looking at the actual number. Apprehensions today are 
substantially smaller than they were 20 years ago. So my time 
is expired, but it is inaccurate. It is deceitful, I believe, 
to be inflating numbers or making statements that are not 
accurate. The President is just wrong.
    Secretary Nielsen. Chairman, would you mind if I just 
responded briefly? What I would say, sir, if the larger 
question is about the emergency, unfortunately, what we are 
seeing is a very different situation. So it is not just the 
number. It is the abuse of the migrants along the way. It is 
the sexual abuse. It is the violence. It is the new phenomenon 
that we see of large groups coming, which the system was not 
prepared to care for.
    Many of our facilities were made for maybe 100 people a 
day. We are seeing 1,800 family units in a given sector on a 
given day. So when you put all of the facts together, the 
problem is not just the vastly increasing numbers, and again, 
we jumped another 30 percent from last month. But it is the 
type of migrant that our system is not set up to protect.
    Originally, it was single adults from Mexico; now it is 
mostly Central Americans, and the vast majority are vulnerable 
populations, which are families and children. All of that 
together is a crisis, because the system is not built for that 
type of flow.
    Chairman Thompson. Well, Mr. Langevin, we will follow up 
with some more direct information on that. I would ask the 
Secretary if yes or no would be very helpful in some of the 
questions that you asked. I think that is what Mr. Langevin was 
really trying to get to. Not anything else.
    The Chair recognizes the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Madam Secretary, welcome to this committee. I have been 
following the border probably longer than I care to--back when 
I was a U.S. attorney, Western District of Texas, to 15 years 
on this committee, a Chairman of this committee. Hard to get a 
good solution, but I can tell you, at least as I see it, and I 
just want to get your understanding, that the threat has 
changed.
    It used to be in the old days, we had predominantly males 
crossing for work. Now we have more family units than ever 
crossing because the coyotes understand the legal loopholes 
that we talked about. They now know how to exploit them and 
they are. They are making a heck of a lot of money off it in 
the process and putting children in harm's way up that 
dangerous journey as they go northbound. In fact, in February, 
I think the apprehensions were 76,000 immigrants that were 
apprehended at the border.
    Then you throw on the fentanyls, the meth labs, dangerous 
drugs coming into this country, the human sex trafficking. I 
think it is a crisis. I think the President is correct in 
saying it is an emergency and that we need dire action now.
    I am disappointed we didn't pass the Goodlatte-McCaul bill 
last November. I think it would have solved a lot of these 
problems. But about every Democrat voted against it and 20 
Republicans voted against it. That was a historic opportunity 
and here we are talking about this problem when we know that 
the laws are the magnet that draw them into the United States 
of America.
    Until Congress acts--I look at you and I feel not sorry 
but--it is not your fault. It is Congress that has failed to 
act to solve this problem. Until Congress acts to solve the 
problem, we are going to continue to have this constant problem 
on our border.
    I think the President is doing everything he can, in a 
creative way, as well, to get security down there that I think 
is very important. But I want to also talk about root causes. 
You talk about the Northern Triangle. You spent a lot of time 
down there, I am going down with the--put my foreign affairs 
hat on, the Chairman of Foreign Affairs Committee and I are 
going down to Colombia, to Venezuela. You have got 3 million 
migrants coming out of Venezuela into Colombia and they are 
probably going to start heading up north.
    This is a humanitarian crisis and it is worse. We are going 
down there, and we are also going to go to the Northern 
Triangle. Can you tell us the latest on this Central American 
Security Initiative and how we can stop these families from 
making--paying $6,000--you must be very desperate to say, Here, 
Coyote, let me give you $6,000 to take my child up north. Very 
desperate situation. What can we do to stop that desperation?
    Secretary Nielsen. I would just--in the time that I have, 
let me just give you a couple examples and I can also refer 
back to a question that Congresswoman Jackson Lee asked me. The 
number of unaccompanied children is part of the humanitarian 
crisis. These are children whose parents decided to send them 
alone on a very, very dangerous journey at the hands of, most 
often, smugglers and coyotes or traffickers, into the United 
States.
    What we hear from the Northern Triangle governments, they 
have said this publicly, I am sure that they will tell you when 
you visit them, is they want their children back. Our laws 
uniquely allow us to send Mexican children back home after they 
have gone through a process, and/but do not have a legal right 
to stay. But under the law, we cannot send children from other 
countries back except for Mexico and Canada.
    So the Northern Triangle governments have said to us, they 
will say to you, Please send us our children back. We want them 
reunited with their families and communities here. We don't 
want the smugglers to be able to convince parents to send 
children on this perilous journey where they are absolutely 
victims of violence and abuse.
    As you know, sir, very unfortunately, because of the 
increase of violence, at ICE, when we have families with 
children, we have to give every girl a pregnancy test over 10. 
This is not a safe journey. So I ask again that we change the 
law, we treat all children the same, and we afford them the 
opportunity to go back home if they have no legal right to be 
in the United States.
    The other part of this that I think we need to do is we 
need to find a way to be able to keep families together. 
Families need to be able to be kept together, go through the 
process. If they have a legal right to stay, we will welcome 
them here. If they don't have a legal right to stay, the most 
humanitarian thing to do is to remove them efficiently and 
effectively. Both of those changes we need from Congress.
    Mr. McCaul. Thank you, Madam Secretary. I see my time is 
expired.
    Chairman Thompson. Thank you very much. Chair now 
recognizes the gentlelady from New York, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Madam Secretary, I just want to ask you to qualify the 
question that was asked before. Can you confirm that there has 
never been a parent deported under your tenure without finding 
out if they want their children to go with them? Simply yes or 
no. Can you confirm that?
    Secretary Nielsen. To the best of my knowledge, every 
parent was afforded that option.
    Miss Rice. OK. Secretary Nielsen, on June 17, 2018, you 
tweeted, We do not have a policy of separating families at the 
border. Period. Then-Attorney General Jeff Sessions announced 
the Justice Department's zero tolerance policy to prosecute all 
individuals who crossed the border outside of ports of entry. 
He made that announcement on April 6, 2018.
    In a memo to you, dated April 23, regarding the Justice 
Department's zero tolerance policy, CBP Commissioner Kevin 
McAleenan, USCIS Director Francis Cissna, and then-ICE Acting 
Director Thomas Homan stated DHS could also permissibly direct 
the separation of parents or legal guardians and minors held in 
immigration detention so that the parent or legal guardian can 
be prosecuted pursuant to these authorities. Did you read that 
memo? Yes or no.
    Secretary Nielsen. Yes.
    Miss Rice. Did you concur with this assessment made by your 
component agency leaders? Yes or no.
    Secretary Nielsen. There are many assessments in there. I 
concurred with their recommendation on what to do to increase 
consequences for those crossing the border illegally.
    Miss Rice. The piece that I just read, do you concur with 
that?
    Secretary Nielsen. I am sorry, could you read that 
particular----
    Miss Rice. DHS could also permissibly direct the separation 
of parents or legal guardians and minors held in immigration 
detention so that the parent or legal guardian can be 
prosecuted pursuant to these authorities. That specific 
statement----
    Secretary Nielsen. As I understand it, we have the legal 
authority to do that, yes.
    Miss Rice. Did you agree with that?
    Secretary Nielsen. What I agreed to do is----
    Miss Rice. No, did you agree with that----
    Secretary Nielsen. But that wasn't----
    Miss Rice [continuing]. Assessment that they made?
    Secretary Nielsen. That wasn't a recommendation, ma'am. It 
is a legal--it is a legal statement. We do have the legal 
authority to do it, as I understand it.
    Miss Rice. Were you aware that the zero-tolerance policy 
would lead to minors being separated from their parents? Yes or 
no.
    Secretary Nielsen. As we increased consequences for those 
who break the law, just as everywhere----
    Miss Rice. Yes or----
    Secretary Nielsen. Ma'am----
    Miss Rice. I have such limited time, Madam Secretary. I am 
sure you can appreciate that. Can you please----
    Secretary Nielsen. As a--as a consequence----
    Miss Rice. Just answer yes or no?
    Secretary Nielsen [continuing]. For a parent going to jail, 
we in this country do not take the children to jail.
    Miss Rice. So I take that as a yes, that you understood 
that the zero tolerance policy was going to lead to minors 
being separated from their parents?
    Secretary Nielsen. As it has in the last three 
administrations.
    Miss Rice. OK. So the answer is yes. At the end of 
February, Buzzfeed News reported that you did not issue 
guidance on how to implement the zero-tolerance policy until 
May 4, which was about a month after the Attorney General 
Sessions announced the policy. Did you discuss this policy with 
Attorney General Sessions before he announced it on April 6? 
Yes or no.
    Secretary Nielsen. This was an on-going discussion.
    Miss Rice. No, yes or no. Did you discuss the zero-
tolerance policy with the then-Attorney General Sessions before 
he made the announcement on April 6? Yes or no.
    Secretary Nielsen. At some time before the announcement, we 
had the conversation. I did not know he was making that 
announcement that day.
    Miss Rice. But you knew--you had a conversation with him 
about the zero-tolerance policy, yes or no?
    Secretary Nielsen. Zero tolerance means prosecuting those 
who break the law, yes, we as law enforcement agencies----
    Miss Rice. Yes, thank you.
    Secretary Nielsen [continuing]. Talk about prosecuting 
those who break the law----
    Miss Rice. Thank you. Thank you. So then why did you wait 
until May 4 to issue implementation guidelines?
    Secretary Nielsen. Because we wanted to work within the 
Department to ensure we could do it in an appropriately safe 
way with compassion. As you mentioned the memo from my 
component heads came April 23. I then issued after many 
consultations with them the direction to increase prosecution 
between ports of entry, which is the only place where that is 
against the law, for all adults coming across the border 
illegally.
    Miss Rice. So we all know the results of the policy, and 
the compassionate, lack of compassion----
    Secretary Nielsen. Ma'am, it is not a policy, it is the 
law. We enforce the law.
    Miss Rice. The policy is a policy. You just talked about 
discussing that policy with the then-attorney general. So I 
have 1 minute left, I have three quick questions. During your 
tenure as Secretary, how many times have you waived 
environmental regulations required under the Endangered Species 
Act for border barrier construction?
    Secretary Nielsen. There are multiple laws that we look at, 
I can get you----
    Miss Rice. I am asking you specifically about this----
    Secretary Nielsen. I understand, and I am trying to answer 
it. I believe 4 or 5----
    Miss Rice. Four or 5----
    Secretary Nielsen. But I will get you the exact answer.
    Miss Rice. During your--thank you. During your tenure as 
Secretary, how many times have you waived environmental 
regulations under the Clean Water Act for border barrier 
construction?
    Secretary Nielsen. It would be the same number. Again, I am 
happy to get you the exact number.
    Miss Rice. OK. During your tenure as Secretary how many 
times have you waived environmental regulations under the Clean 
Air Act for border barrier construction?
    Secretary Nielsen. It should be the same. I will get you 
the number.
    Miss Rice. OK, thank you. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you Mr. Chairman, and thank you for the 
kind words about my father, I very much appreciate it. Welcome, 
Ms. Nielsen, it is nice to see you again. I have a rather 
unique perspective on the border and I know a lot of people are 
going to talking about the immigration component.
    But the crisis isn't just--not with respect to immigration, 
it is with respect to the drugs that are pouring across this 
border and that are killing our kids at a rate of 5 an hour for 
heroin alone, which is frightening.
    One of the big components of that fentanyl, and just a tiny 
amount of fentanyl is what is proving fatal, most of the heroin 
overdoses now because fentanyl is being mixed with the heroin. 
Can you tell me if there has been any significant seizures of 
fentanyl at the border recently?
    Secretary Nielsen. At the border, yes. In the interior as 
well--ICE overall interdicted more--enough fentanyl last year 
to kill every American twice over----
    Mr. Katko. That is frightening.
    Secretary Nielsen. Substantial amounts of fentanyl.
    Mr. Katko. So that is enough to kill every single American?
    Secretary Nielsen. Twice, yes, sir.
    Mr. Katko. Amazing. Now when I was on the border, I was a 
Federal prosecutor in El Paso, Texas and I was charged with 
going after a cartel-level drug traffickers and we could 
literally get on the roof of the U.S. Attorney's Office in El 
Paso with binoculars and see one of the cartel member's houses 
across the border in Juarez.
    So--and I am intimately familiar--based on the prosecutions 
I did there, about their patterns and practices. I know that 
they use oftentimes the same smuggling routes for drugs that 
they use those for human traffickers, as well.
    But I also know that when you beef up security and you beef 
up scrutiny at the ports of entry, at least back when I was 
there in the mid-1990's that they often just simply went around 
and avoided the ports of entry. Can you tell me, is that still 
holding true today, where if you put a pressure point in one 
place, they find the other holes in the border and go across 
there?
    Secretary Nielsen. Yes, sir, that is still true.
    Mr. Katko. OK. So with respect to that, is it important--
isn't it fair to say it is important that if you have--if you 
increase the scrutiny at the ports of entry, which is 
absolutely critical, that you also need to beef up the other 
parts of the border with barriers where necessary, and sensors 
and all the other things?
    Secretary Nielsen. It is not an either/or----
    Mr. Katko. That is exactly right--that is my point.
    Secretary Nielsen. Yes.
    Mr. Katko. OK. So I think it is incumbent when we have this 
discussion to understand that we all agree--both sides of the 
aisle--that beefing up the ports of entry and the security, and 
using the highest technologies we can there is critically 
important.
    I was always amazed at the ingenuity of the drug 
traffickers in secreting the drugs--and humans in vehicles 
coming into the ports of entry, so we have got to do that. But 
as soon as you do that they are going to go out to the areas 
where the weak points are. Can you tell me where some of the 
weak points are now that need barriers?
    Secretary Nielsen. Sure, particularly in the Rio Grande 
Valley which is one of the areas that we will focus on with the 
new border funding. El Paso is a particular area where we see 
increased flow, particularly with the number of families, it is 
well over 1,000 increase in families traveling through that 
particular area. Of course when I say El Paso--you know I mean 
the sector----
    Mr. Katko. El Paso sector, I understand.
    Secretary Nielsen. Yes, sir, through the ports of entry. So 
those are the two main areas. As you know we have a border 
security improvement plan that we provide, that we update each 
year and we go in a risk-based way as to where those smuggling 
routes and violence are.
    Mr. Katko. Now the barrier that is being contemplated, that 
has been a subject in much consternation over last several 
months, it is not for the entire Southern Border, is it?
    Secretary Nielsen. No, sir.
    Mr. Katko. How much are we really talking about? How many 
more additional miles of barrier are we talking about?
    Secretary Nielsen. About 700--a little more than 700.
    Mr. Katko. That--and is it fair to say that up until this 
administration it is been a pretty bipartisan agreement that 
barriers are needed at certain points along the border?
    Secretary Nielsen. Yes, sir.
    Mr. Katko. OK. I want to switch gears, if I may, just for a 
moment with respect to cybersecurity, which I am the Ranking 
Member of that subcommittee right now. There is a bill that we 
are going to be submitting next week that suggests and asks 
that a Cyber Security Infrastructure Advisory Committee be 
created, similar to what we did with TSA--the ASAC Committee. 
Are you familiar at all with that bill, and are you--do you 
think an advisory committee is necessary?
    Secretary Nielsen. So we are happy to work with you on 
that. We do have a critical infrastructure advisory council 
already, but we have been looking into whether we need 
something that can focus more specifically on cyber because it 
is a unique expertise as you all know. So we are happy to 
continue to have our staff work with you on technical 
assistance on that.
    Mr. Katko. Right, and as far as saying that cybersecurity 
is probably one of the biggest threats to our country right now 
overall, and so the more we can have information flowing going 
back and forth between the stakeholders and Homeland Security, 
the better it is going to be.
    Secretary Nielsen. Yes, sir. I know it is not the 
particular topic today, but I will just say as I have said 
before--the threat to cybersecurity is blinking red, it is 
absolutely one of--if not the highest threat that we have faced 
in the homeland.
    Mr. Katko. Thank you, Ms. Nielsen. I yield back, Mr. 
Chairman.
    Chairman Thompson. Thank you. Chair now recognizes 
gentleman from California, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman, and thank you for 
holding this most important hearing, and, Secretary Nielsen, 
thank you very much for being here as well, ma'am. We just 
wanted to very quickly follow up with some of the comments made 
from my colleague--learned colleague from New York, Mr. Katko.
    Ma'am would you say as they continue to squeeze the 
Southern Border, are we going to look--there is so much money 
in drugs now.
    Secretary Nielsen. Yes, sir.
    Mr. Correa. You just came back from the Northern Triangle, 
you know what's causing all kinds of problems is our U.S. 
dollars corrupting those systems in Central America.
    So as you continue to squeeze the Southern Border, would 
you say our sea ports are also going to be susceptible as being 
areas of the smuggling, and possibly the Northern Border--
Canadian border, would you say that is also a place that could 
be used--if not now, but in very near future by smugglers to 
bring in drugs?
    Secretary Nielsen. We do it all based on risk, but yes, 
sir, criminals will find a way unfortunately to do whatever 
their criminal act----
    Mr. Correa. As long as we keep use--paying for those--
unfortunately those illicit drugs people are going to find a 
way.
    Secretary Nielsen. The drug demand is a very large problem, 
yes, sir.
    Mr. Correa. Thank you. I am going to shift very quickly 
ma'am, and last year, Secretary Nielsen, I sent you a letter 
regarding family separation dated June 20, 2018. I have not 
gotten a response yet from your office that is satisfactory. 
These are black-and-white questions.
    I resubmitted this letter to your Border Patrol Chief Carla 
Provost last week, and I am going to submit the same letter to 
you today. I am hoping that we can work together to find some 
answers to these questions on family separations. One of my new 
assignments is I am going to be Chair of a subcommittee on TSA 
security.
    Like everybody else in this committee, we are all concerned 
about safety, especially terrorists, anti-terrorists 
activities. You stated recently that, to Congress, in fiscal 
2017, DHS prevented 3,700 known or suspected terrorists from 
coming into the United States. I think most of these were being 
stopped at our airports. Is that correct?
    Secretary Nielsen. Yes, sir.
    Mr. Correa. Something like 3,700 were actually stopped by 
our TSA agents at airports, maybe less than 100 Southern 
Border--excuse me--less than 10 at the Southern Border and more 
like 100 at our Northern Borders. That sound about right?
    Secretary Nielsen. The majority were through the air 
environment. The only thing I would just add is many of them 
are actually identified by CBP as part of the vetting before 
they travel. So they are either stopped from traveling or, as 
you say, stopped by TSA or CBP once they arrive.
    Mr. Correa. So this is the work that you do in coordination 
with other nations around the world? Brazil--I know Brazil is a 
very popular jump-off point to the United States, in terms of 
possible suspected terrorists.
    Secretary Nielsen. Brazil has a much more open visa 
enterprise. So, because of that, yes, sir, we do see it being 
exploited, unfortunately.
    Mr. Correa. The reason I ask this is because I want to do a 
deeper dive into some of these numbers to really put our 
resources where we really need to focus on stopping terrorists. 
In fiscal year 2018, open-source reporting by CBP data, only 6 
suspects caught at the Southern Border. I presume you continue 
to have the vast number being stopped at our airports?
    Secretary Nielsen. So I can't speak to the--as you can 
understand, I can't speak to the particular number of 
terrorists stopped at the Southern Border because that is 
Classified, at least not in this setting.
    Mr. Correa. Correct. I will look forward to working with 
you in a Classified setting to address these issues.
    Secretary Nielsen. I would be happy to. Just really 
quickly, for perspective, though. I would say, as you know, 
there is another category called special interest aliens, where 
those who have been identified as individuals who travel or 
have other aspects that are very similar to a terrorist. We do 
have increasing numbers of those coming throughout the system--

    Mr. Correa. Let me say, I am running out of time. I want to 
work with you on these issues----
    Secretary Nielsen. I understand.
    Mr. Correa [continuing]. And deeper dive. But our TSA 
officers, I am concerned because TSA was put together after 9/
11. They were actually being paid by the airports at that time. 
Now, we find out, TSA officers have to be professionals. They 
have to be well-trained because we see where the challenge is 
when it comes to stopping terrorists coming into the United 
States.
    So I look forward to working with you and coming up with a 
package for some of these officers to make sure they are the 
best of the best. Finally, I wanted to say, I was in the 
Northern Triangle, I think, the day or so before you were 
there.
    Secretary Nielsen. Yes.
    Mr. Correa. I want to say, hats off to those northern 
tribal countries trying to work with us. I know Honduras, for 
example, the jump off point to a couple of those caravans, the 
president of Honduras told us that 90 percent of that first 
caravan, those folks had actually been returned to Honduras.
    The second caravan, about 5,000, 60 percent had actually 
been returned, and the rest has actually stayed in Mexico. What 
I am trying to say, if I would make factual--if I had more time 
is, this is not a border issue. This is a regional refugee 
challenge.
    My colleague, Mr. McCaul, talked about all the refugees 
from Venezuela to Colombia, but this is a refugee issue. 
Mexico, I understand, is holding a lot of those refugees and 
offering them, in your words, permits to stay, work permits. I 
am hoping we can turn the discussion from building a wall to 
border security to addressing a refugee crisis in this 
continent.
    The one--if I may, Mr. Chairman, the one word people in 
Central America kept repeating to me was folks in Central 
America want hope, hope for a better life, a better job, some 
security. I hope you can sit down and put the political 
rhetoric aside and focus on giving these human beings a little 
bit of hope of staying and building lives.
    Mr. Chair, I yield.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, Secretary 
Nielsen, for being here today. Secretary Nielsen, what is the 
volume of drugs that is coming through the Southern Border 
illegally?
    Secretary Nielsen. I don't have--I don't have the exact 
figure at my fingertips, but it is going up, particularly 
cocaine, methamphetamines and, unfortunately, fentanyl.
    Mr. Walker. Our numbers show, since fiscal year 2012, about 
15 million pounds seized. Does that sound--that is in the 
ballpark?
    Secretary Nielsen. It does, but it sounds like it might not 
include the Coast Guard.
    Mr. Walker. OK. So, 15 million pounds, that--would you say 
that is a crises, 15 million pounds?
    Secretary Nielsen. Yes, sir.
    Mr. Walker. We talked about fentanyl a little bit earlier, 
a drug so powerful that less than 5 pounds can kill over a 
million people. Our numbers show that almost 1,700 pounds in 
fiscal year 2018. Is that somewhere in the ballpark?
    Secretary Nielsen. Yes.
    Mr. Walker. Would that be a crisis to the DHS?
    Secretary Nielsen. It is because it is a extraordinary 
danger to our communities, but it is also a danger to those who 
are inspecting packages. We have spent a lot of time on 
training. We had to do a lot of things differently, even for 
the dogs who were dying just by virtue of breathing the fumes 
from the fentanyl.
    Mr. Walker. We have talked about the massive amount of 
individuals--or people coming across the Southern Border. Do 
you have any estimates per year of what that looks like?
    Secretary Nielsen. We are on track right now to be at 
900,000 this year.
    Mr. Walker. Are apprehensions of family units and aliens of 
accompanied alien children increasing or decreasing right now?
    Secretary Nielsen. They are increasing extraordinarily 
rapidly. Family units went up about 30 percent from last month, 
and the same for UACs. Those are the two vulnerable populations 
that are dramatically increasing.
    Mr. Walker. Yes, I think in the fiscal year 2018, the 
number was 107,000. Already, the first 4 months of fiscal year 
2019 that starts in October is 99,000. Now, have you had a 
chance to meet former DHS Secretary Jeh Johnson?
    Secretary Nielsen. Yes.
    Mr. Walker. OK. I wonder if we would also consider this a 
crisis, because, since the previous administration, that number 
has increased 572 percent. My question, at what point does it 
become a crisis?
    Secretary Nielsen. Sir, if you ask the men and women of DHS 
they would tell you, when one migrant dies, when one person is 
not afforded the opportunity to efficiently claim asylum, they 
would tell you--for a community that has been the victim of 
violence due to criminals that come in that flow, they would 
tell you, any--it just takes one. It takes one terrorist, it 
takes one criminal to ruin a family's lives, and it takes one 
overdose to kill an American.
    Mr. Walker. Did you have any idea of the level of how 
difficult and dangerous the issue was just a few years ago 
before you took the position? Or has this been something that 
has been sort-of a knowledge that you have ascertained since 
you have been in the position of Secretary?
    Secretary Nielsen. I, before becoming Secretary, did not 
have the opportunity to speak in detail to the men and women on 
the front lines. No, I was not aware of how dangerous a 
situation it is.
    Mr. Walker. Do you think most Americans truly understand 
how dangerous this situation is?
    Secretary Nielsen. I do not, no.
    Mr. Walker. If most Americans had a chance to go to the 
border, would they consider this a crisis?
    Secretary Nielsen. Yes, sir, just by the pure numbers 
coming in and our inability of the system to properly take care 
of them.
    Mr. Walker. What kind of job do you say the men and women 
that work for Immigrations Custom and Enforcement, ICE, what 
kind of job on the front lines are they doing?
    Secretary Nielsen. Extraordinary. They work every day, many 
times at risk of their own lives. Assault on Border Patrol 
agents continue--or, excuse me, on Border Patrol officials 
continue to rise.
    They do it with compassion. They live in these communities. 
They enforce the law, but they want to make sure and continue 
to ask me to ask to Congress to change the laws so that the 
system can be more humane.
    Mr. Walker. You know, we talk a lot about as far as people 
having input who actually are on the front lines doing the 
work. I--according to our numbers--in 2017--we talk a lot about 
children and we should.
    We should make sure that we restore as many children as we 
can. I did hear the three reasons of why that may be a problem 
sometimes prosecutorial, the guardian poses a risk or there is 
another issue that you have to take a look at.
    But according to our numbers there were 906 children that 
were rescued from exploitation just in 2017. Does that number 
match your numbers, as well?
    Secretary Nielsen. Yes, sir. Human trafficking and child 
exploitation are something that we are working on. We are about 
to release the first ever DHS strategy to combat that. But yes, 
the numbers are going up.
    Mr. Walker. So all of these numbers continue to go up, 
whether it is the human trafficking or it is the drug 
smuggling. The former colleague just talked about the more we 
squeeze the border. Well, evidently the numbers continue to 
rise. So as we look at all these numbers, in summary, can you 
tell the American people this is not manufactured crisis, this 
a legitimate National emergency?
    Secretary Nielsen. This is a legitimate National emergency, 
this is a twin crisis, and we can do better as a country. We 
have to have a system where we can protect vulnerable 
populations, we can secure our border which is our sovereign 
responsibility, we can protect communities, while facilitating 
legal trade and travel.
    Mr. Walker. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chair now recognizes the young lady from New Mexico, 
Ms. Torres Small.
    Ms. Torres Small. Thank you, Mr. Chair.
    Secretary Nielsen. I am the only Member on this committee 
that represents a Southern Border district. In fact, I 
include--and it includes 180 miles, almost, of that Southern 
Border and a lot of it is remote, rugged terrain. We have seen 
in recent months that my district has experienced more migrant 
families showing up between ports of entry and--such as the 
boot heel of New Mexico.
    As we have learned through the tragedy of two migrant 
children deaths under CBP custody, most of the CBP facilities 
near these rural areas aren't equipped to process large groups 
of migrants. We have to ensure that our agents on the ground 
have the adequate resources and technology to effectively 
patrol these areas, keep our communities safe, and provide 
quality care to migrants voluntarily presenting at our border.
    What changes in policies and procedures have you 
implemented to ensure that CBP can adequately adapt to the rise 
of people voluntarily presenting at the border and who are 
showing up between ports of entry, specifically in these remote 
areas?
    Secretary Nielsen. So what we have done, I would take it a 
couple different ways. On the health screening, as you know, 
unfortunately particularly because of those remote areas, many 
of the migrants when they reach our border are very sick.
    So I have worked with CDC, we have worked with HHS, we have 
worked with the local communities. I have spoken to your 
previous Governor and your current Governor about this exact 
issue. I have asked my bipartisan advisory council to look at 
this particular issue on families and children and what we can 
do better.
    We have increased our medical screening. We screen every 
child that comes into CBP care. ICE, as you know, if the 
migrants proceed onto ICE detention, do receive, within 7 days, 
a full medical checkup. So we focused a lot on the--on the 
medical part.
    In terms of the ability to understand what migrants are 
coming through remote areas, we are working much more closely 
with Mexico to identify the flows so that we can have CBP there 
to rescue them as soon as possible. As you know, we rescued 
4,300 in distress last year alone, many of them coming through 
remote areas where they are dehydrated, they are cold, they are 
otherwise sick, they haven't had adequate resources and food 
for quite some time.
    So we continue to look at all of the processes, but this is 
something that we are trying to do the best we can within the 
limited resources that we have.
    Ms. Torres Small. One of the issues that I didn't quite 
hear addressed there is transportation.
    Secretary Nielsen. Yes.
    Ms. Torres Small. As you know, one of the children who 
died, part of the challenge was the transportation to a medical 
facility. So sometimes the hardest but most-learned lessons 
come from past failures. What is the status of the 
investigation into the deaths of those two children? When will 
you release the results of those?
    Secretary Nielsen. So, as I understand, the status of the 
investigation right now is with the medical examiner. So until 
the medical examiner in both cases releases their final 
findings, our Office of Professional Responsibility and our 
investigator general cannot complete their report. I did ask 
this question recently, I have not been able to ascertain from 
the ME when that will be done. But as soon as that will be 
done, the other parts of the oversight will wrap up their 
investigations and I am sure they will provide, as appropriate, 
their findings.
    Ms. Torres Small. Do you have any sense of a time line?
    Secretary Nielsen. I don't. I have asked, of course, that 
we do it as quickly as possible. There are some extenuating 
circumstances there. I think the ME is trying to look at 
information about the health of the child as they traveled 
along the journey. So I really don't. I wouldn't want to speak 
for them.
    Ms. Torres Small. What can you do to make sure that it 
comes--happens as quickly as possible, as you said?
    Secretary Nielsen. I can just keep bugging them and ask 
that we do it very speedily so that we can incorporate any 
lessons learned into our processes and procedures.
    Ms. Torres Small. Thank you. Are you looking into the 
policy of metering at the ports and how that might increase the 
role of human traffickers to take migrants between ports of 
entry and also drive them to these rural areas?
    Secretary Nielsen. So, it does--as I mentioned earlier, it 
does have to be an ``and'' approach, it can't be an ``either/
or'' approach. The queue management at the ports is simply to 
ensure that CBP can perform all its statutory missions but, 
very importantly, to protect the migrants coming in. As you 
know, when you have seen the facilities, they were built for 
maybe 100 people a day. They are just not adequate to process 
and hold large numbers of people.
    Ms. Torres Small. One of the challenges, though, is if you 
are controlling it at the ports of entry, they can still go to 
a place between the ports of entry where there is the same lack 
of facilities and sometimes worse. So are you looking at that 
impact?
    Secretary Nielsen. Yes, ma'am, and that is why our 
operators have asked for impedance and denial in the form of 
obstacles.
    Ms. Torres Small. Thank you. What has done--CBP done to 
minimize attrition in hard-to-fill locations such as Lordsburg 
or Deming to make sure that we have agents in our most remote 
stations?
    Secretary Nielsen. So, we continue to look at this, I know 
we are running short on time. I am happy to work with you. We 
work closely with the unions on this issue. We are looking at 
everything from retention bonuses to ability to add additional 
salary when we transfer, additional benefits on the backend, 
but, yes, this is a problem that we take very seriously and 
where we are working with all parties on.
    Chairman Thompson. Thank you very much.
    Chair now recognizes gentleman from Louisiana, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. Madam Secretary, 
thank you for your time, your dedication to our country and for 
your devotion to restore sovereignty along our Southern Border. 
My colleague earlier, Representative Langevin, put a graph up.
    I have asked that it be put back up, that request had been 
declined. But I will refer to it because it certainly shows 
that an all-of-the-above strategy to secure our border works. 
Since 2000, our colleague's graph showed a decrease in illegal 
apprehensions.
    Since 2000, 19 years ago, we have built more than 650 miles 
of physical barriers along the border to help control illegal 
crossings. We have deployed sensor technology and increased 
Border Patrol staffing. This is exactly why--and a bipartisan 
solution exists before us, my friends, and it does not make 
sense to me why this has become a partisan issue since 
President Trump's election. Physical barriers, technology, 
enhanced capacity to respond, they work.
    This does not mean the current crisis does not exist. Let 
me just put this in context for the American people. Perhaps 
the most famous invasion in the history of the world, D-Day, 
73,000 American troops landed in the D-Day invasion. We have 
76,103, according to my numbers, apprehensions along our 
Southern Border last month. We have a D-Day every month on our 
Southern Border.
    Just to put this in context for America, yes, physical 
barriers work. Enhanced technology works. The ability to 
respond and arrest, to process works. Of course, none of us 
want to separate families. We, as Congress, we have to fix the 
laws and allow these law enforcement professionals to do their 
job. I know the men and women of Border Patrol be highly 
professional and patriotic in their mission to secure our 
border.
    I know first-hand from my experience as a cop, from my 
service on this committee, and from standing alongside front-
line defenders, our border agents deserve respect. They 
certainly have mine.
    I would like to highlight two cases, Mr. Chairman, which 
exemplify the professional manner in which border agents 
conduct themselves. On the morning of January 22, a Honduran 
gentleman, along with his elderly wife, illegally crossed into 
the United States. They were apprehended and taken into custody 
by Border Patrol.
    A few days later, while still in U.S. custody, the Honduran 
gentleman complained he didn't feel well. He had received 
medical care, he was immediately brought to a hospital, medical 
center in El Paso. Within hours, the Honduran gentleman was 
treated by a team of American doctors less than 12 hours after 
reporting his discomfort. He had a brand-new pacemaker 
surgically implanted. The next day, he was given medical 
clearance and his follow-up prescriptions.
    American taxpayers gave this man a pacemaker that crossed 
into our country illegally. We are certainly a compassionate 
and generous Nation.
    Another such example involves a forced separation of a 
mother and her child by coyotes which, by the way, human 
coyotes give our animal friends a bad name. The smugglers 
convinced a mother that it was easier to move the pair 
separately. They separated the child from their parents, they 
left the 3-year-old child on the banks of the Rio Grande.
    It was Border Patrol agents who rescued that child. It is 
Border Patrol agents who rescue thousands of people from 
smuggling and trafficking routes every year. The Southwest 
Border is arduous terrain, difficult, inhospitable terrain. 
Those who choose to come here illegally do so at great risk to 
themselves, their families, and certainly their children if 
they bring them.
    Madam Secretary, please share with America--how many 
rescues did Border Patrol successfully perform last year?
    Secretary Nielsen. Over 4,000, sir.
    Mr. Higgins. Over 4,000 rescues. Madam Secretary, if you 
were given more funding and additional qualified agents, would 
you be able to better secure our border and more 
compassionately enforce the laws that you have sworn to uphold?
    Secretary Nielsen. Yes, sir, again what is important to 
understand is first of all this is a National security concern 
to protect our border. Second, Congress has directed DHS to 
take operational control of the border. I cannot do that with 
these laws and with these resources.
    Mr. Higgins. Thank you, Madam. It is our responsibility to 
change the laws where they need to be changed. I am committed 
to work with my colleagues in a bipartisan manner, Mr. 
Chairman, to change the laws as necessary. It is the law 
enforcement professional's job to uphold those laws and they 
are doing so now. I yield.
    Chairman Thompson. Thank you very much. The gentleman from 
Louisiana complimented our men and women who are doing this 
job. For the record, Madam Secretary, how many vacancies to you 
have in CBP as of this hearing?
    Secretary Nielsen. I am happy to get back to you--what I 
can tell you, the good news is last year was the first year 
that we were able to hire more than who left. So we are 
reversing the trend there.
    Chairman Thompson. Give me a guesstimate.
    Secretary Nielsen. Sir, I don't want to guess under oath, I 
am happy to get you the number.
    Chairman Thompson. So if I said you had over 2,000 
vacancies what would you say?
    Secretary Nielsen. I would say I would be happy to get 
you--respectfully sir, I just--I don't have----
    Chairman Thompson. Does that sound about right?
    Secretary Nielsen. I will get you the number.
    Chairman Thompson. A thousand?
    Secretary Nielsen. Sir, I will get you the number.
    Chairman Thompson. Please get me the number.
    Secretary Nielsen. Yes, sir.
    Chairman Thompson. Chair recognizes the gentlelady from 
Illinois, Ms. Underwood.
    Ms. Underwood. Thank you, Mr. Chairman. There are a lot of 
lawyers in this room and I am not a lawyer, I am a nurse. Madam 
Secretary, I want to be very clear about what the family 
separation policy is doing to children's mental and physical 
health. I want to know if DHS even considered their health when 
developing these policies.
    So I only have 5 minutes, so for these questions I am 
looking for a yes or no answer if you could? When you 
officially began family separation in spring 2018 were you 
aware of research showing it causes trauma that can do both 
immediate and long-term damage to children's health?
    Secretary Nielsen. The information that I was aware of at 
the time was that the trauma is from part of the journey to 
come up to the border illegally.
    Ms. Underwood. OK--so again, we are looking for yes or no 
answers, ma'am.
    Secretary Nielsen. That was what I do know within the 
context of the question.
    Ms. Underwood. OK. Were you aware that the trauma of family 
separation is connected to something called toxic stress?
    Secretary Nielsen. I have--not familiar with that term, no.
    Ms. Underwood. OK, were you aware that toxic stress can 
actually change a child's brain because it is still developing?
    Secretary Nielsen. I wasn't familiar with the term.
    Ms. Underwood. OK, were you aware that the effects of these 
traumas are accumulative, they get worse the longer the trauma 
goes on?
    Secretary Nielsen. Can I--yes, I will--sorry. I would like 
to clarify because we are missing a bigger point here, but yes, 
ma'am, I am sorry respectfully let me answer your questions.
    Ms. Underwood. Were you aware that the traumatic effects 
don't go away, even if a child is reunited with their family?
    Secretary Nielsen. I understand that they are--no.
    Ms. Underwood. OK. Were you aware that family separation 
can lead to behavioral changes and learning delays for 
children?
    Secretary Nielsen. Just to be clear, family separation 
includes the 60,000 UACs who are separated by their parents 
before they ever got to the border.
    Ms. Underwood. I understand. My question is about the 
traumatic effects.
    Secretary Nielsen. I am--so let me just say this and maybe 
it will help you with your questions. Families need to be put 
together, children should never be put in this situation.
    Ms. Underwood. Thank you.
    Secretary Nielsen. We need to fix the systems so that they 
are not.
    Ms. Underwood. Thank you. Were you aware that family 
separation can lead to behavioral changes and learning delays 
for children?
    Secretary Nielsen. Again, kids should be with their 
families.
    Ms. Underwood. I--OK, so I will take that as a no. Were you 
aware that it increases a child's risk of heart disease, 
diabetes, and cancer?
    Secretary Nielsen. I would ask all parents to go to ports 
of entry, not to separate their children and send them on the 
journey alone.
    Ms. Underwood. OK----
    Secretary Nielsen. And not to break U.S. law.
    Ms. Underwood. Thank you. Were you aware that it increases 
a child's risk of anxiety, depression, and substance abuse? As 
a reminder, these are yes or no questions.
    Secretary Nielsen. I--ma'am, if I just cut to the chase, I 
think we are agreeing children need to be with their families. 
We need to fix the system so that we can enable them to do 
that----
    Ms. Underwood. I understand. Ma'am I am trying to ascertain 
your knowledge--your prior knowledge of the health impacts of 
these children when they are separated at the border.
    The American Psychological Association reports that family 
separation is on par with beating and torture in terms of its 
relationship to mental health. Were you aware of that research 
prior to instituting the policy of family separation?
    Secretary Nielsen. We--there is no policy of family 
separation. What we did was increase the number of parents that 
we referred for prosecution. That is what we have done for the 
last three administrations because it is the law----
    Ms. Underwood. Thank you. I will take that as a no. Let's 
go back even further to the El Paso pilot program for family 
separation that reportedly began in 2017. Yes or no, did DHS 
consult with any pediatric health experts before beginning the 
pilot?
    Secretary Nielsen. I was not at DHS at that time, I was 
there in July. I was not aware of the pilot at that time. Then 
I was working in a different department.
    Ms. Underwood. OK, so that would be a no.
    Secretary Nielsen. No, ma'am, I just can't speak to it--I 
wasn't there----
    Ms. Underwood. OK.
    Secretary Nielsen. I am not going to speak to what I don't 
know.
    Ms. Underwood. Thank you. Yes or no, did DHS collect or 
analyze any medical data from the pilot program to evaluate how 
family separation affects a child's physical and mental health?
    Secretary Nielsen. Yes, as I said I have advisory council 
looking at it right now who includes a well-known doctor who is 
looking at these issues.
    Ms. Underwood. Can you provide a copy of that data and 
DHS's analysis to our committee?
    Secretary Nielsen. Of course. The report is not finished, 
but it is a FACA body, so everything is public.
    Ms. Underwood. Great. Did you consult with any pediatric 
experts before this policy officially began in the spring of 
2018?
    Secretary Nielsen. We generally and regularly work with 
them, as you know the children are cared for by Health and 
Human Services----
    Ms. Underwood. Right.
    Secretary Nielsen. But to the extent that we have children 
in DHS detention centers we follow all guidelines by the AMA--

    Ms. Underwood. Right.
    Secretary Nielsen. We work very closely with the medical 
community.
    Ms. Underwood. OK, so then would you provide a copy of that 
communication from DHS with those experts to the committee?
    Secretary Nielsen. Sure, when it becomes available.
    Ms. Underwood. OK. Thank you. So the American Academy of 
Pediatrics wrote to DHS 6 times to explain how family 
separation hurts children, and made a number of public 
statements--yes or no, are you aware of those warnings?
    Secretary Nielsen. I am, which is why I continue to ask 
this committee to work with me so that parents do not separate 
their children. There were 60,000 last year that were separated 
by their parents.
    Ms. Underwood. Thank you.
    Secretary Nielsen. You are talking about 2,000 children 
that resulted from their parents choosing to break the law 
which is why I have continually asked parents to go to a port 
of entry.
    Ms. Underwood. Thank you. So from what I have heard today, 
I am not sure if DHS was so negligent that they didn't know how 
traumatic family separation was for children or if they knew 
and did it anyways. But in my opinion, both are unacceptable.
    Tearing kids and their parents apart like this immoral--
ma'am, it is un-American and it is just plain wrong. Thank you 
for holding this hearing, Mr. Chairman. Secretary Nielsen, I 
will be following up. I yield back.
    Secretary Nielsen. So, sir, I would like to respond 
briefly, if I could----
    Chairman Thompson. Chair recognizes the gentlelady from 
Arizona, Ms. Lesko.
    Secretary Nielsen. Sir, if I could just--if I could just 
really quickly because I think it is very important to just put 
this in a brief context.
    Chairman Thompson. No.
    Secretary Nielsen. OK.
    Chairman Thompson. The gentlelady's time has expired.
    Secretary Nielsen. I didn't have any time, just to be 
clear, to respond. But OK, thank you, with respect. I 
appreciate that.
    Chairman Thompson. Madam Secretary.
    Secretary Nielsen. Oh, thank you.
    Chairman Thompson. Editorializing is not part of the rules. 
So I would just remind you of that. The gentlelady from 
Arizona, Congresswoman Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman, and thank you, 
Secretary, for being here. You have a very difficult job, and I 
believe you are doing a good job. I have 5 minutes, I have a 
question, but I do want you to follow up on what you just 
wanted to say.
    Secretary Nielsen. I just want to clarify really quickly. 
There is so much misunderstanding. There was--the only 
instances at which children have ever been separated in the 
last 2 years is the 3 instances that I went over, which is 
long-standing practice, and when the parents chose to break the 
law.
    Just like when parents break the law in the United States 
of America, we do not put the children in jail with the 
parents. So the parents came illegally. If they would come to a 
port of entry, there is no family separation. If we pick up a 
family in the interior, there is no family separation, which is 
why there has never been a comprehensive policy of family 
separation. I am sorry, ma'am. Please.
    Mrs. Lesko. Thank you. Madam Secretary, would you 
categorize or believe that the men and women that are with the 
Border Patrol and ICE are experts on illegal immigration and 
what is happening at the border, since they are there each and 
every day and dealing with these items? Would you believe they 
are experts on this?
    Secretary Nielsen. I do. Yes, ma'am.
    Mrs. Lesko. Madam Secretary--Mr. Chairman--Madam Secretary, 
do you believe--would you say that these men and women who work 
for Department of Homeland Security, who have the boots on the 
ground each and every day, and are dealing with this, do they 
believe that there is a crisis on our Southern Border and a 
National humanitarian and security crisis?
    Secretary Nielsen. Yes, ma'am.
    Mrs. Lesko. Thank you. Madam Secretary, as you--as someone 
who is the head of this agency, who I assume has gone to the 
border numerous times, has talked to Border Patrol agents and 
ICE agents and other DHS employees on numerous occasions, do 
you consider yourself well-versed in what is happening at our 
Southern Border, and what is happening about illegal 
immigration in our country?
    Secretary Nielsen. I do, yes. I have taken substantial 
opportunities to meet with the experts and to understand the 
problem and the complexity of the laws.
    Mrs. Lesko. Thank you. So, therefore, Madam Secretary, I 
would ask you, do you believe that we are in a--that there is a 
crisis on our Southern Border, that there is a National 
security and humanitarian crisis at our Southern Border? Do you 
believe that the President of the United States was justified 
in declaring a National emergency?
    Secretary Nielsen. Ma'am, it is an emergency. As a 
Secretary of Homeland Security, I can no longer assure you of 
who is coming into this country. That is a direct National 
security threat. We are on par to have over 900,000 this year, 
first of all.
    Second of all, I have seen the vulnerable populations. I 
have been to Mexico; I have talked to the Northern Triangle 
countries. This is a true humanitarian crisis that the system 
is enabling. We have to change the laws.
    Mrs. Lesko. Thank you, Madam Secretary. You know, I was 
here when we tried to pass immigration law last year, which 
would have combined common-sense immigration reforms that would 
have helped solve some of these problems, especially the 
cartels abusing our loose immigration laws on asylum claims.
    It would have helped decrease the number of people that are 
traipsing thousands of miles to get into the United States, 
that you have said 30 percent of the women are being sexually 
assaulted. I believe you said, the children--the girls, at 10 
years old, have to be tested for pregnancy because of these 
sexual assaults that are going on.
    This is just--please, my colleagues, please, let's work in 
a bipartisan fashion. We were trying to be bipartisan last year 
when we tried to pass immigration reform, combined with border 
security funding. Unfortunately, not one of my Democratic 
colleagues voted for that.
    The bill did not pass. Would we please stop being so 
partisan on this issue and against President Trump and please, 
let's try to solve this problem for the sake of our entire 
Nation? Thank you. I yield back.
    Chairman Thompson. Thank you very much.
    To the gentlelady from Arizona, there is no question about 
bipartisan, but if--it is just one side. You know, Democrats do 
have opinions, and when our opinions are not valued, then we 
vote against it. A genuine bipartisan effort in this area and 
in other areas would be more than appreciated.
    Madam Secretary, according to your records, at the end of 
fiscal year 2018, there were 3,740 vacancies in CBP, there was 
1,815 vacancies in Border Patrol. So I await your numbers, but 
that is a lot of vacancies. If we have some problems, some of 
us would say, let's fill the vacancies that Congress has been 
so graciously supportive of accommodating you. But almost 5,000 
vacancies is a lot of vacancies.
    Secretary Nielsen. Sir, if I could really quickly. We would 
be happy to work with you on that. As you know, we do have new 
hiring strategies. I will just note that it is a very difficult 
environment right now. It is a very dangerous job. We have an 
increase of 40 percent in assaults on Border Patrol. We are 
working to hire, having more fairs, more ways. So, happy to 
work with you on that. We agree on the need for additional----
    Chairman Thompson. Madam Secretary, I look forward to 
working with you. If you bring it to our attention, that it is 
a problem, we will work with you. But to my knowledge, it has 
not been brought to my attention, as Chair, nor have we ever 
had a hearing talking about the problems with filling vacancies 
within that Department. If there is an issue to go with it, we 
would be more than happy to work with you.
    The Chair now recognizes the gentlelady from Michigan, 
Congresswoman Slotkin.
    Ms. Slotkin. Thank you, Mr. Chairman. Thank you, Secretary 
Nielsen for coming before us. I represent Michigan, so the 
Northern Border. I know we are talking a lot about the Southern 
Border. Let's remember that we have significant border 
locations to our north, and they shouldn't be ignored.
    I am also a former CIA officer and DOD official, so I am a 
big believer in border security and have spent my life 
preventing homeland attacks. But I also believe we have to be a 
country of morals and values. The separation of children, it 
didn't matter who you were, where you got your news, the vision 
of a small child in a cage, separated and crying, I think just 
hits everyone's heart. We cannot be a country that perpetuates 
that.
    So I just want to understand, separated out from the 
situation, the unaccompanied minors, which are a large group of 
people. There are parents, you are right, send them up here on 
their own coming across the border. Leave that aside, because 
that was a big problem under the Obama administration, many 
administrations before. The separation of families, the 
purposeful separation of families once they arrived as a family 
unit. Did you initiate the separation of families for the 
express purpose of deterring families from coming to the United 
States?
    Secretary Nielsen. No. I did not. Again, the whole purpose 
of that was to increase consequences for those who choose to 
break the law. That is a bedrock of our criminal--as you know--
the way that our criminal system works. If there is no 
consequence, we do not see the instances of the crime 
decreasing.
    So what we did was we increased the number of prosecutions. 
We didn't make up the law, the law was already there. Former 
administrations also referred adult parents for prosecution. We 
took the prosecution numbers from about 20 percent to about 55 
percent.
    Ms. Slotkin. So what did you do? I understand it is 
complicated, we have a big bureaucratic system. When you saw 
those pictures of babies in cages, what did you do? What did 
you do, to just scream bloody murder up the chain to the 
President, to say, I cannot represent an agency that is forcing 
its Border Patrol to do this? What did you do?
    Secretary Nielsen. So I went to the border. I spoke to the 
men and women there. I looked at the facilities myself. I 
talked to HHS, to understand and visited their facilities, as 
well, to understand the care that they provide to the children 
once they are in their custody. Then I spent a tremendous 
amount of time working with the Northern Triangle in Mexico to 
stop the phenomena closer to the source to help stabilize those 
areas so that the children and families are not traveling here.
    Ms. Slotkin. OK. It just feels like it potentially wasn't 
enough if we are still dealing with those separations.
    Secretary Nielsen. Just to be clear, we are not. We do not 
refer parents currently for prosecution, even when they break 
the law by entering our country between ports of entry.
    Ms. Slotkin. So switching gears to the Northern Border. So, 
I am also very concerned--our border agents do amazing things 
every day. We have a much higher volume of traffic of trade 
coming through our Northern Border than through our Southern 
Border, and I am concerned about the vacancies. Have any border 
personnel from the Northern Border been moved and detailed to 
the Southern Border to fill staffing gaps? Can you give me a 
couple of details on that, if so?
    Secretary Nielsen. Sure. We did have--we have surge models 
throughout the Department, whether it is FEMA, whether it is 
TSA, we do everything based on risk. So when we saw risk in 
gaps, we move around the personnel in a temporary fashion to 
address that gap.
    Ms. Slotkin. I just feel like the attention has all been 
focused on the Southern Border when in reality the volume of 
trade and then also the people watch-listed, the volume is much 
higher coming through the Northern Border.
    I think you made some misleading statements, and I think it 
is important to be very, very specific when we are talking 
about a terrorist threat or watch-listed individuals, some 
misleading information about the number of watch-listed 
individuals coming through our Southern Border. Can you state 
for the record, are more watch-listed individuals coming 
through our Northern Border or our Southern Border?
    Secretary Nielsen. So I don't remember actually answering 
that question. I think the question was about the known or 
suspected terrorists that we stop a day on the Southern Border, 
what I was saying is there were about 3,000 special interest 
aliens that we stopped at that border compared to the Northern 
Border. Again, as you know, the number of terrorists actually 
crossing the border is Classified. Happy to do that in a 
different setting.
    Ms. Slotkin. OK. I will look forward to doing that and I 
yield the rest of my time to Congresswoman Rice.
    Secretary Nielsen. I would say really quickly, we do take 
the Northern Border seriously. I just met with your colleagues 
on the Senate side from Michigan. We have the border strategy 
implementation plan coming out soon. We do have a Northern 
Border strategy, which you know focuses on security, critical 
infrastructure and all of the interdependences between, so 
happy to come talk to you more about that.
    Ms. Slotkin. Thank you for not forgetting about us. I 
appreciate that.
    Chairman Thompson. The gentlelady from New York.
    Miss Rice. Thank you, Mr. Chairman, and thank you, Ms. 
Slotkin. I think it is really important, taking--continuing 
what Congresswoman Slotkin was talking about, about making the 
record very clear and not allowing any misleading statements.
    It was a policy announced by the attorney general of this 
country that families were going to be separated. That was a 
policy. He did not say we are going to start enforcing a law. 
It was a policy by this administration that only ended when 
there were pictures of little kids in cages that had been 
ripped away from their parents.
    So I think it is really important, Madam Secretary, that 
you talk about it and you use the right language. This was not 
the law, OK? This was a policy that the attorney general of 
this country announced was a new policy they were going to rip 
kids away from their parents. So I think it is very important 
that the record reflect that. I thank my colleague, Ms. 
Slotkin, and I yield back.
    Secretary Nielsen. OK. So, respectfully, sir, I would like 
to respond to that, because----
    Chairman Thompson. Let me just say, do it in writing so we 
won't have the confusion----
    Secretary Nielsen. I would like to respond quickly, because 
I can tell you----
    Chairman Thompson. No, no, no, gentlelady. We have been 
back and forth.
    Secretary Nielsen. We have. But it is appropriate for me to 
clarify for the record, because I think you are trying to get 
to the truth. I think that is what you were, too. So I just 
want to just quickly say that the AG memo that was issued 
directed all U.S. attorney offices along the Southwest Border 
to prosecute all adults who were referred for prosecution. That 
is what it did.
    Miss Rice. That is a policy. That is a policy.
    Secretary Nielsen. Not as you described it.
    Miss Rice. Madam Secretary, that is a policy, when you knew 
that that policy was going to result in children having to be 
taken away from their parents. That is a policy. You should 
admit it.
    Secretary Nielsen. The consequence of any adult going to 
jail in this country is they are separated from their child. 
That wasn't the point of it. The point was to increase 
prosecutions for those breaking the law and not exempt any 
class of aliens. That is what the AG directed.
    Miss Rice. It was very clear what the attorney general 
meant.
    Chairman Thompson. Well, we will follow up with that. For 
the record, Madam Secretary, are we still using cages for 
children?
    Secretary Nielsen. Sir, we don't use cages for children. In 
the border facilities that you have been to, they were not made 
to detain children. As the children are processed through, they 
are in some parts of those facilities.
    Chairman Thompson. Madam Secretary----
    Secretary Nielsen. Yes. I am being as clear as I can, sir. 
Respectfully, I am trying to answer your question.
    Chairman Thompson. Just yes or no. Are we still putting 
children in cages?
    Secretary Nielsen. To my knowledge, CBP never purposely put 
a child in a cage, if you mean a cage like this.
    Chairman Thompson. Purposely or whatever, are we putting 
children in cages as of today?
    Secretary Nielsen. Children are processed at the border 
facility stations that you have been at, some of the----
    Chairman Thompson. I have seen the cages. I just want you 
to admit that the cages exist.
    Secretary Nielsen. Sir, they are not cages.
    Chairman Thompson. What are they?
    Secretary Nielsen. Areas of the border facility that are 
carved out for the safety and protection of those who remain 
there while they are being processed. If we have two gangs, we 
separate them into separate areas of that facility.
    Chairman Thompson. No, no, no. Madam Secretary----
    Secretary Nielsen. A father and daughter, we separate that 
from another son.
    Chairman Thompson. We are not going to go through the 
semantics. Now, I saw the cyclone fences that were made as 
cages. You did, too. All you have to do is admit it. If it is a 
bad policy, then change it. But don't mislead the committee. Do 
not mislead the committee.
    The Chair recognizes the gentleman from Tennessee, Mr. 
Green.
    Mr. Green of Tennessee. Thank you, Mr. Chairman, and 
Ranking Member and Secretary, thank you for the hard work that 
you do leading probably one of the most diverse departments in 
all of our Government. As an emergency medicine physician, I 
trained in my emergency medicine residency down in Texas, did 
some rotations in Austin, Texas. I have pronounced opiate 
overdoses. I have pronounced those people dead and it is a 
horrific thing to have to do.
    As I understand it, 300 deaths a week in this country are 
happening due to heroin overdose and that 90 percent of that 
heroin is coming across the Southern Border. It has been 
suggested by the folks on the other side of the aisle that that 
is only at points of entry. I would like to ask you, if you 
could tell us about what is happening between the points of 
entry, the drugs that you guys are seizing, and what you are 
expecting is going though.
    Secretary Nielsen. Sure. So, first of all, this is another 
example of it is not an either/or. We thank this committee and 
others who supported our request for additional non-intrusive 
inspection equipment, which will vastly help our interdiction 
efforts at the ports. We do see criminals continuing to take 
advantage of gaps between the ports of entry where there is no 
barrier and smuggle drugs in.
    We also unfortunately see them using families and children 
as pawns. So often they will send a group of migrants across 
the border in one area where there is no barrier, while CBP is 
responding to that location. They then will smuggle drugs 
nearby through another vulnerable part of the border.
    Mr. Green of Tennessee. There is a--changing the subject a 
little bit, there is a New York Times article this--I believe 
it was Saturday. The title of the article is ``You Have to Pay 
with Your Body''. It is about a woman who hired a coyote to 
bring her over the border. Of course, she was assaulted many 
times during that process.
    The New York Times article then said that she was held once 
she got to the United States and repeatedly raped by the 
coyotes. I just ask the question, I guess it is 31 percent of 
women that are coming across the border this was are having to 
face similar experiences. How many women does it take being 
raped before this really is a crisis?
    Secretary Nielsen. Sir, if you are asking my opinion, it is 
one. It is one child who dies, it is one woman who is raped, 
because this system doesn't need to work that way. We can fix 
the system to protect venerable populations.
    Mr. Green of Tennessee. Thank you, I would agree 100 
percent with you. In regard to the child separation, and we 
have talked about the cages here, as I recall, the images that 
circulated around the internet were actually from the Obama 
administration. They later found out that the picture that 
circulated the internet of a child in a cage came from the time 
frame when it was the Obama administration.
    My question, doesn't it seem reasonable that if all the 
investigations that are going on--and you just recently have 
been subpoenaed to provide information about the names of 
children that have been separated. Unfortunately, they only ask 
you to go back to the Trump--you know the window of the Trump 
administration in those subpoenas.
    It seems to me that if it were--because we are concerned 
about the children, if the images are really from back in the 
Obama administration, why wouldn't we ask for that data going 
back further than just the Trump administration?
    It is really about protecting and caring for and making 
sure the safety of the children. Why wouldn't we go back to 
when the separations really started?
    Let me just stop you, you don't have to answer that 
question. I will answer it for you. It is because this isn't 
about just the safety of children, it is about slamming the 
President.
    Let me ask you this question, it is a hypothetical, I only 
have a little bit of time left. How many lives could we 
actually save--yes, how many lives could we save if we really 
secured our border?
    Secretary Nielsen. You know, again I would be hazarding a 
guess here, sir, but we have 4,300 that we have saved if you 
extrapolate out those unfortunately that we find have died 
along the journey, hundreds of thousands.
    Mr. Green of Tennessee. Yes, I would think it would be that 
number, too. How many women in that--if we were going to 
multiply the 31 percent times just this year, how many women in 
the first few months of this year have come across the border 
illegally that way that you have processed?
    Secretary Nielsen. I don't have the breakdown of women from 
family units----
    Mr. Green of Tennessee. OK.
    Secretary Nielsen. But the family units have continued to 
go up----
    Mr. Green of Tennessee. It would be great to know that 
number, and then we can multiply it times Doctors Without 
Borders as 31 percent and come up with that many women probably 
got raped this year, because of our failed policies. Thank you. 
I yield.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentlelady from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. You know, I have been 
sitting here listening to this for quite a while, and just want 
to make a couple of observations. One is the choreography is 
just amazing. When the Democrats ask a question, Madam 
Secretary, you never have the answer.
    You don't have any of the numbers and you are going to get 
back to us, but when the Republicans ask a question, boy, you 
are right on top of that with the statistics and the numbers, 
you have got it all right down there in front of you. I wonder 
if this has kind-of been orchestrated.
    Second, there is a great deal of obfuscation. We talk about 
the zero tolerance or family separation--you say, it is not a 
policy, it is the law, you are obeying the law, no, it is a 
policy, you are not doing it now. If you are not doing it, are 
you breaking the law--which is it?
    Then you said that cybersecurity is a red light that is 
blinking that is the most dangerous thing that is facing this 
country. Yet you requested $8 billion for a wall and only $1.35 
billion to deal with cybersecurity. That seems to me a, kind-of 
a misplaced priorities there.
    Then going back to the Chairman's point about the number of 
vacancies in the border--and our personnel, I would ask you and 
I know this is a topic for tomorrow but it is kind-of 
interesting that you paid $1.9 million to Accenture to help you 
with that problem and they have hired 35 agents. So yes, I 
would say there is a pretty big management problem.
    But my question is a broader one. We know that we need 
comprehensive immigration reform, we would like to see it 
bipartisan. We are reached across the aisles since I was first 
elected here and got nothing in return.
    But it is more than just border control. We need to deal 
with the DREAMers, the DACA recipients, TPS--they are all 
living in the situation of uncertainty. You testified that you 
had never met a DREAMer last year. I wonder is that still true?
    Secretary Nielsen. No, ma'am. As you know they have under 
the court case right now they are legally present and we 
continue to renew those who are part of the original 
application process.
    Ms. Titus. So have you talked to this DREAMer, do you know 
anything about their story? I mean, I have got thousands of--
13,000, actually--DREAMers in my district, I know their life 
stories, I know about their families. I am not just sitting 
across a courtroom from them. Have you met with any of them?
    Secretary Nielsen. I think that is why we agree that they 
deserve a legal status, which is what I have said every time I 
have testified. I support a legal status for the DACA 
population.
    Ms. Titus. So you don't think the DREAMers are a security 
threat to this country?
    Secretary Nielsen. When they commit a crime, or they 
otherwise fail a background check, as you know, they no longer 
are covered under the DACA program.
    Ms. Titus. Do you feel that they are a security threat to 
this country?
    Secretary Nielsen. Some of them have committed crimes, they 
are no longer part of DACA. So by definition, if you are a DACA 
recipient, you have not committed a crime.
    Ms. Titus. Do you feel like they are a threat to our 
economy?
    Secretary Nielsen. Ma'am, I support their legal status.
    Ms. Titus. So that means you would support a clean bill to 
give DACA recipients a pathway to citizenship?
    Secretary Nielsen. No, I would not. The reason for that is 
because we can't handle that situation without handling the 
situation that brought them here to begin with. I don't want to 
inadvertently create a new pull factor. I want to make sure 
that we secure the border and that we are able to give legal 
status to the DACA population.
    Ms. Titus. So you don't think they are a security threat, 
you don't think they are an economic threat, but you wouldn't 
support any kind of pathway to citizenship?
    Secretary Nielsen. I won't support things that will 
continue the crisis that we have at the border by serving as a 
pull factor alone, no ma'am.
    Ms. Titus. Well, what about the people who are TPS, who are 
here now? They are not----
    Secretary Nielsen. I also----
    Ms. Titus. They live here now, they have been here 20 
years. We have many families that are mixed status, do you see 
them as a security threat, or an economic threat? Would you 
support some kind of protection for them as a pathway to 
citizenship?
    Secretary Nielsen. Yes, ma'am, and in the letter to Senator 
Shelby from the White House during the appropriations 
negations, the administration also supports that.
    Ms. Titus. If we brought a clean bill to give TPS pathway 
to citizenship, you and the administration, and your colleagues 
across the aisle would support that? Because there is a bill 
that is on the table right now, Promise Bill, I believe, is the 
acronym for it.
    Secretary Nielsen. Ma'am, as the Secretary for Homeland 
Security, I can't support something that will automatically--I 
mean, every time we have done a program that provides 
additional paths for citizenship for those who are illegally 
present, it does serve as a pull factor.
    Ms. Titus. TPS is not illegally present.
    Secretary Nielsen. Their status--we have a court case, as 
you know, but the program itself was temporary. So they do not 
have the temporary protected status, but we of course are not 
deporting them as we work through the court case. But I agree 
with you that, yes, we need to provide a legal status.
    What I am concerned about is I want to make sure that we 
secure the border at the same time, and reduce the pull factor 
so that people are under the impression they can come here 
without any legal right to stay, to then be subject to 
protections later.
    Ms. Titus. In your opening statement you said you want to 
encourage and support legal immigration. It is the illegal 
immigration you are worried about. Is not TPS, and are not the 
DREAMers--are not they under the category of legal immigration?
    Secretary Nielsen. The TPS was a protected temporary 
status, as you know. They----
    Ms. Titus. Legal, or illegal?
    Secretary Nielsen. It is neither, they are----
    Ms. Titus. It is not legal?
    Secretary Nielsen. They are legally present----
    Ms. Titus. Yes.
    Secretary Nielsen. But they are not immigrants.
    Ms. Titus. I yield back, Mr. Chairman. Thank you very much 
for your patience.
    Chairman Thompson. Thank you. Chair now recognizes the 
gentleman from Texas, Mr. Taylor. The Chair now recognizes the 
gentleman from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman, for yielding. I would 
like to thank you, Secretary Nielsen, for appearing before this 
committee to speak on the vital issue of border security, 
particularly on the Southern Border.
    The consistent inability of Congress to comprehensively 
address this matter has left you and the President with the 
inability to take the actions that are necessary, to provide 
what we need for protection. Lack of border security has 
downstream consequences in our country.
    One of these I would like to refocus on and that is the 
opioid crisis and the devastation and the heartbreak it has 
created particularly in my home State of Pennsylvania. I, too, 
have met with coroners. As a doctor, as a legislator the 
opioid-related deaths in my home State are on the upswing and 
are consistently above the National average.
    Some reports, as we have discussed, indicate that almost 90 
percent of heroin is illegally smuggled into our country 
through our Southern Border. Secretary Nielsen, do you believe 
that a physical barrier is necessary in places of high risk 
along our Southern Border to stem the flood of narcotics into 
our country?
    Secretary Nielsen. Yes, sir, I do.
    Mr. Joyce. Thank you. As a doctor, as a legislator facing 
this incredible opioid crisis, watching families separated, 
watching children and young adults die, do you and other 
experts believe that the construction of additional barriers 
and walls will help combat the opioid flow into our country?
    Secretary Nielsen. Absolutely.
    Mr. Joyce. Thank you. I yield back my time.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentlelady from New Jersey, Mrs. Watson Coleman.
    Mrs. Watson Coleman. In a bipartisan fashion. Thank you 
very much, Mr. Chairman. Thank you, Madam Secretary, for being 
here. I have got a whole bunch of questions, and I am going to 
ask that where you can you just tell me yes or no. Question, 
what does a chain link fence enclosed into a chamber on a 
concrete floor represent to you? Is that a cage?
    Secretary Nielsen. It is a detention space, ma'am, that you 
know has existed for decades.
    Mrs. Watson Coleman. Does it differ from the cages you put 
your dogs in when you let them stay outside? Is it different?
    Secretary Nielsen. Yes.
    Mrs. Watson Coleman. In what sense?
    Secretary Nielsen. It is larger. It has facilities. It 
provides room to sit, to stand, to lie down.
    Mrs. Watson Coleman. So did my dog's cage. Are the jails 
different than the cages that you have allowed the children to 
be put in?
    Secretary Nielsen. I am sorry. Which jails?
    Mrs. Watson Coleman. Are the jails that you put their 
parents in? Or the adults that come here with children that you 
say are coming here illegally?
    Secretary Nielsen. The detention centers, most of them, no, 
ma'am. They have a border around the outside. But they 
essentially sleep in dorm-like conditions.
    Mrs. Watson Coleman. So they live in better conditions than 
the children.
    Secretary Nielsen. No, ma'am. I just want to be very clear 
on this. As migrants are processed through the Border Patrol 
station, which were not built, again, for vulnerable 
populations, they are there for up to 72 hours.
    Mrs. Watson Coleman. I just want to know if the children 
are in cages, what do you consider the detention facilities to 
be? Because I am suspecting that you are putting children in 
places that seem to be less livable than these adults.
    I want to have--I have a number of questions. I want to 
start by discussing Maria Juarez, a toddler who died in my home 
State of New Jersey, after being detained by DHS. After fleeing 
violence in Guatemala, she and her mother were detained by CBP 
and held in ICE custody at a private facility in Texas. Within 
a week, Maria began to exhibit upper respiratory symptoms, 
including congestion, a cough, and severe fever of 104 degrees. 
Maria and her mother were released after 3 weeks in custody and 
cleared for travel to New Jersey by personnel in Texas who did 
not have the requisite credentials doctors to provide medical 
clearance.
    After arriving, her mother took Maria to an emergency room 
almost immediately. She remained hospitalized for the rest of 
her life, 6 weeks, dying on Mother's Day last year. Outside 
doctors made it clear that Maria did not receive the medical 
care she deserved while in custody of DHS.
    Secretary, after learning of Maria's death, did you 
immediately take any action to improve access through the 
quality of health care at DHS facilities, yes or no?
    Secretary Nielsen. Yes, we continue to do all we can to 
improve within our resources.
    Mrs. Watson Coleman. Is there an outside investigation 
every time someone dies in DHS custody so that we can 
understand what happened?
    Secretary Nielsen. OPR investigates every one under--either 
in addition to or under direction of the IG.
    Mrs. Watson Coleman. On a different topic, we all should 
know, border security isn't just about the Southern Border, and 
this has been raised a couple of times. So I want to ask about 
a concerning program I recently learned about where TSA is 
working with the Saudi government to create a Saudi Arabian 
Federal air marshal program that would have Saudi government 
agents fly armed on flights to the United States.
    The Saudis are actually paying the salaries of several 
full-time TSA employees working on this program. As a section 
of the 9/11 Commission report stated, while in the United 
States, some of the 9/11 hijackers were in contact with and 
received support or assistance from individuals who may be 
connected with the Saudi government.
    Madam Secretary, is this really happening, No. 1? Will you 
commit to provide this committee any and all documentation of 
this program, including training materials being shared with 
the Saudis and who is being trained?
    Secretary Nielsen. We are happy to provide you materials, 
ma'am, and come brief you. I am happy to have the TSA 
administrator----
    Mrs. Watson Coleman. All right, how long would I have to 
wait to get this information?
    Secretary Nielsen. That I can't answer, but what I can do 
is get you an answer today as to when we could be able to 
provide that to you.
    Mrs. Watson Coleman. Thank you. I don't know if I asked 
this--I was talking so fast. Do you continue to separate 
parents from children as they are coming across the border?
    Secretary Nielsen. In 3 instances, when the child is at 
risk, the adult accompanying them is not a parent or guardian, 
and the third instance is when the parent needs to go to a 
custodial environment.
    Mrs. Watson Coleman. So are any of these coming at the port 
of entry, seeking asylum?
    Secretary Nielsen. Some of--sure. Some of them might be 
claiming asylum, yes, ma'am.
    Mrs. Watson Coleman. OK. Thank you very much. I yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Mississippi, Mr. Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Madam Secretary, I first want to thank you and the men and 
women that serve under you for the important role that you 
provide in protecting our country. I want to ask you a couple 
of questions as it relates to the current situation at our 
Southwest Border. Do you believe that we are currently seeing 
an immigration crisis on our Southwest Border?
    Secretary Nielsen. Yes, I do. The numbers are increasing so 
quickly that our system, which I have testified to before, was 
at the breaking point. It is clearly breaking.
    Mr. Guest. Do you believe we are also facing a human 
trafficking crisis on our Southwest Border?
    Secretary Nielsen. Yes, sir.
    Mr. Guest. Finally, do you also believe that we are facing 
a drug trafficking crisis on our Southwest Border?
    Secretary Nielsen. Yes.
    Mr. Guest. Particularly I want to turn my attention through 
the remainder of my questioning toward the drug trafficking. As 
I look at the figures that have been provided, it appears that 
we are on track to seize a record number of illegal narcotics 
that are being attempted to be introduced into our country. 
Does that seem correct?
    Secretary Nielsen. Yes.
    Mr. Guest. What can we do as a country? What is the single 
most effective thing that you believe that we can do to prevent 
illegal drugs from entering America?
    Secretary Nielsen. We need to take operational control of 
the Southern Border. So that is increasing our ability to 
detect at the ports of entry. It is also having situational 
awareness, impedance and denial and responsibilities between 
the ports of entry.
    Mr. Guest. Do you believe that a physical barrier is an 
important part of our strategy to decrease the flow of illegal 
drugs from entering America?
    Secretary Nielsen. I believe that. But more importantly, 
the men and women and professionals of CBP believe that.
    Mr. Guest. I think there was a question earlier about what 
we are doing along our Northern Border. Do we have the same 
type of crisis at our Northern Border that we are currently 
seeing on our Southern Border?
    Secretary Nielsen. We do not have a humanitarian crisis and 
we certainly do not have the numbers of those trying to enter 
illegally without a legal right to stay.
    Mr. Guest. I believe you talked in your official testimony 
about the transnational criminal organizations, or what we 
commonly refer to as drug cartels.
    Secretary Nielsen. Yes, sir.
    Mr. Guest. What can we do as a Congress to provide you 
additional support as we seek to fight drug cartels from 
bringing their controlled substances into our country?
    Secretary Nielsen. Congress has been extraordinarily 
helpful, thank you, with both the INTERDICT Act and the STOP 
Act. Those have been very helpful in giving us additional 
authorities to comprehensively look at the drug issue.
    At this time, we believe we have all the authorities we 
need. We work throughout the Department to combat this. This is 
part of that regional compact that I mentioned that we hope to 
sign soon with the Northern Triangle.
    But we also work very closely with international partners 
throughout the world to dismantle all of the illicit 
marketplaces. ICE alone has over 200 investigations into the 
illicit marketplaces to take them down where they are selling 
the drugs.
    Mr. Guest. Just in general, would you agree that we as a 
Congress have not given you the tools that you and your 
officers need to prevent drugs from illegally entering the 
country across our Southwest Border?
    Secretary Nielsen. Sir, we need a barrier. We cannot take 
operational control of the border without it.
    Mr. Guest. So--and I would agree. Is your opinion, the 
opinion of experts that you have spoken with, without a 
physical barrier, it would be all but impossible for us to 
secure our border from those people seeking to introduce the 
poison that we know as whether it be cocaine, methamphetamine, 
heroin, fentanyl, from entering our country through our 
Southwest Border?
    Secretary Nielsen. Yes, sir. The professionals speak in 
terms on a risk-based way of vanishing time. In other words, 
there are parts of the border where the cities in Mexico and 
the United States are so close together that a drug smuggler or 
a mule can disappear in a matter of seconds into the United 
States, without a physical barrier.
    Mr. Guest. Ma'am--Madam Secretary, wouldn't it be 
advantageous if we were able to funnel all of traffic, whether 
it be commercial, passenger, traffic, through our ports of 
entry where we could then concentrate our technology and our 
manpower on screening individuals and vehicles entering the 
country there instead of having to spend man-hours and manpower 
securing the unsecured portion of our border that do not 
currently have a physical barrier?
    Secretary Nielsen. Yes, sir, and it would reduce the 
humanitarian crisis.
    Mr. Guest. One final question, Madam Secretary. Some 
Members of Congress have advocated abolishing ICE, the 
Immigrations and Customs Enforcement, which is an agency that 
is under your control. My question is, would this make our 
communities safer? Or would the American public be placed at 
greater risk if we as a Congress took the unprecedented move to 
abolish this needed law enforcement agency?
    Secretary Nielsen. I can say with absolute certainty that 
the United States would be unsafer, sir. Part of their mission 
is anti-trafficking, they do counter-child exploitation, they 
do counter-weapons of mass destruction proliferation. They also 
help with antiquities and returning illicit goods because they 
also have Customs enforcement.
    But they are a top-notch investigative unit of the U.S. 
Government. They are mimicked as a best practice throughout the 
world. Without them, we would not be able to protect children 
and victims of trafficking.
    Mr. Guest. Thank you. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you. Chair now recognizes the 
gentlelady from California, Ms. Barragan.
    Ms. Barragan. Thank you. Madam Secretary, I serve as the 
second vice chair for the Congressional Hispanic Caucus. It has 
been some time since you have come and you have met with us. 
Will you commit today to coming back to meet with the 
Congressional Hispanic Caucus?
    Secretary Nielsen. Yes.
    Ms. Barragan. OK, do that soon?
    Secretary Nielsen. If--yes.
    Ms. Barragan. Great, thank you. Madam Secretary, we know 
that ex-FBI Director James Comey took contemporaneous memos on 
his meeting with Trump and his interactions. We also know that 
your former boss, Secretary John Kelly, also wrote 
contemporaneous internal memos about his interactions with the 
President, in particular, how he was ordered to give Mr. 
Kushner the top security clearance.
    My question is very simple, and I remind you, Ms. 
Secretary, that you are under oath. Have you taken any 
contemporaneous memos about your interactions with President 
Trump?
    Secretary Nielsen. No, I have not.
    Ms. Barragan. Madam Secretary, do you know how many 
children have died in CBP custody under your tenure as 
Secretary?
    Secretary Nielsen. Yes. So we have the numbers for CBP and 
ICE.
    Ms. Barragan. Can you give me the numbers of how many 
children have died?
    Secretary Nielsen. Yes, I can, if you will give me 1 
second. I just don't want to misspeak. But this last year we 
had--or so far this year, we have had 3, as you know, in CBP 
custody----
    Ms. Barragan. So far, Madam Secretary? Are you expecting 
more children to die?
    Secretary Nielsen. No, ma'am. I just want to be accurate 
with the time. To be clear, any death is a tragedy. Any death 
should be prevented. Part of what I have asked this body to do 
is change the laws so that we have a better chance----
    Ms. Barragan. Do you know the names of the children that 
have died?
    Secretary Nielsen. One was a stillborn death, but the other 
two were Felipe and Jakelin.
    Ms. Barragan. Have you spoken to their families at all, 
Madam Secretary?
    Secretary Nielsen. I have not spoken with their families, 
no, ma'am.
    Ms. Barragan. OK. I want to turn to--I want to turn to a 
slide that I have, if we can put it up. There it is. You 
testified that asylum seekers are not being turned away at the 
ports of entry. Is that your testimony here today?
    Secretary Nielsen. They are not turned away, they are 
brought in--I am not sure if you are talking about the migrant 
protection protocol. But in that case----
    Ms. Barragan. Any asylum seeker who comes to a port of 
entry, you--you basically have just said----
    Secretary Nielsen. They are allowed to make their claim.
    Ms. Barragan. OK. Well, let me tell you, Madam Secretary, 
either you are lying to this committee or you don't know what 
is happening at the border. I have been there first-hand, and I 
have seen it twice. More recently, it just happened on 
Saturday, when I happened to be crossing the border with my 
mother. I heard a gentleman say, I am from Honduras. I want to 
apply for asylum. He was already at the turnstile, at the 
PedWest entry.
    The agent said, Sir, unless you have a visa, you need to 
leave. You need to go away. They didn't say what you just said 
people do. They didn't say, Here is where you go get on a list. 
They didn't say, Here is the information where you go get 
access to counsel. As a matter of fact, I pulled out my phone, 
I started to record. You know what? I was asked to stop 
recording.
    Why? Because they don't want the American people knowing 
what is happening at that Southern Border. Madam Secretary, I 
don't know if you know what is happening, or if this is 
happening without you knowing, but it is totally unacceptable. 
As a Member of this committee, you are darn right I am going to 
hold this--you accountable for knowing what is happening at the 
border.
    Do you know--do you know that two Members of Congress had 
to sleep overnight and spent 14 hours in the cold, on the 
concrete, at the Otay Mesa point of entry so that Maria, the 
woman who was tear-gassed at the port of entry, would be 
allowed to present herself because she was on U.S. soil and 
legally that is what asylum allows? Did you know that?
    Secretary Nielsen. Ma'am, what I know is I would ask you--

    Ms. Barragan. Yes or no, did you know that two Members of 
Congress had to do that?
    Secretary Nielsen. I know that we have a process, as I----
    Ms. Barragan. OK, you obviously don't know. But see, this 
is what I am saying. You don't know these things. Two Members 
of Congress. Does it take two Members of Congress to be there 
to witness somebody presenting themselves for asylum at the 
port of entry? That is not what the law says. Are you familiar 
with the asylum laws, Madam Secretary?
    Secretary Nielsen. Yes.
    Ms. Barragan. Where in the asylum law does it say that when 
you present yourself at a port of entry--and by the way, when 
you are on U.S. soil, that you can be sent by another agent to 
another port of entry? Is it anywhere in the asylum law?
    Secretary Nielsen. What we are trying to do is----
    Ms. Barragan. It is not in there. I know--it is a yes or 
no. It is not in there.
    Secretary Nielsen. What we are----
    Ms. Barragan. Because what you all are doing is not within 
the confines of the law. You talk about a list. Under what 
authority is there, in U.S. law, that a list could be started 
to have people wait in Mexico? Do you have that authority?
    Secretary Nielsen. Yes, ma'am.
    Ms. Barragan. What is--under the--what authority?
    Secretary Nielsen. The authority is to do all that we can 
to protect the migrants coming here. It says----
    Ms. Barragan. OK, well that is not what--that is not what 
the asylum law says----
    Secretary Nielsen. Asylum law says----
    Ms. Barragan. I would ask, can you produce--can you produce 
every single list at the port of entry that is under U.S.----
    Secretary Nielsen. I do not--we do not have the list, to be 
clear. The list is in Mexico.
    Ms. Barragan. So you have the authority to do a list but 
you don't have access to a list? You don't control that list?
    Secretary Nielsen. What I mean by the list, ma'am, is that 
we----
    Ms. Barragan. So you are basically farming this out to the 
Mexican authorities----
    Secretary Nielsen. Would you like me to answer any of your 
questions, Congresswoman----
    Ms. Barragan. Well, you don't have answers. You----
    Secretary Nielsen. But how do you know? Because you are not 
giving me the opportunity----
    Ms. Barragan. Because these are simply yes or no questions.
    Secretary Nielsen. It is----
    Ms. Barragan. It is authority--there is this law, this is 
what it is under, and you haven't done that. The very last 
thing I want to say because my time is up is you said that you 
waited to give direction on how to implement the zero tolerance 
policy because you wanted to do it with compassion. Do you know 
how outrageous that sounds? You wanted to separate children and 
families and you wanted to do it with compassion? So in the 
mean time, you didn't do anything at all and you let kids be 
separated without tracking them.
    Do you know how outrageous that is, Madam Secretary? You 
have no feeling, no compassion, no empathy here.
    Chairman Thompson. Gentlelady's time has expired----
    Ms. Barragan. I yield back.
    Chairman Thompson. Thank you.
    Chair now recognizes the gentleman from Texas, Mr. 
Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being here and helping us answer the fundamental 
question of whether we care about our sovereignty and the rule 
of law in our country. Unfortunately, the now cynical view that 
I am not so sure we all agree on that, that we all value the 
rule of law and value the ability to manage our border 
effectively.
    A lot of questions have come up about the humanity of our 
policies, as they should. There is some rightful anger about 
family separation. But unfortunately, it is myopic because 
nobody ever talks about the other issues that we might have 
when it comes to our humanity.
    There was a young woman in my office yesterday, she is from 
Mexico, she is about 18 years old. She was taken across the 
border, kidnapped about 5 years ago, on the third attempt, 
because they were turned back twice by Border Patrol. The third 
attempt, they made it through and she was brought to New York 
City where she was raped approximately 30 times a day for 5 
years. I don't know why nobody talks about that kind of stuff.
    When I was at the border in McAllen, in 1 day, in 1 
location, 16 kids came across with adults that didn't--that 
were not their parents. Further questioning and follow-through 
led to a stash house of 54 people kidnapped inside in Houston. 
Nobody talks about that humanity.
    Those are direct results of the fact that our asylum laws 
are taken advantage of, those are direct results of the fact 
that that woman in my office was allowed to walk straight 
across the border, nobody stopped her, there is no wall, 
nothing, would have been turned back otherwise and not been in 
New York City to suffer the absolute nightmare that she did.
    Then we get to the question of whether walls work and this 
has been a really fun conversation over the last couple months. 
Do walls work? Madam Secretary, would you agree that there is 3 
parts to security--personnel, technology, and barriers?
    Secretary Nielsen. Absolutely.
    Mr. Crenshaw. Can you just take one of those away?
    Secretary Nielsen. No, sir.
    Mr. Crenshaw. When I was down at McAllen and Brownsville, 
what we see is Brownsville has about 35 miles worth of 
barriers, and as a result, only 6 percent of the crossings in 
that sector take place because walls work. Would you agree with 
that?
    Secretary Nielsen. Walls work, yes, sir, as evidenced.
    Mr. Crenshaw. McAllen, about a thousand people were 
crossing in--on some days, because they don't have the 
infrastructure. Would you agree that the biggest difference 
between the McAllen corridor and the Brownsville corridor would 
be the physical barriers?
    Secretary Nielsen. The wall system, yes, sir.
    Mr. Crenshaw. Been a lot of red herrings that have been 
thrown out there to argue these points. Drugs like fentanyl 
come through ports of entry, yes, we know. You would agree with 
that, right?
    Secretary Nielsen. Yes.
    Mr. Crenshaw. Does that have anything to do with the 
conversation about whether we need barriers between ports of 
entry?
    Secretary Nielsen. It does not, because it is not an 
either/or.
    Mr. Crenshaw. There is a--there is always the conversation 
about we just need more technology, because then the border 
agents can just chase people around, as we see--because we can 
sense them coming through.
    Is that the only solution, or do you need that plus 
barriers plus personnel?
    Secretary Nielsen. No, we need all three. We also need the 
ability to detain and remove when there is no legal right to 
stay.
    Mr. Crenshaw. There is the point often made that the border 
crossings are the lowest in years--we had about 400,000 last 
year, although that is quickly on the rise of--as you have 
noted, 76,000 just this last month. The point is often made 
that because it is lower than in the year 2000 that there is no 
crisis.
    Is that accurate? Is 400,000 a year a low number?
    Secretary Nielsen. Sir, it is not, but again, if I could, 
respectfully, it is because of the flow, it is because these 
are families, it is because these are children, that is why it 
is a crisis. It is a terrible, horrific journey that they 
undertake.
    Mr. Crenshaw. Let's get to that. As these arguments are 
made against points that, frankly, we are not even making, you 
mention the children and why that is the nexus of this crisis.
    Why does that happen? Is it because of our asylum laws? Is 
it because of the fact that if you bring a child across the 
border, well--and I think, as you mentioned this before, if you 
bring a child with you, it is your ticket into the United 
States, all you have to do is claim asylum.
    Would you agree that our asylum process is completely taken 
advantage of?
    Secretary Nielsen. Yes, sir.
    Mr. Crenshaw. Would you agree that if we were to put more 
resources at ports of entry so that we could humanely bring 
people in and hear their asylum case but not let them loose 
into the country, would that dramatically reduce these illegal 
crossings, as well? Would that be part of the solution, as 
well, to reform the actual asylum process?
    Secretary Nielsen. Yes.
    Mr. Crenshaw. Are there any other issues in the last 20 
seconds I have that--that you want to mention or follow up on?
    Secretary Nielsen. I appreciate that. I would just say that 
my heart breaks for the system that we have. It does not allow 
us to help vulnerable populations as soon in their journey as 
we need to help them.
    There is nothing humane about a system that contemplates 
what we see today, that contemplates 60,000 children coming 
across the border unaccompanied, that contemplates the rape and 
abuse, the trafficking, the child exploitation, the 70,000 
Americans who died last year from drugs.
    I am extraordinarily compassionate in my job, which is why 
I am asking Congress to work with me to change the laws so that 
we can have a safe and orderly flow, so we can take care of 
those who need asylum, so that we can take care of the 
vulnerable populations who believe they have no options in 
their country.
    That is why I spend so much time in the Northern Triangle, 
to help them build resilience and stability. Apologies, but 
thank you for the time, I just wanted to clarify.
    Mr. Crenshaw. Thank you, I yield.
    Mr. Correa [presiding]. Thank you. Ms. Nielsen, before I 
move to Mr. Rose, just very quickly, any thoughts on a matrix 
to measure the efficiency of all these taxpayer-invested 
dollars? Does the wall work? How efficient is that versus, you 
know, investing, for example, in a fusion center in the 
Northern Triangle?
    Any thoughts? Are we putting one together, these matrix and 
how these investments work?
    Secretary Nielsen. Yes, sir. A lot of it is covered in the 
border security improvement plan, but we are happy to come 
brief you in detail on anything you would like us to come----
    Mr. Correa. Love to have a detailed deep dive on these 
matrices on the efficiency. Now, Mr. Rose, if I can, please?
    Mr. Rose. Thank you, Chairman. Madam Secretary, it is good 
to see you again and, you know, I want to start off, first of 
all, I don't doubt your love of this country and I understand 
that you are serving it. That is not what this is about.
    But what this is about here is solving problems and saving 
lives and upholding our values. My district, Staten Island and 
South Brooklyn, has lost an ungodly number of people to the 
opioid epidemic. My district has lost an ungodly number of 
people to terrorist attacks.
    So as we look at the facts, I want to make sure that we are 
operating on the same plane here. First of all, is it true that 
your data--your own Department's data shows that the vast 
majority of drugs coming through the border--heroin, 
methamphetamine, fentanyl--are found at ports of entry?
    Secretary Nielsen. Where we can detect it, yes, sir.
    Mr. Rose. In most cases, it is over 80 percent?
    Secretary Nielsen. Right, but I just want to clarify we 
don't know what is coming between----
    Mr. Rose. Well so--so that--that is what I wanted to get 
into next. So now you could easily say in response to that that 
is true, but that is just what we are measuring.
    Do you have any sense then of across the entire border, 
across our entire--the entire country, hypothetically, 
theoretically, based off your simulations, what percentage of 
our drugs is coming in from ports of entry or any other 
sources? What is the breakdown?
    Secretary Nielsen. The breakdown--and I am happy to show 
you the--the modeling, we would love to come in and chat more. 
What I can tell you is the instances of interdiction of illicit 
drugs has gone up across the board.
    So it has gone up at the ports of entry thanks to new 
technology, but it has also unfortunately gone up between ports 
of entry. When you try to compare the two, the majority of the 
drugs continues to come through the ports of entry, but we are 
seeing the amount increase between the ports of entry.
    Mr. Rose. So the vast majority are still coming in through 
the ports of entry based off these models?
    Secretary Nielsen. Yes, and thank you for the NII 
equipment.
    Mr. Rose. Yes, so then what my question is, is what are 
your priorities based off that model? Please--please, for the 
respect of all of our intelligence, because I am doing my best 
to respect yours and your service--what are your priorities 
based off that model to address fentanyl streaming into our 
country and killing our kids?
    Secretary Nielsen. So what we do, we look at it from a 
risk-based perspective of today's threats, but we also have to 
anticipate where the flows go tomorrow, which is why between 
the ports is concerning. But as you know, we also look at the 
mail, so we have also used the authorities that we have to work 
to identify the fentanyl coming from China.
    We are working with China on--they have agreed to make 
illegal some of the precursors to fentanyl, so we are working 
there. We have border enforcement security teams throughout the 
Nation, where we work with State and locals on investigations 
to really get at the cartels and the trafficking within the 
country.
    Then we work at the source through the National Targeting 
Center with our international partners to ensure as much as we 
can----
    Mr. Rose. But what I--what I did ask--and again, I am 
trying not to be adversarial here--is in terms of, based off 
this model and the fact that you are dealing with limited or 
not zero sum amount of funds, your priorities, as my 
understanding, are mail, ports of entry.
    I did not hear you say, though, that my priority to prevent 
the children in Staten Island and throughout this country from 
dying from overdoses is the border, is the border wall. So I 
want to understand here, because that is what we have declared 
a state of emergency around. That is what declared it around.
    So I want to understand how many less children will be 
dying because of this border wall. I do not understand the math 
or the science or the planning behind this. That is my issue. I 
do not understand how this leads to any positive effect on the 
opioid epidemic, to any positive effect in terms of our efforts 
at counterterrorism. What models are this based off of?
    Secretary Nielsen. We are happy to come share with you in 
detail, sir, but in general, the impedance and denial prevents 
that smuggling through that part of the border where we have 
physical barrier. So the criminal then has a choice. They can 
try to smuggle through the ports of entry where we are also 
increasing technology, or they go and find another part of the 
border that is unsecured.
    Mr. Rose. So you think that our current stance with this 
additional investment at ports of entry is satisfactory at this 
point?
    Secretary Nielsen. No, sir. I think it helps us at the 
ports of entry, but what we see is the increase of interdiction 
of drugs between ports of entry.
    Mr. Rose. How much more money do you need at our ports of 
entry?
    Secretary Nielsen. Right now we have this wonderful influx 
to get NII machines. So I would love to get back to you. We are 
going to see how much more that improves our ability to 
interdict.
    Mr. Rose. Thank you.
    Mr. Correa. Thank you, Mr. Rose.
    If I can call now on Mr. Green, State of Texas?
    Mr. Green of Texas. Thank you.
    Madam Secretary, what happened to give me your tired, your 
poor, your huddled masses yearning to breathe free, the 
wretched refuse of your teeming shore, send these, the 
homeless, the tempest-tossed to me, I lift my lamp beside the 
golden door? What happened?
    Madam Secretary, asylees are not illegals. Madam Secretary, 
do you know the number of people who came through Ellis Island?
    Secretary Nielsen. No, sir, not----
    Mr. Green of Texas. I do. Twelve million. Do you know where 
they came from?
    Secretary Nielsen. All over the world.
    Mr. Green of Texas. I do. Germany, Ireland, Britain, 
Scandinavian countries, Southern and Eastern Europe. They were 
not illegals. There was no flotilla in New York Harbor to 
prevent them from coming to Ellis Island. There was no family 
separation at Ellis Island.
    Past administrations have, when asylees were trying to get 
to this country, found ways to accommodate asylees. They didn't 
build walls. When the Cubans were fleeing Castro, we created 
wet foot, dry foot. One foot on dry land and you could walk on 
in to a pathway to citizenship.
    Madam Secretary, you know who Scarface is?
    Secretary Nielsen. I am sorry----
    Mr. Green of Texas. I will tell you. Al Capone, the son of 
Italian immigrants. Not all of those people who came through 
Ellis Island were saints. Scarface was a bootlegger, dealt in 
prostitution, gambling, one of the greatest criminals this 
country has ever suffered. The son of immigrants, it is 
unfortunate. I would never want a Scarface in our country, I 
don't want MS-13 in our country, but I also don't want to see a 
wall as a solution to a humanitarian crisis.
    Madam Secretary, these Border Patrol agents are also 
victims. The children, but the agents are victims, too, because 
they are required to enforce a corrupt policy, a policy that 
separates babies from their mothers, places them in cages.
    I was at the border, I saw those babies locked up on top of 
each other. We would not treat animals, the Humane Society 
wouldn't allow it, the way those babies were treated. Madam 
Secretary, they are victims.
    You have all of these vacancies in part because a good many 
people don't want to be a part of that kind of circumstance. 
They are victims, too. The children are victims, and the people 
who are forced to do what they are doing to these babies are 
victims, too.
    Madam Secretary, here is the problem. We have surpassed our 
color quota. There are those who believe that we already have 
too many people of color in this country. And these, one of 
whom happens to be the President of the United States of 
America, would institute policies that would prevent people of 
color from coming to this country.
    White babies would not be treated the way these babies of 
color are being treated, Madam Secretary. This is about color. 
We have opened our doors. Your tired, your poor, huddled masses 
yearning to breathe free, except we now have our quota of 
people of color. I yield back the balance of my time.
    Secretary Nielsen. Sir, if I could just respond to a couple 
of things. We do----
    Mr. Green of Texas. Mr. Chairman, if she responds, I would 
like to have the opportunity to respond to her response.
    Chairman Thompson [presiding]. Well, the gentleman made 
statements. He really didn't ask any questions, so in interest 
of time we will----
    Secretary Nielsen. But--OK.
    Chairman Thompson. We will go to the gentleman from Kansas 
City, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here today. I am 
conflicted. In seminary, we were required to study Robert Frost 
and Dr. John Swomley, a legendary author and theologian, forced 
us to study all the writings of Robert Frost.
    One of them is called Mending Wall, which you may be 
familiar with. One of his most famous--he wrote it in 1914, 
just outside of Boston. When you have to dissect that, what did 
Robert Frost mean in the opening line, which says, and I quote, 
``Something there is that does not love a wall.'' Something 
there is that does not love a wall, Robert Frost, 1914.
    So you dissect it, Frost is saying nature--shorten this--
nature or God does not love a wall. We can speak 
euphemistically, metaphorically that walls don't make good 
neighbors. Walls make long-term enemies.
    I may be wrong about everything. You know, I have studied 
seminary through college and then spent 3\1/2\ years in 
seminary. So, we started this whole issue. I mean, if you look 
at the Great Wall of China, do you have any idea how many times 
China has been invaded since they built the wall?
    Secretary Nielsen. No, sir.
    Mr. Cleaver. I mean, you wouldn't know that. I am not 
trying--so I am not--it is not--most historians would say a 
lot, because there is no--we--I mean, we can't even figure 
out--historians can't figure out how many times they have been 
invaded.
    Started building on it 200 B.C., primarily to keep the Hans 
out, the aliens, I guess we would call them today. As you know, 
that didn't help. It went all the way through the Ming Dynasty.
    What I am trying to come to the conclusion for of my 
question is, do you see anything wrong with the United States 
of America, the most powerful nation that God has allowed to 
exist, building a wall?
    Secretary Nielsen. Sir, the idea in part of the wall is 
actually to ensure safe and orderly flow, which actually 
protects those traveling. When they come through the desert or 
they come through more remote areas, they put themselves at 
risk and they almost always do that by paying a smuggler who 
then further preys upon them.
    So the idea of a barrier is a safe and orderly flow so that 
migrants who choose to come here come through a legal port of 
entry where they can be cared for. That is where the resources 
are, that is where we can provide them the best medical care, 
and that is where we can most quickly process their claim.
    Mr. Cleaver. Thank you. The busiest and the longest land 
border in the world is what?
    Secretary Nielsen. I would say it is ours.
    Mr. Cleaver. The busiest and the largest, the longest land 
border in the world is between the United States and Canada.
    Secretary Nielsen. But that is not the busiest, sir, but it 
is the longer--though it is the longer border, yes.
    Mr. Cleaver. We might have to have an argument about the 
busiest based on--I don't want to get into the trade amounts 
coming across the border from Canada, but it is 5,525 miles, 
and we have a lot of illegal people coming across the border, 
particularly between Vermont and Quebec, and the going fee is 
about $4,000 to bring people across the border.
    It just--and the numbers coming across--I am sure you know 
this--are increasing. So, my final question--I have 12 
seconds--would you be OK with building a wall to separate the 
United States and Canada?
    Secretary Nielsen. So we do everything by risk, as you 
know, sir. Right now, the risk is not such that it would 
necessitate physical barriers, but we do very closely work with 
the Canadians to ensure safe and orderly flow.
    What we do is we continue to analyze that daily to ensure 
that we do have mechanisms to provide security to both 
countries and to those traveling populations.
    Mr. Cleaver. My time is up. Thank you.
    Chairman Thompson. Thank you very much. Chair now 
recognizes the gentlelady from Florida, Mrs. Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Secretary Nielsen, thank you for being with us today--I 
apologize for being a little late, so you may have already 
answered this question, but let me just ask you, do you agree 
with the President declaring a state of emergency at the 
border?
    Secretary Nielsen. I do believe it is an emergency.
    Mrs. Demings. Do you think that same system or process 
could use to address mass shootings in America to make sure 
that we have the resources that we need to deal with mass 
shootings?
    Secretary Nielsen. I would have to refer, of course, to 
the--I am not----
    Mrs. Demings. Give me your personal opinions and views. 
Since you do deal with the security of our Nation, what do you 
feel about declaring a state of emergency as it pertains to 
mass shootings in this country since countless numbers of 
people die right before our very eyes on a regular basis?
    Secretary Nielsen. We need to do a lot more. That is a 
particular authority that the President has, but in general is 
it an emergency that we need to address? Yes.
    Mrs. Demings. So do you think that declaring a state of 
emergency as it pertains to mass shootings in this country 
would be a process that the President should consider?
    Secretary Nielsen. Again, I can't speak to his particular 
authority there, but what I can say is what we are doing at 
DHS, happy to tell you now or later.
    Mrs. Demings. How many Customs and Border Patrol officers 
or agents have you had to die in the line of duty during your 
tenure?
    Secretary Nielsen. We have had--I have the numbers here. I 
can look them up, but it is about, you know, 15 to 20. I am 
sorry----
    Mrs. Demings. I would just ask you, Secretary----
    Secretary Nielsen. Not in the line of duty. Not in the line 
of duty. We have had----
    Mrs. Demings. OK, how many in the line of duty at this----
    Secretary Nielsen. Zero.
    Mrs. Demings. Border----
    Secretary Nielsen. Zero.
    Mrs. Demings. Where there is a crisis?
    Secretary Nielsen. Zero.
    Mrs. Demings. Zero have died in the----
    Secretary Nielsen. In this last year.
    Mrs. Demings. How many Customs and Border Patrol officers 
or agents would you say have been seriously injured in the line 
of duty at the border, the Southwest Border in particular, 
during your tenure?
    Secretary Nielsen. So we could get you those figures. We 
have at least 60 instances of rockings and the assaults have 
gone up 40 percent.
    Mrs. Demings. OK, I remember a city near Orlando where 
there was 1 murder in January and 1 murder in December and they 
reported that murder rate had gone up 100 percent. So you are 
not--you don't know in terms of serious injury, how many 
officers or agents have been seriously injured during your 
tenure?
    Secretary Nielsen. Happy to get you that information.
    Mrs. Demings. At this crisis at the border? OK, change of 
direction for just a minute. Secretary Nielsen, you know that 
the Fifth Amendment requires that private property owners must 
receive just compensation for property seized under eminent 
domain. Is that correct?
    Secretary Nielsen. Yes.
    Mrs. Demings. OK, in some cases, the Federal Government can 
assume ownership of private property before compensation has 
been adjudicated and before a land owner has received payment 
for their land. Now, we can certainly debate whether seizing of 
land from private property owners is the right thing to do or 
not.
    We know that some property owners in Texas whose land may 
be seized, they had deeds predating State-hood in Texas, but I 
would like to focus on just compensation. Determining just 
compensation seems to be a challenge for the Department.
    There have been reports about the discrepancies between 
those who are represented by--have legal representation versus 
those who don't and what the Department feels the land value is 
versus other sources. How does the Federal Government determine 
just compensation for land seized at the Southwest Border?
    Secretary Nielsen. It is usually based on the market rate, 
the amount of acreage and then, of course, a variety of other 
factors, including the terrain of the land and what it could 
otherwise be used for.
    Mrs. Demings. USA Today has reported that some landowners 
were offered less than $100, while the market value was up to 
120 times greater. You said that they used fair market value to 
determine that?
    Secretary Nielsen. The general market value, yes.
    Mrs. Demings. OK. So do you have any explanation at all for 
the discrepancies?
    Secretary Nielsen. I am happy to look further into it and 
come and talk to you about it.
    Mrs. Demings. What Federal resources exist to help 
landowners, who are the mercy of the Federal Government, 
negotiate just compensation for their land?
    Secretary Nielsen. To my knowledge, the United States does 
not have the ability to pay for counsel for them. But, of 
course, it usually takes 12 to 16 months for this process to 
complete. So, during that time, we work very closely both with 
the area--the courts, if they are involved, and the landowner.
    Mrs. Demings. Looking at the area on the border where the 
President seems determined to build a wall, regardless of the 
necessity to do that, how many land owners would be affected?
    Secretary Nielsen. I don't have a particular number, ma'am. 
As you know and as you described, some of the parcels, it is 
very difficult to determine who owns them. We have, actually, 
people looking through microfiche to ensure that we do our very 
best to identify owners of particular parcels of land.
    Mrs. Demings. Secretary Nielsen, I am out of time, but we 
certainly have a lot more to discuss on this issue. I will 
yield back. Thank you and thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I thank the witness for her testimony and the Members for 
their questions. I ask unanimous consent to enter statements 
into the record from organizations regarding asylum seekers, 
families and children in DHS's custody, and other border 
security issues. Without objection.
    [The information follows:]
                   Statement of Amnesty International
                             March 5, 2019
    On behalf of Amnesty International \1\ and our more than 2 million 
members and supporters in the United States, we hereby submit this 
statement for the record.
---------------------------------------------------------------------------
    \1\ Amnesty International was awarded the Nobel Peace Prize in 
1977.
---------------------------------------------------------------------------
    Amnesty International is an international human rights organization 
with national and regional offices in more than 70 countries, including 
in the United States and Mexico. One of Amnesty International's top 
global priorities for the past several years has been protecting the 
human rights of refugees and asylum seekers around the world, including 
those who arrive to the U.S. border in search of safety. Amnesty 
welcomes this oversight effort by the Committee on Homeland Security of 
the policies and practices of the Department of Homeland Security (DHS) 
related to the U.S. border.
    Through extensive research and documentation, Amnesty International 
has concluded that the Department of Homeland Security, under the 
leadership of Secretary Kirstjen Nielsen, has engaged in an all-out 
assault on the right to seek asylum at the U.S. border. DHS has 
undermined the the right to asylum by: (1) Turning back asylum seekers 
who attempt to seek asylum at ports of entry (as they are authorized to 
do under domestic and international law); (2) separating parents and 
children to deter families who attempt to come to the United States in 
search of safety; and (3) detaining record numbers of asylum seekers, 
including children, who face abuse and ill treatment at the hands of 
DHS officials.
               who is seeking asylum at the u.s. border?
    Though members of the current administration, including Secretary 
Nielsen, have portrayed individuals seeking protection at the border in 
alienating terms, the vast majority of these individuals are fleeing 
record levels of insecurity, instability, and repression in their home 
countries. They are survivors of violence, not perpetrators of it.
    Amnesty International has documented that this violence, which 
occurs against a backdrop of generalized impunity and lack of 
government protection, drives people to leave Honduras, Guatemala, and 
El Salvador--collectively, the most common countries of origin of 
asylum seekers at the U.S. Southern Border.\2\ In this environment of 
violence and insecurity, nationals of these countries face numerous 
particularized risks, including forced recruitment of children and 
adolescents, extortion, death threats, and even murder at the hands of 
the maras, or powerful criminal groups acting as quasi-state 
authorities, exercising territorial control in various parts of these 
countries.\3\ Sexual violence, especially against women and members of 
the LGBTI community, is endemic.\4\
---------------------------------------------------------------------------
    \2\ Amnesty International, ``Americas: Stuck at the Door,'' Nov. 
2018, available at: https://www.amnesty.org/download/Documents/
AMR0194472018ENGLISH.PDF, at 4.
    \3\ Id.
    \4\ Amnesty International, ``No Safe Place: Salvadorans, 
Guatemalans, and Hondurans Seeking Asylum Based on their Sexual 
Orientation and Gender Identity,'' Nov. 2017, available at: https://
www.amnestyusa.org/wp-content/uploads/2017/11/No-Safe-Place-Briefing-
ENG-1.pdf; Kids in Need of Defense, Latin America Working Group, and 
the Women's Refugee Commission, ``Sexual and Gender Based Violence & 
Migration,'' May 2018, https://supportkind.org/wp-content/uploads/2018/
05/SGBV-Fact-sheet.-April-2018.pdf.
---------------------------------------------------------------------------
    Over the past 5 years, in response to these risks, the number of 
asylum claims from these 3 countries of origin around the world have 
increased. As Customs and Border Protection (CBP)'s own apprehension 
data shows, in January 2019 alone, over 60 percent of individuals 
apprehended at the border, and nearly half of all individuals seeking 
admission at ports of entry, were family units and unaccompanied 
children.\5\
---------------------------------------------------------------------------
    \5\ See Customs and Border Protection, ``FY19 Southwest Border 
Statistics,'' available at: https://www.cbp.gov/newsroom/stats/sw-
border-migration.
---------------------------------------------------------------------------
    While Secretary Nielsen has dismissed the human right to seek 
asylum as an inconvenient ``loophole,''\6\ it is in fact a bedrock 
principle of international and domestic law. Under the 1951 Convention 
Relating to the Status of Refugees and its 1967 Protocol (the latter of 
which the United States has signed and incorporated into domestic law 
through the 1980 Refugee Act),\7\ governments have the obligation not 
to forcibly return individuals to a place where they would fear harm--
not just their countries of origin, but any other place where a person 
would have reason to fear for their lives.\8\ To ensure this obligation 
is met, Congress has codified the right to seek asylum both at and 
between ports of entry in domestic law,\9\ and it has specifically 
mandated that U.S. authorities refer individuals who express a fear of 
return at the border to a ``credible fear'' process to assess their 
asylum claims.\10\
---------------------------------------------------------------------------
    \6\ ``Transcript: Homeland Security Secretary Kirstjen Nielsen's 
Full Interview With NPR,'' May 11, 2018, available at: http://
www.wlrn.org/post/transcript-homeland-security-secretary-kirstjen-
nielsens-full-interview-npr.
    \7\ Convention and Protocol Relating to the Status of Refugees, 
available at: https://www.unhcr.org/3b66c2aa10.
    \8\ Amnesty International, ``You Don't Have Any Rights Here: 
Illegal Pushbacks, Arbitrary Detention & Ill-Treatment of Asylum-
Seekers in the United States,'' Oct. 2018, available at: https://
www.amnesty.org/download/Documents/AMR5191012018ENGLISH.PDF 
[hereinafter ``You Don't Have Any Rights Here''].
    \9\ 8 U.S.C. sec. 1158(a).
    \10\ 8 U.S.C. sec. 1225(b).
---------------------------------------------------------------------------
  pushbacks, metering, and ``remain in mexico'': how dhs is illegally 
         turning back asylum seekers at the u.s.-mexico border
    Though the number of border crossers are at historic lows, DHS has 
institutionalized a practice of restricting access to territory for 
asylum seekers, forcing them to wait in Mexico at grave personal risk, 
with the goal that they will be dissuaded from seeking protection. 
These measures range from the informal practice of artificially 
lowering, or ``metering,'' the number of asylum applicants allowed to 
access U.S. territory per day to the formally-announced Migrant 
Protection Protocols, popularly known as the ``Remain in Mexico'' 
policy. They collectively reflect how DHS has illegally restricted the 
right to seek asylum at the U.S. border, circumventing Congressional 
intent in the process.
    In May 2018, Secretary Nielsen confirmed that DHS was ``metering,'' 
or limiting, the number of asylum seekers allowed to enter U.S. 
territory,\11\ stationing CBP officials at bridges leading to ports of 
entry to turn back asylum seekers.\12\ Before 2017, when the practice 
intensified, asylum seekers who approached U.S. officials at ports of 
entry to express a fear of return and need for protection could 
typically access U.S. territory and an asylum procedure, as Congress 
has required. Now, CBP officials are instead pushing them back to 
Mexico, where their names are placed on a series of ad hoc waiting 
lists at ports of entry managed variously by Mexican authorities, NGO 
groups, and even fellow asylum seekers; at some ports of entry, there 
are two, competing lists, creating an environment ripe for abuse.\13\ 
Depending on the number of people on the list, asylum seekers are 
forced to wait for weeks to months in this state of limbo.\14\ While no 
official statistics on the number of people CBP officials have 
illegally pushed back in this manner are available, Amnesty 
International has documented that this practice has affected thousands 
of asylum seekers, including families with children.\15\
---------------------------------------------------------------------------
    \11\ Id. at 11 (quoting DHS Secretary interview on Fox News, 15 May 
2018).
    \12\ DHS Office of the Inspector General, ``Initial Observations 
Regarding Family Separation Issues Under the Zero Tolerance Policy,'' 
Sept. 27, 2018, available at: https://www.oig.dhs.gov/sites/default/
files/assets/2018-10/OIG-18-84-Sep18.pdf, at 5-7.
    \13\ Strauss Center, ``Asylum Processing and Waitlists at the U.S.-
Mexico Border,'' https://www.strausscenter.org/images/MSI/
AsylumReport_MSI.pdf, at 5.
    \14\ Id. at 6.
    \15\ ``You Don't Have Any Rights Here,'' at 17.
---------------------------------------------------------------------------
    In December 2018, DHS announced that it would be implementing a 
policy popularly known as ``Remain in Mexico,'' which it has 
misleadingly labeled as the ``Migrant Protection Protocols.''\16\ Under 
the program, certain individuals seeking asylum at the border are 
forced to stay in Mexico at great risk to their personal safety for the 
duration of their proceedings, which can take months or even years. In 
the early days of its implementation in January and February 2019, the 
``Remain in Mexico'' policy has already implicated vulnerable 
individuals in its sweep, including families with children and LGBTI-
identifying individuals,\17\ and DHS has announced plans to expand the 
program, including to individuals who are apprehended between ports of 
entry.\18\
---------------------------------------------------------------------------
    \16\ ``Migrant Protection Protocols,'' Jan. 24, 2019, available at: 
https://www.dhs.gov/news/2019/01/24/migrant-protection-protocols.
    \17\ See Human Rights First, ``A Sordid Scheme: The Trump 
Administration's Illegal Return of Asylum-Seekers to Mexico,'' 13 Feb. 
2019, https://www.humanrightsfirst.org/resource/sordid-scheme-trump-
administration-s-illegal-return-asylum-seekers-mexico.
    \18\ Dara Lind, `` `Remain in Mexico': Trump's quietly expanding 
crackdown on asylum seekers, explained,'' VOX, March 5, 2019, https://
www.vox.com/2019/3/5/18244995/migrant-protection-protocols-border-
asylum-trump-mexico.
---------------------------------------------------------------------------
    The practice of pushing back asylum seekers through metering or the 
``Remain in Mexico'' policy, either to await their ability to 
articulate a fear of return in a credible or reasonable fear interview 
or the outcome of their asylum case, violates international and 
domestic law, is practically unjustified, and comes at significant 
human cost.
    As explained above, the U.S. Government--in this case, DHS--has a 
statutory obligation to receive asylum seekers' claims, thereby 
ensuring the U.S. Government does not run afoul of its obligation to 
refrain from forcibly returning individuals to harm.\19\ Even the 
statutory provision supposedly authorizing the ``Remain in Mexico'' 
initiative explicitly excepts individuals in expedited removal 
proceedings, a category which covers most individuals who apply for 
asylum at the border.\20\ Even at the outermost perimeter of the 
border, the turning away of asylum seekers clearly violates the 
Government's obligations under international law.\21\
---------------------------------------------------------------------------
    \19\ See 8 U.S.C. sec. 1158(a); 8 U.S.C. sec. 1225(b).
    \20\ See Hillel R. Smith, ``Expedited Removal of Aliens: Legal 
Framemwork,'' CONGRESSIONAL RESEARCH SERVICE, Sept. 19, 2018, https://
fas.org/sgp/crs/homesec/R45314.pdf.
    \21\ See ``You Don't Have Any Rights Here,'' at 17.
---------------------------------------------------------------------------
    Secretary Nielsen's attempts to justify these practices by citing 
``capacity constraints'' are belied by reality. Border crossings are at 
all-time historic lows,\22\ while the number of CBP officials is now at 
a historic high of nearly 60,000 agents,\23\ with funding for an 
additional 600 CBP officials appropriated just last month.\24\ This 
represents more than double the CBP personnel since DHS's creation in 
2003, when border crossings were 3 times as high as they are now.\25\
---------------------------------------------------------------------------
    \22\ Linda Qiu, ``Border Crossings Have Been Declining for Years, 
Despite Claims of a `Crisis of Illegal Immigration,' '' N.Y. TIMES, 
June 20, 2018, https://www.nytimes.com/2018/06/20/us/politics/fact-
check-trump-border-crossings-declining-.html.
    \23\ See ``CBP Snapshot: A Summary of Facts and Figures,'' March 
2018, https://www.cbp.gov/sites/default/files/assets/documents/2018-
Mar/cbp-snapshot-20180320.pdf.
    \24\ See Dept. of Homeland Security Appropriations Act 2019, Title 
II, available at: https://www.Congress.gov/bill/116th-congress/house-
joint-resolution/31/text.
    \25\ See supra note 16.
---------------------------------------------------------------------------
    Furthermore, though ports of entry along the border have vastly 
differing capacities to detain and process individuals, metering and 
pushbacks have been universally implemented at all of them. Senior CBP 
and ICE officials at the San Ysidro port of entry, which is the busiest 
land border in the Western hemisphere, informed Amnesty International 
in 2018 that CBP has only reached its detention capacity a couple of 
times per year.\26\ Yet in 2017 and 2018, CBP personnel frequently 
turned away even small numbers of asylum seekers at San Ysidro and 
other ports of entry, without explaining why.\27\
---------------------------------------------------------------------------
    \26\ See ``You Don't Have Any Rights Here,'' at 17.
    \27\ Id.
---------------------------------------------------------------------------
    Finally, and most importantly, though terms like ``metering'' place 
a clinical, anodyne gloss on the practice, make no mistake: This is a 
dangerous policy that places asylum seekers directly in harm's way. In 
April and May 2018, Amnesty International documented first-hand the 
negative consequences of CBP's refusal to receive asylum seekers' 
requests for protection after interviewing asylum seekers who had been 
pushed back. In one shelter in Tijuana, a transgender Guatemalan woman 
named Maritza recounted being turned away from San Ysidro when 
attempting to seek asylum; upon return to Tijuana, she was detained and 
beaten by local police.\28\ Shortly afterward, a group of 6 armed men 
attacked a Tijuana shelter where 11 LGBTI asylum seekers had been 
staying, yelling homophobic slurs and threatening to kill them if they 
did not leave the neighborhood. Though the group approached CBP 
officials to request asylum and convey the threats they'd suffered, the 
officials maintained that they still had no ``capacity'' to process the 
asylum seekers.\29\ In February 2019, 2 Honduran teenagers--both still 
children--were killed near the youth migrant shelter where they were 
staying while they waited to apply for asylum.\30\
---------------------------------------------------------------------------
    \28\ ``You Don't Have Any Rights Here,'' at 23.
    \29\ Id.
    \30\ Julia Gavarrette & Heather Gies, ``Honduran Teen Fled Gangs 
Only to be Murdered While at U.S.-Mexico Border,'' THE INTERCEPT, Feb. 
23, 2019, https://theintercept.com/2019/02/23/unaccompanied-minor-
migrants-us-border-policy/.
---------------------------------------------------------------------------
    Amnesty International has previously documented the many risks 
asylum seekers face in Mexico: Following a comprehensive survey, we 
concluded that nearly 40 percent of individuals surveyed who were 
detained by Mexican immigration authorities had been unlawfully 
returned to harm's way, and 75 percent of those surveyed were never 
even informed of their right to seek asylum in Mexico.\31\ One 
individual who Amnesty had spoken with after he was wrongfully deported 
from Mexico was killed by the very individuals he feared just days 
later.\32\
---------------------------------------------------------------------------
    \31\ Amnesty International, ``Overlooked and Under-protected: 
Mexico's Deadly Refoulement of Central Americans Seeking Asylum,'' Jan. 
2018, https://www.amnestyusa.org/wp-content/uploads/2018/01/
AMR4176022018-ENGLISH-05.pdf, at 5.
    \32\ Id. at 9.
---------------------------------------------------------------------------
family separations: how dhs weaponized an illegal practice to deter and 
                         punish asylum seekers
    In April 2018, DHS implemented a campaign of forcible separation of 
thousands of asylum-seeking families under a so-called ``zero 
tolerance'' policy, by which it criminally prosecuted adults crossing 
between ports of entry (the same adults who, had they tried to approach 
at ports of entry, would likely have been pushed back thanks to the 
``metering'' policy in place at those ports). Though the administration 
was ordered to cease separating children from their families in June 
2018, months later, DHS continues to regularly separate children from 
their parents, as well as from other relatives and caretakers.\33\ The 
full scope and scale of family separation is still unknown.
---------------------------------------------------------------------------
    \33\ Dara Lind, ``Hundreds of Families Are Still Being Separated at 
the Border,'' VOX, Feb. 21, 2019, https://www.vox.com/2019/2/21/
18234767/parents-separated-children-families-border-trump-jails.
---------------------------------------------------------------------------
    Based on public statements and internal memoranda by U.S. 
Government officials, there is overwhelming evidence that family 
separations were intended to deter asylum seekers from requesting 
protection in the United States as well as to punish and compel those 
who did seek protection to give up their asylum claims. Numerous media 
reports document the leveraging of family separations to coerce asylum 
seekers to give up their claims in exchange for reunification;\34\ on 
one occasion, Amnesty International witnessed first-hand an immigration 
judge tell a Brazilian grandmother who had been separated from her 
developmentally disabled grandchild that she could give up her asylum 
claim and be reunited with him or be deported without him, presumably 
after the denial of her claim.\35\
---------------------------------------------------------------------------
    \34\ ``You Don't Have Any Rights Here,'' at 30 & note 102-103.
    \35\ ``You Don't Have Any Rights Here,'' at 31.
---------------------------------------------------------------------------
    An internal DHS memo dating from December 2017, which was made 
available in January 2019, revealed that the agency conceived of the 
family separations policy as a means of deterring children and their 
families from coming to the United States.\36\ Contrary to U.S. and 
international legal obligations, DHS never considered the children's 
best interests in its cruel and unlawful family separation policy.
---------------------------------------------------------------------------
    \36\ The memo is available here: https://www.documentcloud.org/
documents/5688664-Merkleydocs2.html.
---------------------------------------------------------------------------
    Furthermore, there still has not been a full reckoning of the scale 
of family separations. Amnesty International's October 2018 report was 
the first to document how the number of family separations was far 
greater than DHS initially disclosed, and could be as high as 8,000 
family units, if not more.\37\ In January 2019, a report by the Office 
of the Inspector General of the Department of Health and Human Services 
revealed that the total number of separated families and children is 
``unknown.''\38\ Though family separations are the subject of an on-
going class action lawsuit, many of the affected families do not fall 
within the definition of the class, and thus DHS has not publicly 
counted the families not falling within class definition toward the 
total, though it has suggested that thousands more have been separated 
than it previously revealed.\39\
---------------------------------------------------------------------------
    \37\ ``You Don't Have Any Rights Here,'' at 42; Amnesty 
International, ``USA: Facts and figures on illegal pushbacks, arbitrary 
detention and ill treatment of asylum-seekers in the United States,'' 
22 Oct. 2019, https://www.amnesty.org/en/latest/news/2018/10/usa-facts-
and-fugures-of-illegal-pushbacks-arbitrary-detention-and-ill-
treatment/. Part of the ambiguity stems from the fact that the various 
agencies ``count'' family units differently--while DHS and the Dep't of 
Health and Human Services appear to count a family as a single ``family 
unit,'' CBP's Southwest Border Migration Statistics appear to count 
``family units'' as the total number of individuals in the unit. 
Compare ``Apprehension, Processing, Care, and Custody of Alien Minors 
and Unaccompanied Alien Children'' (7 Sept. 2018), available at: 
https://www.gpo.gov/fdsys/pkg/FR-2018-09-07/pdf/2018-19052.pdf 
(defining ``family units'' as a group of two or more aliens consisting 
of a minor or minors accompanied by his/her/their adult parent(s) or 
legal guardian(s)'') with ``Southwest Border Migration Fiscal Year 
2019,'' available at: https://www.cbp.gov/newsroom/stats/sw-border-
migration (defining ``family units'' as the total number of individuals 
in the units).
    \38\ Dep't of Health & Human Services Office of the Inspector 
General, ``Separated Children Placed in Office of Refugee Resettlement 
Care,'' Jan. 2019, available at: https://oig.hhs.gov/oei/reports/oei-
BL-18-00511.pdf.
    \39\ Id.
---------------------------------------------------------------------------
    Based on its research in 2018, Amnesty International found that the 
administration's deliberate and punitive practice of forced family 
separations in some cases constituted torture under both U.S. and 
international law. To meet the definition of torture, an act must be: 
(1) Intentional; (2) carried out or condoned by a Government official; 
(3) inflicting severe pain or suffering, whether physical or mental; 
and (4) carried out for a specific purpose such as punishment, 
coercion, intimidation, or for a discriminatory reason.\40\ The Trump 
administration's deliberate policy and practice of forcible family 
separations satisfies all of these criteria.
---------------------------------------------------------------------------
    \40\ U.N. Convention Against Torture and Other Cruel, Degrading, or 
Inhuman Treatment or Punishment, art. 1, available at: https://
www.ohchr.org/Documents/ProfessionalInterest/cat.pdf.
---------------------------------------------------------------------------
    In 2018, Amnesty International interviewed 15 adults whom DHS 
agencies separated from their children both before and after the 
introduction of the so-called zero-tolerance policy.\41\ The 
separations happened in all 4 U.S. States along the U.S.-Mexico border 
(California, Arizona, New Mexico, and Texas), at the hands of both CBP 
and Immigration and Customs Enforcement (ICE) personnel. In all of 
those cases, prior to being separated, the families had requested 
asylum and expressed their fear of return to their countries of origin. 
According to the adults, in none of these cases did DHS personnel 
explain to the families the reasons for the separations at the time 
that they happened or allow them to defend their custodial right to 
family unity. DHS personnel simply separated the families--in some 
cases through the use or threat of physical force.
---------------------------------------------------------------------------
    \41\ ``You Don't Have Any Rights Here,'' at 36.
---------------------------------------------------------------------------
    Amnesty International interviewed a Brazilian mother, Valquiria, 
who was separated from her 8-year-old son, Abel, with no explanation 
given, after the two approached CBP officials at a port of entry to 
seek asylum. Nearly a year later, Valquiria remains in detention at the 
El Paso Processing Center; on March 17, it will be 1 year since 
Valquiria was separated from her son. Abel has stared blankly for 
months at the door in the house where he lives, waiting for his mother 
to return.
    ``They told me, `You don't have any rights here, and you don't have 
any rights to stay with your son,'' Valquiria recalled. ``For me, I 
died at that moment. They ripped my heart out of me. It would have been 
better if I had dropped dead. For me, the world ended at that point. 
How can a mother not have the right to be with her son?''
detention and ill-treatment in custody as punitive measures for seeking 
                                 asylum
    Even for those asylum seekers who manage to access U.S. asylum 
proceedings, in recent years, an increasing number of them have been 
relegated to mandatory and indefinite detention as they fight for the 
right to be protected. As of January 2019, ICE was detaining close to 
50,000 people per day.\42\ Many of those detained are asylum seekers.
---------------------------------------------------------------------------
    \42\ Heidi Altman & Mary Small, ``Immigration Detention and the DHS 
Negotiations: An Explainer,'' National Immigrant Justice Center, Feb. 
11, 2019, https://immigrantjustice.org/staff/blog/immigration-
detention-and-dhs-spending-negotiations-explainer; Detention Watch 
Network, ``ICE's Fiscal Mismanagement: Fraud, Deceit, and Abuse,'' 
available at: https://www.detentionwatchnetwork.org/sites/default/
files/ICE%E2%80%99s%20Fiscal%20Mismanage-
ment%20Deceit%20and%20Abuse.pdf.
---------------------------------------------------------------------------
    In January 2017, the administration adopted a policy requiring all 
asylum seekers to remain in detention for the duration of their 
proceedings, without parole, effectively punishing them for exercising 
the right to seek asylum. Although a court in June 2018 declared that 
individuals who had been found to have a ``credible fear'' of return to 
their home countries--and were thus authorized to proceed with their 
asylum claims--had to receive individualized determinations for parole 
from detention, the ruling applies only in certain jurisdictions, and a 
significant number of asylum seekers continue to languish in detention 
for the duration of their proceedings.\43\
---------------------------------------------------------------------------
    \43\ ``You Don't Have Any Rights Here,'' at 53.
---------------------------------------------------------------------------
    Amnesty International has documented how particularly vulnerable 
individuals, including transgender asylum seekers, remain in detention 
for months at a time, where they are unable to access adequate health 
care and are vulnerable to abuse and ill-treatment while in custody, 
often after having suffered death threats, exploitation, and sexual 
violence in their home countries.\44\ For example, since May 2018, 
Amnesty has advocated for the release of Alejandra, a trans woman and 
transgender rights activist from El Salvador who has been detained 
since December 2017 in the Cibola County Correctional Center in Milan, 
New Mexico, where she has been denied parole on three separate 
occasions despite her rapidly deteriorating health.\45\ In each of the 
three denials she has received, no reason is given for Alejandra's 
continued detention other than a checked box stating that Alejandra--
who fled to the United States in 2017 after facing death threats and 
sexual assaults at the hands of both the Salvadoran military and the 
maras--is a ``flight risk.''
---------------------------------------------------------------------------
    \44\ Id. at 54-55.
    \45\ Id.
---------------------------------------------------------------------------
    Furthermore, detention creates an environment that is ripe for 
abuse and ill-treatment: Recent reports reveal troubling allegations of 
abuse at the hands of ICE officials responsible for the care of asylum 
seekers in their custody. A 2018 study of sexual abuse allegations made 
by individuals in ICE custody found that nearly 60 percent of the 
complaints reviewed involved perpetrators who were ICE officials.\46\ 
In CBP custody, meanwhile, 2 children died over the course of a single 
month in December 2018, and reports document the verbal, physical, and 
sexual abuse children have faced at the hands of CBP agents over the 
past several years.\47\
---------------------------------------------------------------------------
    \46\ Alice Speri, ``Detained, then Violated,'' THE INTERCEPT, APR. 
11, 2018, https://theintercept.com/2018/04/11/immigration-detention-
sexual-abuse-ice-dhs/.
    \47\ Ashley Hackett, ``Thousands of Children Have Suffered Abuse at 
the Hands of U.S. Border Protection Agents,'' PACIFIC STANDARD, 25 May 
2018, https://psmag.com/social-justice/thousands-of-children-have-
suffered-abuse-at-the-hands-of-us-border-protection-agents.
---------------------------------------------------------------------------
                amnesty international's recommendations
    On illegal pushbacks of asylum seekers:
  <bullet> Exercise greater oversight of DHS to halt the illegal 
        pushback of asylum seekers and to understand the extent of the 
        practice.
  <bullet> Request regular information about the processing capacities 
        and numbers of individuals turned back at all ports of entry.
  <bullet> Implement measures clarifying that the purported 
        justification for the ``Remain in Mexico'' program, Section 
        235(b)(2)(C) of the Immigration and Nationality Act, is not 
        meant to apply to asylum seekers.
  <bullet> Demand all information from the Government regarding cross-
        border negotiations undertaken in conjunction with metering and 
        pushbacks, both practices which appear to require cooperation 
        of Mexican government officials.
  <bullet> Participate in delegations to ports of entry at the 
        Southwest Border, including to migrant shelters adjacent to the 
        ports of entry, to understand first-hand the impact of 
        metering, pushbacks, and ``Remain in Mexico.''
  <bullet> Decline to continue funding CBP operations absent rigorous 
        external oversight of CBP field operations and U.S. Border 
        Patrol and increase funding specifically for the processing of 
        asylum claims at the Southern Border.
    On family separation:
  <bullet> Pass legislation outlawing the separation of children and 
        families unless clear and specific evidence exists that family 
        unity is not in the child's best interests.
  <bullet> Continue to exercise oversight of DHS's role in the family 
        separation policy to understand the scope and extent of the 
        policy.
    On indefinite detention of asylum seekers:
  <bullet> Pass legislation to provide for a presumption against 
        detention of asylum seekers and to ensure the right to judicial 
        review and due process in cases of detention.
  <bullet> Support and fund community-based alternatives to detention, 
        such as the former Family Case Management Program.
    For more information, please contact Charanya Krishnaswami[.]
                                 ______
                                 
             Statement of the Center for Victims of Torture
                             March 6, 2019
    The Center for Victims of Torture (CVT) commends the House Homeland 
Security Committee for holding an oversight hearing on the Trump 
administration's border policies, which have contributed to the 
creation of an actual crisis at the U.S. Southern Border. We appreciate 
the opportunity to submit this statement for the record.\1\
---------------------------------------------------------------------------
    \1\ For questions or for more information about CVT's work in this 
area and on related issues, please contact Andrea Carcamo, Senior 
Policy Counsel at the Center for Victims of Torture[.]
---------------------------------------------------------------------------
    Founded in 1985 as an independent non-governmental organization, 
the Center for Victims of Torture is the oldest and largest torture 
survivor rehabilitation center in the United States and one of the two 
largest in the world. Through programs operating in the United States, 
the Middle East, and Africa--involving psychologists, social workers, 
physical therapists, physicians, psychiatrists, and nurses--CVT 
annually rebuilds the lives of nearly 25,000 primary and secondary 
survivors, including children. CVT also conducts research, training, 
and advocacy, with each of those programs rooted in CVT's healing 
services. The organization's policy advocacy leverages the expertise of 
five stakeholder groups: Survivors, clinicians, human rights lawyers, 
operational/humanitarian aid providers, and foreign policy experts. The 
vast majority of CVT's clients in the United States are asylum seekers. 
Indeed, according to the Department of Health and Human Services Office 
of Refugee Resettlement, research indicates that 44 percent of asylum 
seekers, asylees, and refugees now living in the United States are 
torture survivors.\2\
---------------------------------------------------------------------------
    \2\ Office of Refugee Resettlement. Survivors of Torture Program. 
Retrieved from https://www.acf.hhs.gov/orr/programs/survivors-of-
torture.
---------------------------------------------------------------------------
    CVT's extensive experience providing mental health services to 
asylum seekers and refugees in the United States and around the globe 
uniquely positions us to speak to the adverse effects certain border 
practices have on the mental health of children and adults fleeing 
persecution, as well as the United States' dwindling reputation as a 
global leader in human rights. We focus here on two such practices: The 
migrant protection protocols and family separation.
the migrant protection protocols are putting asylum seekers at risk of 
                         further traumatization
    Forcing people seeking safe haven in the United States to remain in 
Mexico during the pendency of the their asylum cases is unnecessary, 
unsafe, and will exacerbate the pain and suffering the torture and 
trauma survivors already are experiencing.
    According to the head of Mexico's National Migration Institute, 
Tonatiuh Guillen, Mexico is not prepared to host thousands of asylum 
seekers for years, or even months.\3\ Its government simply is not 
equipped for the task the United States has imposed on it, especially 
when it comes to hosting torture and trauma survivors. Border cities 
are not safe for residents, much less for vulnerable populations, such 
as survivors of torture fleeing persecution.\4\ Many asylum seekers 
will be at high risk of re-victimization by becoming targets for human 
trafficking, labor exploitation, rape, and kidnapping. A significant 
number of survivors of torture from Central America suffer violence at 
the hands of gangs that have powerful networks extending to Mexico,\5\ 
making the country especially unsafe.
---------------------------------------------------------------------------
    \3\ McDonnell, Patrick (Dec. 21, 2018). Los Angeles Times. Mexico 
is Unprepared for the Deal it Made with the U.S. on asylum seekers, 
immigration chief says. Retrieved from https://www.latimes.com/world/
mexico-americas/la-fg-mexico-remain-20181221-story.html
    \4\ Human Rights First (February, 2019). A Sordid Scheme: The Trump 
Administration's Illegal Return of Asylum Seekers to Mexico. Retrieved 
from https://www.humanrightsfirst.org/sites/default/files/
A_Sordid_Scheme.pdf.
    \5\ Squires, Scott (March 8, 2018). In Sight Crime. MS 13 Feud 
Spreads to Mexico, but Gang's Presence Remains Limited. Retrieved from 
https://www.insightcrime.org/news/brief/ms13-feud-spreads-mexico-gangs-
presence-remains-limited/.
---------------------------------------------------------------------------
    Even putting aside the host of serious dangers to which asylum 
seekers are exposed and additionally susceptible as a result of having 
to remain in Mexico, the policy is damaging. One of the most valuable 
resources survivors of torture have to help their recovery is the 
support of friends, family, and fellow countrymen. Many of the 
individuals who choose to flee to the United States do so because they 
have connections through friends or family. These contacts can prove 
invaluable for asylum-seeking survivors of torture or other trauma, as 
their contacts help them navigate within a new culture and language. 
CVT sees this with our clients; for example, Ethiopians who come to 
Minnesota because they have connections to family or to fellow 
Ethiopians there. Lack of access to these networks, and the support 
they provide, adds stress, and exacerbates trauma.
  family separation exacerbates the trauma faced by families fleeing 
                              persecution
    A significant number of the Central American families who come to 
the United States are survivors of torture,\6\ and many more are 
fleeing persecution. Because of the nature of trauma, oftentimes 
children who accompany traumatized parents experience symptoms as 
secondary survivors (even if they have not been directly harmed 
previously). These highly traumatized populations are particularly 
vulnerable to the adverse effects of detention and separation from 
their loved ones.
---------------------------------------------------------------------------
    \6\ Meyer and Pachico (Feb 1, 2018). Washington Office on Latin 
America. Fact Sheet: U.S. Immigration and Central American Asylum 
Seekers. Retrieved from https://www.wola.org/analysis/fact-sheet-
united-states-immigration-central-american-asylum-seekers/.
---------------------------------------------------------------------------
    According to Susan Jasko MSW, LICSW, a CVT therapist with over 20 
years of clinical experience working with children and families:

``When children are young, they are bonding with their parents, and 
good bonding leads to positive relationships with other people in 
adolescence and adulthood. Breaking that bond can have consequences in 
the child's ability to socialize with others. When children come from 
an area where they experienced violence, it teaches them that the world 
is not safe. Then, when they are separated from their parent, this idea 
is solidified, which can have a profound effect on the development of 
the child. If a child lives in a state of trauma, as children fleeing 
conflict areas that are separated from their families do, it can affect 
their brain development at a biological level as well.''

    Many of the children Ms. Jasko has treated over the years were 
struggling with separation from or loss of parents, and all presented 
severe symptoms, including nightmares, fears, anxiety, and depression.
    Ms. Jasko's experience is far from unique. Indeed, over 20,000 
medical and mental health professionals and researchers working in the 
United States (including Andrea Northwood, CVT director of client 
services), have previously made clear--directly to the DHS--that 
``[t]he relationship of parents and children is the strongest social 
tie most people experience, and a threat to that tie is among the most 
traumatic events people can experience.''\7\ They further explained 
that separating a child from a parent causes an effect known as adverse 
childhood experience (ACE), which can lead to multiple forms of 
impairment and increased risk of serious mental health conditions 
including post-traumatic stress disorder (PTSD).
---------------------------------------------------------------------------
    \7\ Physicians for Human Rights (June 14, 2018). Letter to 
Secretary Nielsen and Attorney General Sessions. Retrieved from https://s3.amazonaws.com/PHR_other/Separation_Letter_FINAL.pdf.
---------------------------------------------------------------------------
    Disturbingly, this information was not new to officials from the 
Trump administration: On July 31, 2018, Commander Jonathan White, 
formerly of the Department of Health and Human Services, testified that 
he raised the very real concern that separating families could cause 
long-term emotional and psychological effects on children when the 
policy was presented to him before its implementation.\8\
---------------------------------------------------------------------------
    \8\ C-Span (July 13, 2018). Public Health Service Commander Warned 
Against Family Separation. Retrieved from https://www.c-span.org/video
/?c4742969/public-health-service-commander-warned-family-separations.
---------------------------------------------------------------------------
    While the damage to children must be central, we urge Members also 
to appreciate the harm family separation has caused, and continues to 
cause, to affected parents. At CVT, 67 percent of U.S.-based clients--
refugees and asylum seekers from around the world--have been separated 
from their families, sometimes by force and other times by necessity 
when clients must flee without warning to escape imminent danger. 
During her time at CVT, in addition to her work with children, Ms. 
Jasko has also treated adult clients seeking asylum who had no option 
but to leave their country without their children. ``The uncertainty of 
not knowing when they will next see their children makes me worry about 
my clients,'' she says, ``as they express feelings of hopelessness and 
suicidal thoughts.''
    family separation is a technique utilized by tyrants and other 
          oppressors that the united states has long condemned
    CVT has served hundreds of children, some of whom were subjected to 
separation as a tool to coerce their parents. For example, Jana, a 10-
year-old Syrian girl, endured forced separation from her family and 
imprisonment before crossing the Syrian-Jordanian border seeking 
safety. She had been detained--along with other children--for nearly a 
month in an attempt to force her father to turn himself in. He did, and 
he was murdered. Saad's little brother, a young boy, was held for 2 
weeks in prison and tortured. The militia sent pictures of his abuse to 
Saad's family with a message warning them to leave Iraq. When his 
little brother was returned to them, Saad and his family fled to 
Jordan.
    This is what tyrants, dictators, and other oppressors do. It is not 
how democracies are supposed to behave. And yet, the Trump 
administration embraced the practice of separating children from their 
parents admittedly as a deterrent: To dissuade vulnerable people from 
seeking safe haven in the United States at all, and for those it did 
not entirely deter then to coerce them into forgoing their right to 
seek asylum and to sign a deportation order, which for many would 
return them to countries and circumstances where they face significant 
risk of further persecution, violence, or even death.\9\
---------------------------------------------------------------------------
    \9\ Van Schaak, Beth (Nov 27, 2018). Just Security. New Proof 
Surfaces that Family Separation was About Deterrence and Punishment. 
Retrieved from https://www.justsecurity.org/61621/proof-surfaces-
family-separation-deterrence-punishment/; Bernal, Rafael (June 19, 
2018). The Hill. HHS Official Says Family Separation Policy will ``have 
Deterrence Effect.'' Retrieved from https://thehill.com/latino/393000-
hhs-official-says-family-separation-policy-will-have-deterrence-effect.
---------------------------------------------------------------------------
    Family separation of this kind is not only immoral, it is also 
unlawful. Most directly, Article 31 of the Refugee Convention prohibits 
contracting States from ``impos[ing] penalties'' on the basis of how a 
refugee arrived to the United States--whether through illegal entry, 
presence, or without authorization. Indeed, the international community 
has recognized the importance of a child's bond with a parent, for 
example through Article 9 of the United Nations Conventions on the 
Rights of the Child (CRC), 196 countries have agreed that they ``shall 
ensure that a child shall not be separated from his or her parents 
against their will, except when competent authorities subject to 
judicial review determine, in accordance with applicable law and 
procedures, that such separation is necessary for the best interests of 
the child.''\10\ Although the United States has not ratified this 
treaty (the only country in the world not to have done so), as a 
signatory the United States is bound to not engage in actions that 
``defeat'' the CRC's ``object and purpose.''\11\
---------------------------------------------------------------------------
    \10\ United Nations Human Rights, Office of the High Commissioner 
(Sept 2, 1990). Convention on the Rights of the Child. Retrieved from 
https://www.ohchr.org/en/professionalinterest/pages/crc.aspx.
    \11\ United Nations Treaty Collection, Chapter XXIII (May 23, 
1969). Vienna Convention on the Law of Treaties, Article 18. Retrieved 
from https://treaties.un.org/pages/
ViewDetailsIII.aspx?src=TREATY&mtdsg_no=XXIII1&chapter=23&Temp=mtdsg3&cl
ang=_en. Although the United States is not a party to the Vienna 
Convention, ``many commentators claim that Article 18 reflects 
customary international law that is binding on nations that have not 
joined the Convention, a claim that the United States has not denied.'' 
Curtis A. Bradley, Unratified Treaties, Domestic Politics, and the U.S. 
Constitution, 48 Harv. Int'l L. J. 307, 307-308 & n.1 (2007); see also 
Roper v. Simmons, 543 U.S. 551 (2005) (acknowledging ``the overwhelming 
weight of international opinion against the juvenile death penalty,'' 
including the direct prohibition in Article 37 of the CRC).
---------------------------------------------------------------------------
    The United States must not underestimate how its actions 
reverberate globally; in particular the implicit permission that U.S. 
practice might give other nations to act the same. The United States 
cannot maintain a credible global leadership role in the human rights 
sphere if separating families to deter asylum seekers is the kind of 
example the Executive branch is going to set.
                     conclusion and recommendations
    Custom and Border Patrol's actions at the border are the actual 
crisis at our Southern Border, which have a profound impact on the 
lives of some of the world's most vulnerable people, torture survivors 
among them. The practices of family separation and returning asylum 
seekers to Mexico must be stopped, those responsible should be held 
accountable, victims deserve redress, and preventive mechanisms need to 
be adopted. More specifically, we urge the Executive branch and 
Congress to take the following actions, respectively:
Executive Branch
  <bullet> Stop the expansion and implementation of the Migration 
        Protection Protocols.
  <bullet> Immediately reunify all families.
  <bullet> End the practice of separating families to deter individuals 
        from coming to the United States and seeking refuge.
  <bullet> Ensure family separation determinations are not arbitrary, 
        but instead made by child welfare professionals where the 
        child's safety is the primary consideration.
  <bullet> Whenever there is an appropriate determination to separate a 
        child from a parent for the child's safety, ensure there is an 
        adequate system to track the family and their relationship to 
        each other.
  <bullet> ICE and CBP must facilitate communications between a child 
        and a parent who have been separated.
Congress
  <bullet> Conduct rigorous, on-going oversight of family separation 
        and its consequences, with an immediate focus on ensuring the 
        Executive branch reunifies families and discontinues the 
        practice of arbitrary family separation.
  <bullet> Support the REUNITE Act.
                                 ______
                                 
                            Statement of CWS
                             March 6, 2019
    As a 73-year-old humanitarian organization representing 37 
Protestant, Anglican, and Orthodox denominations and 23 refugee 
resettlement offices across the United States, Church World Service 
urges the committee to exercise its oversight responsibility by holding 
DHS accountable to humanitarian principles stipulated in U.S. \1\ and 
international \2\ law. CWS urges the committee to do everything in its 
power to end family incarceration and separation, protect immigrant 
children, terminate the administration's ``zero tolerance'' policy, and 
uphold U.S. asylum law. CWS affirms the right of individuals to seek 
safety and calls on Congress to recognize the importance of access to 
protection. In addition, the committee should ensure that DHS is 
operating the U.S. Refugee Admissions Program (USRAP) in good faith, in 
accordance with Congressional intent and The 1980 Refugee Act.\3\
---------------------------------------------------------------------------
    \1\ Immigration and Nationality Act  208, 8 U.S.C.  1157.
    \2\ The Convention on the Rights of the Child, Articles 2, 3, 6, 
and 22. www.ohchr.org/en/professionalinterest/pages/crc.aspx; The 
Universal Declaration of Human Rights, Article 14. www.un.org/en/
documents/udhr/index.shtml#a14; United Nations General Assembly, 
Declaration on Territorial Asylum, 14 December 1967, A/RES/2312(XXII). 
www.refworld.org/docid/3b00f05a2c.html; United Nations High 
Commissioner for Refugees, A Framework for the Protection of Children 
www.unhcr.org/50f6cf0b9.html; United Nations High Commissioner for 
Refugees, Convention and Protocol Relating to the Status of Refugees. 
www.unhcr.org/3b66c2aa10.html.
    \3\ Immigration and Nationality Act  207, 8 U.S. Code  1157.
---------------------------------------------------------------------------
    CWS condemns the administration's policies that have caused family 
separation at ports of entry and between ports of entry, including of 
asylum seekers, as well as ``zero tolerance'' policies that detain and 
prosecute parents for migration-related offenses. Reports have surfaced 
that despite court intervention, family separations persist. Border 
agents have used vague allegations, such as illegal re-entry, to 
justify separating parents from their children. Reports have documented 
guards using the threat of separation as a method of discipline, as 
well as children experiencing signs of psychological and physical 
trauma due to such separation. Similar policies of detaining asylum-
seeking families to deter migration have already been found to violate 
the law by a U.S. court. Allowing front-line agents to threaten family 
separation and refuse asylum claims undermines due process and results 
in deporting families back to harm. These policies also result in more 
unaccompanied children being placed in detention. CWS urges Congress to 
hold the administration accountable to terminating all ``zero 
tolerance'' policies.
    Equally troubling is the expansion of family incarceration, which 
is plagued with systemic abuse and inadequate access to medical care. 
These conditions are unacceptable, especially for children, pregnant 
and nursing mothers, and individuals with serious medical conditions. 
The American Association of Pediatrics has found that family detention 
facilities do not meet basic standards for the care of children and 
``no child should be in detention centers or separated from parents.'' 
CWS urges Members of Congress to reject any proposal that would expand 
family incarceration or violate the long-standing child welfare 
consensus that children should not be detained for longer than 20 days.
    CWS is strongly opposed to any proposal that would weaken or 
eliminate provisions in the Trafficking Victims Protection 
Reauthorization Act (TVPRA), which provides important procedural 
protections for unaccompanied children in order to accurately determine 
if they are eligible for relief as victims of trafficking or 
persecution. All people have the legal right to seek protection from 
persecution and violence.\4\ Weakening existing legal protections for 
children would undermine the U.S. Government's moral authority as a 
leader in combating human trafficking, and would increase 
vulnerabilities for trafficking victims by curtailing access to due 
process, legal representation, and child-appropriate services. CWS 
urges the administration and Congress to affirm the right of all people 
to seek protection and ensure that individuals seeking safety are not 
returned to their traffickers and others who seek to exploit them.
---------------------------------------------------------------------------
    \4\ Article 14, The Universal Declaration of Human Rights. 
www.un.org/en/documents/udhr/index.shtml#a14; U.S. Code Title 8: Aliens 
and Nationality, Chapter 12: Immigration and Nationality, Section 1158: 
Asylum. http://uscode.house.gov.
---------------------------------------------------------------------------
    The administration has also imposed multiple bans and a series of 
changes to the U.S. Refugee Admissions Program (USRAP) that have 
prolonged family separation and left tens of thousands of vulnerable 
refugees in limbo. It has decreased the number of refugees that can be 
resettled in the United States to a record low 30,000 in fiscal year 
2019, after resettling less than half of last year's then-historic low 
of 45,000. Resettlement is the last resort for men, women, and children 
who cannot return to their home countries and cannot rebuild their 
lives in the country where they first fled. Resettlement is the already 
the most difficult way to enter the United States, but these bans, 
alongside many policy changes, have denied safety to tens of thousands 
of bona fide refugees and have reversed decades of U.S. leadership on 
refugee protection. We urge Congress to hold the administration 
accountable to meeting its fiscal year refugee admissions goal and 
rebuilding the resettlement program, returning the program to historic 
norms.
    We implore DHS to actively protect refugees, asylum seekers, and 
other vulnerable populations, and we urge Congress to hold them 
accountable to that end. And we remind our elected leaders of Leviticus 
19:33-34, which reads: ``Any immigrant who lives with you must be 
treated as if they were one of your citizens. You must love them as 
yourself, because you were immigrants in the land of Egypt; I am the 
LORD your God.''
                                 ______
                                 
         Letter From the Electronic Privacy Information Center
                                     March 5, 2019.
The Honorable Bennie G. Thompson, Chairman,
The Honorable Mike Rogers, Ranking Member,
U.S. House Committee on Homeland Security, H2-176 Ford House Office 
        Building, Washington, DC 20515.
    Dear Chairman Thompson and Ranking Member Rogers: We write to you 
regarding the hearing ``The Way Forward on Border Security.''\1\ The 
Electronic Privacy Information Center (``EPIC'') is a public interest 
research center established in 1994 to focus public attention on 
emerging privacy and civil liberties issues.\2\ EPIC is focused on the 
protection of individual privacy rights, and we are particularly 
interested in the privacy problems associated with surveillance.\3\
---------------------------------------------------------------------------
    \1\ The Way Forward on Border Security, U.S. House Comm. on 
Oversight and Gov't Reform (Mar. 6, 2019), https://homeland.house.gov/
hearings-and-markups/hearings/way-forward-border-security.
    \2\ See About EPIC, EPIC.org, https://epic.org/epic/about.html.
    \3\ EPIC, EPIC Domestic Surveillance Project, https://epic.org/
privacy/surveillance/, Statement of EPIC, ``Unmanned Aircraft Systems: 
Innovation, Successes, and Challenges,'' Hearing Before S. Comm. on 
Commerce, Sci., and Trans., United States Senate, Mar. 13, 2017, 
https://epic.org/testimony/congress/EPICSCOM-Drones-Mar2017.pdf; The 
Future of Drones in America: Law Enforcement and Privacy 
Considerations: Hearing Before the S. Judiciary Comm., 113th Cong. 
(2013) (Statement of Amie Stepanovich, Director, EPIC Domestic 
Surveillance Project), https://epic.org/privacy/testimony/EPIC-Drone-
Testimony-3-13-Stepanovich.pdf; Comments of EPIC to DHS, Docket No. 
DHS-2007-0076 CCTV: Developing Privacy Best Practices (2008), https://
epic.org/privacy/surveillance/epic_cctv_011508.pdf.
---------------------------------------------------------------------------
    There are several border security proposals now before Congress 
that implicate the privacy rights of Americans. These practices include 
cell phone searches, scanning social media, and aerial drones.
    EPIC writes to warn that enhanced surveillance at the border will 
almost certainly sweep up the personal data of U.S. citizens. Before 
there is any increased deployment of surveillance systems at the U.S. 
border, an assessment of the privacy implications should be conducted. 
Additionally, deployment of surveillance technology should be 
accompanied by new policy and procedures and independent oversight to 
protect citizens' rights. And any law enforcement agency that uses 
surveillance tools should comply with all applicable laws, including 
open government obligations. The privacy assessments, policies and 
procedures, and oversight mechanisms should all be made public.
    The American Bar Association recently adopted a new policy on 
privacy rights and border searches.\4\ The policy ``urges the Federal 
judiciary, Congress, and the Department of Homeland Security to enact 
legislation and adopt policies to protect the privacy interests of 
those crossing the border by imposing standards for searches and 
seizures of electronic devices, protection of attorney-client 
privilege, the work product doctrine, and lawyer-client 
confidentiality.''
---------------------------------------------------------------------------
    \4\ A.B.A., Resolution 107A (2019), https://www.americanbar.org/
content/dam/aba/images/news/2019mymhodres/107a.pdf.
---------------------------------------------------------------------------
                searches of mobile devices at the border
    Searches of cell phones and other electronic devices by border 
agencies have skyrocketed in recent years. In 2017, U.S. Customs and 
Border Protection (CBP) searched 30,200 electronic devices--almost a 60 
percent increase from 2016.\5\ Searches of mobile devices are ``basic'' 
or ``forensic.'' Under current policy, the Government may conduct a 
``basic'' search--where an agent manually searches the device for 
information--with no suspicion of wrongdoing of the person whose device 
is subject to search.
---------------------------------------------------------------------------
    \5\ Press Release, U.S. Customs and Border Protection, CBP Releases 
Updated Border Search of Electronic Device Directive and Fiscal Year 
2017 Statistics (Jan. 5, 2018), https://www.cbp.gov/newsroom/national-
media-release/cbp-releases-updated-border-search-electronic-device-
directive-and.
---------------------------------------------------------------------------
    In 2013, the Ninth Circuit ruled that the government must have 
reasonable suspicion to conduct a ``forensic'' search, where an agent 
connects another device to conduct a search.\6\ Following that 
decision, CBP updated its policy to require the reasonable suspicion 
Nation-wide.\7\ Despite this change, Immigration and Customs 
Enforcement (ICE) has failed to issue new guidance on mobile device 
searches at the border. This is troubling since it is often ICE agents 
who conduct searches of mobile devices. EPIC has sued ICE to gain 
access to information on warrantless searches at the border.\8\
---------------------------------------------------------------------------
    \6\ United States v. Cotterman, 673 F.3d 1206 (9th Cir. 2012) (en 
banc).
    \7\ Press Release, U.S. Customs and Border Protection, CBP Releases 
Updated Border Search of Electronic Device Directive and Fiscal Year 
2017 Statistics (Jan. 5, 2018), https://www.cbp.gov/newsroom/national-
media-release/cbp-releases-updated-border-search-electronic-device-
directive-and.
    \8\ EPIC, EPIC Sues ICE Over Technology Used to Conduct Warrantless 
Searches of Mobile Devices (Apr. 9, 2018), https://epic.org/2018/04/
epic-sues-ice-over-technology-.html.
---------------------------------------------------------------------------
    ICE should adhere to minimum Fourth Amendment standards of 
suspicion when conducting searches, particularly followed the Supreme 
Court's recent decisions in Carpenter v. U.S. and Riley v. 
California.\9\
---------------------------------------------------------------------------
    \9\ Carpenter v. United States, 138 S. Ct. 2206 (2018) (cell phone 
location records are protected under Fourth Amendment); Riley v. 
California, 134 S. Ct. 2473 (2014) (a warrantless search of a cell 
phone during an arrest violates the Fourth Amendment.)
---------------------------------------------------------------------------
                     use of social media profiling
    DHS has repeatedly expressed interest in monitoring social media 
profiles to collect information on immigrants.\10\ The department hired 
an outside contractor to ``monitor public social communications on the 
Internet,'' including the public comments sections of the New York 
Times, Los Angeles Times, Huffington Post, Drudge, Wired's techblogs, 
and ABC News.\11\ DHS further sought to establish ``extreme vetting'' 
programs that would use secret algorithms to determine visa 
eligibility.\12\ EPIC warned that ``the use of information technology 
to identify individuals that may pose a specific threat to the United 
States'' implicates a ``complex problem [that] necessarily involves 
subjective judgments.''\13\ Though that program was abandoned,\14\ ICE 
left the door open to develop and implement similar or more intrusive 
programs, and has continued to contract with surveillance firms to mine 
social media information.\15\ This is especially troubling given the 
agency's insistence that social media profiles should be exempted from 
Privacy Act protections.\16\
---------------------------------------------------------------------------
    \10\ Comments of the Electronic Privacy Information Center to the 
Department of Homeland Security, Privacy Act of 1974; System of 
Records, EPIC (Oct. 18, 2017), https://epic.org/apa/comments/EPIC-DHS-
SocialMedia-Info-Collection.pdf.
    \11\ DHS Social Media Monitoring Documents at 127, 135, 148, 193, 
https://epic.org/foia/epic-v-dhs-media-monitoring/EPICFOIA-DHS-Media-
Monitoring-12-2012.pdf; see also Charlie Savage, Federal Contractor 
Monitored Social Network Sites, N.Y. Times (Jan. 13, 2012), http://
www.nytimes.com/2012/01/14/us/federal-security-program-monitored-
public-opinion.html.
    \12\ EPIC, EPIC, Coalition Oppose Government's ``Extreme Vetting'' 
Proposal (Nov. 16, 2017), https://epic.org/2017/11/epic-coalition-
oppose-governme.html.
    \13\ Security and Liberty: Protecting Privacy, Preventing Terrorism 
Before the National Commission on Terrorist Attacks Upon the United 
States (Dec. 8, 2003) (statement of Marc Rotenberg, President, 
Electronic Privacy Information Center), https://epic.org/privacy/
terrorism/911commtest.pdf.
    \14\ EPIC, ICE Abandons ``Extreme Vetting'' Software to Screen Visa 
Applicants (May 18, 2018), https://epic.org/2018/05/ice-abandons-
extreme-vetting-s.html.
    \15\ See Chantal Da Silva, ICE Just Launched a $2.4M Contract with 
a Secretive Data Surveillance Company that Tracks You in Real Time, 
Newsweek (June 7, 2018), https://www.newsweek.com/ice-just-signed-
24mcontract-secretive-data-surveillance-company-can-track-you-962493.
    \16\ EPIC, CBP Plans to Exempt Social Media Data from Legal 
Protections (Sept. 22, 2017), https://epic.org/2017/09/cbp-plans-to-
exempt-social-med.html.
---------------------------------------------------------------------------
    This committee must ensure that surveillance programs do not 
encroach the civil liberties and Constitutional rights of Americans. 
Specifically, the committee should ask:
  <bullet> How does ICE intend to use social media data acquired?
  <bullet> Who will obtain the data and under what circumstances?
  <bullet> How will ICE prevent at-risk communities from being 
        scrutinized more harshly for exercising their First Amendment 
        rights?
  <bullet> Will ICE obtain additional personal data from social media 
        companies?
  <bullet> Does the agency plan to conduct Privacy Impact Assessments 
        prior to undertaking new data-collection efforts?
                          drones at the border
    Customs and Border Protection (CBP) is already deploying aerial 
drones with facial recognition technology at the border.\17\ In 2013, 
records obtained by EPIC under the Freedom of Information Act also 
showed that the CBP is operating drones in the United States capable of 
intercepting electronic communications.\18\ The records obtained by 
EPIC also indicate that the 10 Predator B drones operated by the agency 
have the capacity to recognize and identify a person on the ground.\19\ 
The documents were provided in response to a request from EPIC for 
information about the Bureau's use of drones across the country. The 
agency has made the Predator drones available to other Federal, State, 
and local agencies. The records obtained by EPIC raise questions about 
the agency's compliance with Federal privacy laws and the scope of 
domestic surveillance.
---------------------------------------------------------------------------
    \17\ Russel Brandom, The US Border Patrol is trying to build face-
reading drones, The Verge, Apr. 6, 2017, http://www.theverge.com/2017/
4/6/15208820/customs-border-patrol-drone-facial-recognition-silicon-
valley-dhs; Dept. of Homeland Security, Other Transaction Solicitation 
(OTS) HSHQDC-16-R-00114 Project: Small Unmanned Aircraft Systems (sUAS) 
Capabilities, Jul. 15, 2016, https://www.fbo.gov/spg/DHS/OCPO/DHS-OCPO/
HSHQDC-16-R-00114/listing.html.
    \18\ EPIC, EPIC FOIA--US Drones Intercept Electronic Communications 
and Identify Human Targets, Feb. 28, 2013, https://epic.org/2013/02/
epic-foia---us-drones-intercep.html (record received available at 
https://epic.org/privacy/drones/EPIC-2010-Performance-Specs-1.pdf.)
    \19\ Performance Spec for CBP UAV System, Bureau of Customs and 
Border Patrol, https://epic.org/privacy/drones/EPIC-2005-Performance-
Specs-2.pdf.
---------------------------------------------------------------------------
    Following the revelations about drone surveillance at the border, 
EPIC, joined by 30 organizations and more than 1,000 individuals, 
petitioned CBP to suspend the domestic drone surveillance program, 
pending the establishment of concrete privacy regulations.\20\ The 
petition stated that ``the use of drones for border surveillance 
presents substantial privacy and civil liberties concerns for millions 
of Americans across the country.'' Any authorization granted to CBP to 
conduct surveillance at the border must require compliance with Federal 
privacy laws and regulations for surveillance tools, including drones.
---------------------------------------------------------------------------
    \20\ EPIC, Domestic Drones Petition, https://epic.org/
drones_petition/.
---------------------------------------------------------------------------
    Much of this surveillance technology could, in theory, be deployed 
on manned vehicles. However, drones present a unique threat to privacy. 
Drones are designed to maintain a constant, persistent eye on the 
public to a degree that former methods of surveillance were unable to 
achieve. The technical and economic limitations to aerial surveillance 
change dramatically with the advancement of drone technology. Small, 
unmanned drones are already inexpensive; the surveillance capabilities 
of drones are rapidly advancing; and cheap storage is readily available 
to maintain repositories of surveillance data.\21\ Drones ``represent 
an efficient and cost-effective alternative to helicopters and 
airplanes,'' but their use implicates significant privacy 
interests.\22\ As the price of drones ``continues to drop and their 
capabilities increase, they will become a very powerful surveillance 
tool.''\23\ The use of drones in border security will place U.S. 
citizens living on the border under ceaseless surveillance by the 
government.
---------------------------------------------------------------------------
    \21\ See generally EPIC, Drones: Eyes in the Sky, Spotlight on 
Surveillance (2014), https://www.epic.org/privacy/surveillance/
spotlight/1014/drones.html.
    \22\ M. Ryan Calo, The Drone as Privacy Catalyst, 64 Stan. L. Rev. 
Online 29, 30 (Dec. 12, 2011); See also Jeffrey Rosen, Symposium 
Keynote Address, 65 Rutgers L. Rev. 965, 966 (2013) (``[A]s police 
departments increasingly begin to use drone technologies to track 
individual suspects 24/7, or to put areas of the country under 
permanent surveillance, this possibility of 24/7 tracking will become 
increasingly real.'').
    \23\ Bruce Schneier, Surveillance And the Internet of Things, 
Schneier on Security (May 21, 2013), https://www.schneier.com/blog/
archives/2013/05/the_eyes_and_ea.html.
---------------------------------------------------------------------------
    The Supreme Court has not yet considered the limits of drone 
surveillance under the Fourth Amendment, though the Court held 20 years 
ago that law enforcement may conduct manned aerial surveillance 
operations from as low as 400 feet without a warrant.\24\ No Federal 
statute currently provides adequate safeguards to protect privacy 
against increased drone use in the United States. However, some border 
States do limit warrantless aerial surveillance. In 2015, the Supreme 
Court of New Mexico held that the Fourth Amendment prohibits the 
warrantless aerial surveillance of, and interference with, a person's 
private property.\25\ Accordingly, there are substantial legal and 
Constitutional issues involved in the deployment of aerial drones by 
law enforcement agencies that need to be addressed.
---------------------------------------------------------------------------
    \24\ See Florida v. Riley, 488 U.S. 445 (1989) (holding that a 
police helicopter flying more than 400 feet above private property is 
not a search).
    \25\ State v. Davis, 360 P.3d 1161 (N.M. 2015); see Brief of Amicus 
Curiae EPIC, id., available at https://epic.org/amicus/drones/new-
mexico/davis/State-v-Davis-Opinion.pdf.
---------------------------------------------------------------------------
    A 2015 Presidential Memorandum on drones and privacy required that 
all Federal agencies to establish and publish drone privacy procedures 
by February 2016.\26\ Emphasizing the ``privacy, civil rights, and 
civil liberties concerns'' raised by the technology,\27\ President 
Obama ordered agencies to ensure that any use of drones by the Federal 
Government in U.S. airspace comply with ``the Constitution, Federal 
law, and other applicable regulations and policies.''\28\
---------------------------------------------------------------------------
    \26\ President Barack Obama, Presidential Memorandum: Promoting 
Economic Competitiveness While Safeguarding Privacy, Civil Rights, and 
Civil Liberties in Domestic Use of Unmanned Aircraft Systems (Feb. 15, 
2015), https://obamawhitehouse.archives.gov/the-press-office/2015/02/
15/Presidential-memorandum-promoting-economic-competitiveness-while-
safegua.
    \27\ Id. at  1(e).
    \28\ Id. at  1.
---------------------------------------------------------------------------
    However, the DHS has failed to produce reports required by the 2015 
Presidential Memorandum. EPIC has submitted a FOIA request for DHS's 
policies and reports required under the Presidential Memorandum, but 
the DHS has failed to respond.\29\
---------------------------------------------------------------------------
    \29\ EPIC, EPIC v. DHS (Drone Policies), https://epic.org/foia/
dhs_2/epic_v_- dhs_drone_policies.html.
---------------------------------------------------------------------------
    As surveillance technology becomes increasingly invasive, it is 
critical that the Homeland Security Committee ensure that individuals' 
rights are protected. We ask that this letter be entered in the hearing 
record. EPIC looks forward to working with the committee on these 
issues of vital importance to the American public.
            Sincerely,
                                            Marc Rotenberg,
                                                    EPIC President.
                                      Caitriona Fitzgerald,
                                              EPIC Policy Director.
                                             Jeramie Scott,
                                    EPIC National Security Counsel.
                                 ______
                                 
                        Statement of First Focus
                             March 6, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the House 
Committee on Homeland Security, we thank you for the opportunity to 
submit this statement for the record. First Focus is a bipartisan 
children's advocacy organization dedicated to making children and 
families a priority in Federal policy and budget decisions. As an 
organization that advocates for the health and well-being of all 
children in the United States, we are deeply concerned with the Trump 
administration's enforcement only approach to border security and the 
broader immigration enforcement attacks on immigrant children and 
families.
    Immigration policies that guide enforcement procedures including 
the arrest, detention, and removal of non-U.S. citizens have a 
significant impact on the lives of the children involved in these 
circumstances. Despite being directly affected, children are often an 
afterthought in policy efforts to curb legal and illegal immigration. 
Recent changes to immigration and asylum policies are already having a 
significant impact on the lives of children and families.
    The administration's 2018 ``zero-tolerance'' policy resulted in 
thousands of children being separated from their parents, and families 
continue to be subjected to separation in some areas of the border due 
to the increased criminalization of asylum seekers.\1\ Alarmingly, in 
October of last year, the Trump administration considered a renewed 
effort of forcing family separation by intimidating parents with the 
idea of keeping them detained indefinitely with their children in 
prison-like settings.\2\
---------------------------------------------------------------------------
    \1\ http://time.com/5534255/texas-civil-rights-project-report-2019/

    \2\ https://firstfocus.org/news/press-release/statement-new-family-
separation-efforts-will-lead-to-imprisonment-of-children.
---------------------------------------------------------------------------
    During the recent series of House oversight hearings, on the 
``zero-tolerance'' policy, it was evident that Federal agencies are 
content to pass the buck on the responsibility for reunifying children 
and families who were subjected to this cruel and unnecessary 
separation. Chief Provost of Customs and Border Protection (CBP) stated 
that in the eyes of her department the ``zero-tolerance'' policy was a 
``prosecution initiative'' and reunification was not in their 
wheelhouse. Federal agencies must be held accountable for their roles 
in implementing this outrageous policy. It was the collective effort of 
multiple Federal agencies, and each agency must be involved in efforts 
to repair the damages.
    Additionally, in January, the administration increased their 
efforts to deter families with children from seeking asylum in the 
United States via the ``Migrant Protection Protocols.'' This so-called 
``humanitarian approach''\3\ forces asylum seekers who have traveled 
thousands of miles to remain in Mexico for prolonged periods of time 
while their application for asylum is processed.
---------------------------------------------------------------------------
    \3\ https://www.dhs.gov/news/2019/01/24/migrant-protection-
protocols.
---------------------------------------------------------------------------
    This program further exposes already vulnerable populations to 
violence, trafficking, and dangerous situations which is in direct 
contradiction to the administration's stated purpose of the policy. 
According to a report by Kids in Need of Defense (KIND), ``Children are 
languishing in dangerous and unsanitary makeshift camps. There is no 
running water and in some cases, irregular access to food.''\4\ This 
program has caused a humanitarian crisis at our very border and once 
again, the Department of Homeland Security (DHS) has prioritized 
deterrence over the health and well-being of children and families.
---------------------------------------------------------------------------
    \4\ https://supportkind.org/resources/the-protection-gauntlet-how-
the-united-states-is-blocking-access-to-asylum-seekers-and-endangering-
the-lives-of-children-at-the-u-s-border/.
---------------------------------------------------------------------------
    Finally, we are alarmed at the increasing use of the term 
``loophole'' when discussing protections for vulnerable children. We 
are concerned with the administration's attempts to undermine 
protections including but not limited to, the Trafficking Victims 
Protection Reauthorization Act (TVPRA) and the Flores Settlement 
Agreement (FSA). Rather than weakening protections for children, 
Congress and the administration should be strengthening such 
guidelines. We have seen the need for strengthening these important 
protections in the deaths of 7-year-old Jakelin Caal \5\ and 8-year-old 
Felipe Alonzo \6\ while in the custody of CBP.
---------------------------------------------------------------------------
    \5\ https://www.npr.org/2018/12/13/676622047/7-year-old-migrant-
girl-dies-of-dehydration-and-shock-in-border-patrol-custody.
    \6\ https://www.npr.org/2018/12/25/680066848/8-year-old-migrant-
boy-dies-in-government-custody-in-new-mexico-hospital.
---------------------------------------------------------------------------
    As the conversations continues with regards to the way forward on 
border security, we ask that Congress uphold current protections for 
migrant children and build on that foundation by instituting a ``best 
interest of the child'' standard for all immigration policies. Children 
are often invisible during the process of asylum, and children and 
parents are often seen as separate units. We ask that you consider the 
role of children in the family and understand it is in the best 
interest of the child to be free from fear, free from detention, and 
together with his/her loved ones.
    We thank you again for the opportunity to submit this written 
testimony. We look forward to working with you to implement policies 
that will help shape this conversation and ensure that all children 
thrive in the United States. Should you have any further questions 
please contact Kristen Torres, Policy Director for Child Welfare and 
Immigration[.]
                            recommendations
    The United States must implement a ``Best Interest of the Child'' 
standard for all border security measures and immigration enforcement 
efforts.\7\ This standard must ensure that a child's safety is a 
priority in all decisions, the child has a voice in his/her 
proceedings, the child remains together with family members in the 
least restrictive setting, and all decisions must promote the health 
and well-being of the child.
---------------------------------------------------------------------------
    \7\ https://campaignforchildren.org/wp-content/uploads/sites/2/
2018/12/Proactive-Kids-Agenda-FFCC-1.22.19.pdf.
---------------------------------------------------------------------------
1. Guarantee Children Facing Immigration Court Proceedings Have Legal 
        Representation
    Children must have a voice in the decisions that will affect the 
rest of their lives. In order to pursue this standard, we must ensure 
that all children in immigration proceedings, both accompanied and 
unaccompanied, have legal representation. Additionally, the needs of 
both the children and parents must be considered during proceedings. 
Children must be appointed an advocate who acts on the wishes and in 
the best interest of the child when determining the care and custody of 
immigrant children.
2. Ensure Children are Free from Detention and Placed in the Least 
        Restrictive Setting as Quickly as Possible
    The U.S. Government must seek out alternatives to detention (ATDs) 
for children and families. The detention of a child even if he/she is 
with family, is traumatic and has significant effects on a child's 
mental health and physical development. Decades of litigation over the 
horrific conditions in which migrant children were being held in 
detention resulted in the 1997 Flores Settlement Agreement (FSA). This 
agreement set National standards for the detention, release, and 
treatment of children in the custody of DHS and declares that children 
should be in the least restrictive setting. This agreement must not be 
undermined or modified to meet the needs of an enforcement-only 
approach to immigration reform. If the FSA is modified to allow for 
indefinite family detention, children will suffer negative life-long 
consequences and impediments to their childhood development.
3. Prioritize Keeping Families Together in Immigration Policy Decisions 
        When It Is in the Best Interest of the Child
    Family unity must be a priority in both the claims of the parent 
and the child involved in removal proceedings. Congress must prohibit 
the removal of children from their parents by DHS or the Department of 
Justice (DOJ) within 100 miles of the U.S. border unless it is in the 
child's best interest. Congress must also ensure that the best interest 
of the child is considered when determining repatriation or referral 
for prosecution of parents and legal guardians of children. Parents 
must be allowed to make arrangements for their child's care and for 
children to visit their parents while they are detained. U.S. 
Immigration and Customs Enforcement (ICE) must consider the best 
interests of the children in all detention, release, and transfer 
decisions affecting their parents. Family unity should be a priority 
both at the border and during interior enforcement activities such as 
workplace raids. Other steps to promote family unity include 
reinstating judicial discretion in cases involving the caregivers of 
minor children and allowing parents in removal proceedings to argue the 
hardship on behalf of their children.
4. Ensure All Decisions Account for Child Well-Being and Healthy 
        Development
    Finally, border security and immigration enforcement decisions 
involving children must incorporate child welfare professionals and 
consultation with experts on the healthy development needs of children. 
Qualified child welfare professionals and language interpreters must be 
available at ports of entry as well as Border Patrol stations. 
Additionally, more must be done to ensure children are guaranteed a 
safe and sanitary living environment, access to legal services, and 
access to food and climate appropriate clothing. Immigration 
enforcement decisions should never impede a child's healthy development 
or a child's right to education.
                                 ______
                                 
                           Statement of HIAS
                             March 6, 2019
    HIAS--the American Jewish community's global refugee organization, 
has been assisting refugees and immigrants for nearly 140 years. HIAS 
was founded to assist Jewish refugees arriving at Ellis Island. In 
1904, we expanded our work and began providing legal assistance to 
immigrants facing deportation. Today, we provide comprehensive legal 
services to those of all backgrounds seeking safety in the United 
States.
    Guided by our Jewish value of welcoming the stranger, and by the 
Jewish tradition of B'tzelem Elohim, the idea that all people deserve 
to have their human rights and dignity respected, HIAS remains on the 
front lines of refugee protection. At the U.S.-Mexico border, through 
our Border Fellows program, we have placed pro bono attorneys with 
legal service organizations in San Diego, California and El Paso, 
Texas. Our fellows provide legal representation to asylum seekers, 
including those in detention. For example, in San Diego, HIAS' Border 
Fellow is working on the case of a child who was born HIV positive. His 
mother passed away when he was very young, and his father left the 
family. The child, now 15 years old, is in a detention center while our 
Border Fellow works to have him reunited with his brother.
    In January 2019, the Department of Homeland Security (DHS) 
implemented Migrant Protection Protocols (MPP), also known as the 
``Remain in Mexico'' program, at the San Ysidro port of entry. MPP 
requires that asylum seekers wait in Mexico while their case moves 
through U.S. immigration courts.\1\ As justification for this protocol, 
DHS asserted that this system will help secure our borders by ensuring 
that asylum seekers do not disappear into the country or use fraudulent 
claims to gain access to the United States.\2\ In actuality, this 
unprecedented program makes it nearly impossible for asylum seekers to 
access the protections they are entitled to under both U.S. and 
international law.
---------------------------------------------------------------------------
    \1\ U.S. Department of Homeland Security, Policy Guidance for 
Implementation of the Migrant Protection Protocols, https://
www.dhs.gov/sites/default/files/publications/19_0129_OPA_- migrant-
protection-protocols-policy-guidance.pdf.
    \2\ U.S. Department of Homeland Security, Secretary Kirstjen M. 
Nielsen Announces Historic Action to Confront Illegal Immigration, 
https://www.dhs.gov/news/2018/12/20/secretary-nielsen-announces-
historic-action-confront-illegal-immigration.
---------------------------------------------------------------------------
    Under American immigration law, people who arrive at the U.S. 
border have the right to seek asylum, and are permitted to remain in 
the United States while their claim is processed.\3\ The Remain in 
Mexico program raises serious concerns about access to legal 
representation, due process rights of asylum seekers, and the ability 
of attorneys to represent their clients effectively and fairly.
---------------------------------------------------------------------------
    \3\ Immigration and Nationality Act (8 USC 1158), http://
uscode.house.gov/view.xhtml?req=granuleid%3AUSC-prelim-title8-
section1158&num=0&edition=prelim.
---------------------------------------------------------------------------
    HIAS' Border Fellows report that the Remain in Mexico program is 
making it extremely challenging for them to find and contact their 
clients, and nearly impossible to find confidential and secure places 
to meet and speak with them. The Remain in Mexico program also has 
created challenges for attorneys who have to make the trip to Mexico--a 
process that can take hours--and raises questions about the ability of 
legal counsel to represent clients and practice law while not in the 
United States.
    HIAS also has concerns about the impact this program will have on 
the arrivals at other ports of entry. For example, in El Paso, TX, 
reported to be one of the next ports of entry where Remain in Mexico 
will soon also be implemented, the asylum approval rate is already at 
around 3 percent, and access to counsel can mean the difference between 
life and death.\4\
---------------------------------------------------------------------------
    \4\ TRAC Immigration, El Paso Immigration Court Processing, https:/
/trac.syr.edu/phptools/immigration/court_backlog/
court_proctime_outcome.php.
---------------------------------------------------------------------------
    In 2018, prior to implementation of the Remain in Mexico program, 
HIAS staff met with humanitarian aid workers in Mexico's northern 
border region. It was clear that they were under-resourced and 
overwhelmed, and that many asylum seekers were going without access to 
safe housing or the support or resources they needed. These problems 
have only grown since Remain in Mexico was put in place.
    At HIAS, we know that a border wall or Remain in Mexico will not 
deter families seeking safety from coming to the United States. 
Instead, it will impede life-saving access to safety, most immediately 
for those asylum seekers waiting in Mexico, but also for those who are 
forced to choose longer and more dangerous routes to reach El Paso and 
other ports of entry.
    We ask that Members of the Homeland Security committee demand that 
the administration put an immediate end to programs and policies that 
violate U.S. and international law and put people who are pursuing 
their legal right to seek asylum at risk.
                                 ______
                                 
              Statement of Kids in Need of Defense (KIND)
                             March 6, 2019
    Kids in Need of Defense (KIND) was founded by the Microsoft 
Corporation and the United Nations Refugee Agency (UNHCR) Special Envoy 
Angelina Jolie, and is the leading National organization that works to 
ensure that no refugee or immigrant child faces immigration court 
alone. We do this in partnership with 585 law firms, corporate legal 
departments, law schools, and bar associations, which provide pro bono 
representation to unaccompanied children referred to KIND for 
assistance in their deportation proceedings. KIND has served more than 
18,000 children since 2009, and leveraged approximately $250 million in 
pro bono support. KIND also helps children who are returning to their 
countries of origin through deportation or voluntary departure to do so 
safely and to reintegrate into their home communities. Through our 
reintegration pilot project in Guatemala and Honduras, we place 
children with local nongovernmental organization partners, which 
provide vital social services, including family reunification, school 
enrollment, skills training, and counseling. KIND also engages in 
broader work in the region to address root causes of child migration, 
such as sexual- and gender-based violence. Additionally, KIND advocates 
to change law, policy, and practices to improve the protection of 
unaccompanied children in the United States, and is working to build a 
stronger regional protection framework throughout Central America and 
Mexico.
                                summary
    Since its first days, the Trump administration has established 
border security as a key policy priority. As part of such efforts, the 
administration has pursued a host of policies aimed at deterring 
migration and restricting access to asylum and humanitarian protection 
by unaccompanied children and families in particular. These policies 
not only fail to make the United States safer but also place children 
fleeing grave violence in their countries of origin at even greater 
risk of danger, harm, or death. In addition to being inconsistent with 
the best interests of children, these policies defy our country's 
obligations under U.S. and international law.
    This statement will chronicle the challenges that children 
encounter at each stage of the U.S. asylum process. First, it will 
discuss what happens when children reach the U.S.-Mexico border. 
Specifically, it will address how President Trump's ``Remain in 
Mexico'' policy and other practices are preventing unaccompanied 
children and families from accessing protection in the United States. 
Second, it will discuss the administration's ``Zero Tolerance'' policy 
and the on-going separation of families in the absence of clear 
standards and means of tracking family relationships and the reasons 
for such separations. Third, it will highlight the need for better 
conditions and standards of care in U.S. Customs and Border Protection 
(CBP) facilities. Finally, it will address the Trump administration's 
efforts to deter sponsors from coming forward to care for unaccompanied 
children, which have resulted in the prolonged detention and 
traumatization of thousands of children.
    KIND rejects border security policies intended to deter children 
from seeking protection in the United States. We urge the committee to 
ensure that the Department of Homeland Security (DHS) complies with U.S 
asylum laws and international commitments and allows unaccompanied 
children to present themselves at all ports of entry along the U.S. 
border. Further, we condemn separation policies that harm children's 
health and well-being, and their legal cases.
    KIND recommends the following: (i) The Trump administration should 
end the ``Remain in Mexico'' policy; (ii) family separations should 
occur only when it is in the best interest of children; (iii) the 
Government should record the reason for separations, track separated 
families to allow for swift reunification, and allow parents to 
challenge separation decisions; (iv) immigration officers should 
efficiently transfer children's information between CBP, the Office of 
Refugee Resettlement (ORR), and attorneys; (v) the Government should 
improve the conditions of detention facilities in which children are 
held; (vi) DHS should release unaccompanied children to appropriate 
sponsors as soon as possible; and (vii) DHS should never use sponsors' 
information for enforcement purposes without considering the best 
interest of children.
    We urge the committee to consider our recommendations and to hold 
the Trump administration accountable to do what Congress has mandated: 
Allow asylum seekers to apply for protection in the United States. 
Border security policies should protect the integrity of our 
immigration system and our Nation's commitment to extending protection 
to those in need of safety--particularly children.
          the ``remain in mexico'' policy should be eliminated
    In December 2018, DHS Secretary Kirstjen Nielsen announced the 
Migrant Protection Protocols (MPP)\1\--or the ``Remain in Mexico'' 
policy--under which certain asylum seekers are forced to stay in Mexico 
pending their immigration proceedings in the United States.\2\ 
Relatedly, in November 2018, DHS and the U.S. Department of Justice 
issued an interim final rule that, coupled with a Presidential 
Proclamation issued shortly after, would bar migrants from seeking 
asylum if they cross the border between official ports of entry.\3\ 
Both policies disregard Congress' express intent to allow asylum 
seekers to apply for protection, regardless of where they enter the 
country.\4\ They further violate international norms and treaties by 
which the United States is bound, including the 1951 Refugee 
Convention, which prohibits nations from expelling or returning 
refugees to a country where their lives would be threatened.\5\
---------------------------------------------------------------------------
    \1\ See Secretary Kirstjen M. Nielsen Announces Historic Action to 
Confront Illegal Immigration, Dep't of Homeland Security (Dec. 20, 
2018), https://www.dhs.gov/news/2018/12/20/secretary-nielsen-announces-
historic-action-confront-illegal-immigration; see also Memorandum on 
MPP Guiding Principles (Jan. 28, 2019) (hereinafter MPP Memorandum), 
https://www.cbp.gov/sites/default/files/assets/documents/2019-Jan/
MPP%20Guiding%20Principles%201-28-19.pdf.
    \2\ MPP Memorandum, supra note 1 at 1-2.
    \3\ 83 Fed. Reg. 55934 (Nov. 9, 2018). The United States District 
Court of the Northern District of California issued an injunction 
against the measure. East Bay Sanctuary Covenant v. Trump, No. 3:18-cv-
06810-JST (N.D. Cal. Nov. 19, 2018) (Order Granting Temporary 
Restraining Order).
    \4\ See INA  208, 8 U.S.C.  1158(a)(1) (2008).
    \5\ Nations are prohibited from expelling or returning a refugee to 
a country where ``his or her life or freedom would be threatened on 
account of his or her race, religion, nationality, membership of a 
particular social group or political opinion.'' UNHCR, Advisory Opinion 
on the Extraterritorial Application of Non-Refoulement Obligations 
under the 1951 Convention relating to the Status of Refugees and its 
1967 Protocol (Jan. 26, 2007), https://www.unhcr.org/4d9486929.pdf. The 
United States is bound to the 1951 Convention as a signatory to the 
1967 Protocol Relating to the Status of Refugees, Jan. 31, 1967, 19 
U.S.T. 6223.
---------------------------------------------------------------------------
    While the administration has asserted that the ``Remain in Mexico'' 
policy would not apply to unaccompanied children,\6\ U.S. and Mexican 
officials are nonetheless preventing unaccompanied children from 
entering the United States to seek asylum. During a research mission to 
Mexico, KIND learned that CBP agents have turned back unaccompanied 
children to Mexico after telling them that they can no longer seek 
asylum in the United States.\7\ Mexican officials are similarly 
blocking unaccompanied children from presenting themselves at U.S. 
ports of entry, and frequently transfer unaccompanied children seeking 
asylum in the United States to the custody of Mexico's child welfare 
agency (DIF).\8\ Once in DIF custody, these children are informed that 
they may seek asylum in Mexico or be deported to their countries of 
origin.\9\ They are not informed of their right to seek protection in 
the United States.\10\ Fearful of deportation by Mexican officials, 
some unaccompanied children have chosen to hide from Mexican officials 
or to cross the border between ports of entry--circumstances that 
increase the dangers facing vulnerable youth.\11\
---------------------------------------------------------------------------
    \6\ MPP Memorandum, supra note 1 at 1.
    \7\ See KIND, The Protection Gauntlet: How the United States is 
Blocking Access to Asylum Seekers and Endangering the Lives of Children 
at the U.S. Border (Dec. 21, 2018) (hereinafter The Protection 
Gauntlet), https://supportkind.org/resources/the-protection-gauntlet-
how-the-united-States-is-blocking-access-to-asylum-seekers-and-
endangering-the-lives-of-children-at-the-u-s-border/.
    \8\ Id. at 2-3.
    \9\ Id.
    \10\ Id. at 3.
    \11\ Id.
---------------------------------------------------------------------------
    Unaccompanied children face grave danger in Mexican border towns, 
where they may be preyed upon by smugglers and human traffickers.\12\ 
Last December, 2 unaccompanied youth were tricked, abducted, tortured, 
and killed in Tijuana.\13\ A third child escaped with wounds on his 
neck. He reported that he and his friends were kidnapped, tied to 
chairs, undressed, and tortured with scissors in an attempt to extort 
their relatives for money. Despite horrendous incidences like this, 
Mexican officials continue to block unaccompanied children from 
accessing U.S. ports of entry.\14\
---------------------------------------------------------------------------
    \12\ Jack Herrera, Five Takeaways from the Lawsuit Over Trump's 
Plan to Keep Asylum Seekers in Mexico, Pacific Standard (Feb. 14, 
2019), https://psmag.com/news/five-takeaways-from-the-lawsuit-over-
trumps-plan-to-keep-asylum-seekers-in-mexico.
    \13\ Ed Vulliamy, Tricked, abducted and killed: the last day of two 
child migrants in Mexico, The Guardian (Feb. 16, 2019), https://
www.theguardian.com/world/2019/feb/16/tijuana-migrant-child-murders-
mexico-us-asylum.
    \14\ Herrera, supra note 12.
---------------------------------------------------------------------------
    Recently, the United States has returned several asylum-seeking 
families to Mexico under the Remain in Mexico policy\15\--exposing 
additional children to harm, danger, or death in Mexico.
---------------------------------------------------------------------------
    \15\ See Rafael Carranza, Tijuana struggles to accommodate migrant 
families as U.S. begins sending them back, Arizona Republic (Feb. 20, 
2019); Rafael Bernal, DHS to Make Migrants Wait in Mexico While Asylum 
Claims Processed, The Hill (Dec. 20, 2018), https://thehill.com/latino/
422267-dhs-to-make-migrants-wait-in-mexico-while-asylum-claims-
processed.
---------------------------------------------------------------------------
    Recommendation.--KIND urges the administration's swift withdrawal 
of the ``Remain in Mexico'' policy and its renewed commitment to 
ensuring that all unaccompanied children are provided unfettered access 
to U.S. ports of entry to request protection. KIND recommends Congress' 
continued oversight to ensure the administration's compliance with 
asylum protections and procedures provided for by U.S. law and 
international treaty obligations, as well as laws providing for the 
appropriate care and treatment of unaccompanied children.
 family separations should only occur when a child's safety or welfare 
                               is at risk
    Announced in April 2018 and implemented in June 2018, the Trump 
administration's ``Zero Tolerance'' policy resulted in the forced 
separation and traumatization of thousands of children.\16\
---------------------------------------------------------------------------
    \16\ This policy directed CBP agents to refer every individual 
apprehended near the border who did not present at an official port of 
entry to the Department of Justice (DOJ) for criminal prosecution, even 
when individuals exercised their lawful right to seek asylum. Adults 
were taken to Federal detention facilities while children were 
transferred into the care of ORR, which operates within the Department 
of Health and Human Services (HHS). Once separated from their parents, 
DHS classified the kids as ``unaccompanied.'' Press Release, KIND & 
Women's Refugee Comm'n, Family Separation at the Border (May 30, 2018), 
https://supportkind.org/media/family-separation-at-the-border/.
---------------------------------------------------------------------------
    In response to this crisis, KIND formed a dedicated Family 
Separation Response Team to provide direct legal representation to 
affected families. KIND witnessed first-hand the harmful effects that 
family separations have on children. Family separations harm children's 
well-being and legal cases. Medical experts agree that the forced 
separation of migrant children who have fled violence has devastating 
consequences for their development, even if the separation is 
brief.\17\ Children's immigration cases are also affected because 
children are not likely to have information or documentation of their 
asylum claims. KIND has worked with children like Luisa, a 7-year-old 
who was separated from her father after they entered the United States 
last summer.\18\ When KIND spoke to her, it was impossible to conduct 
even an initial legal assessment because Luisa could not stop crying. 
She was so distraught by the separation that she sobbed throughout the 
meeting.\19\ Even if she had been able to communicate with her KIND 
attorney, she could not have made a case for asylum on her own because 
she did not know why her family fled.\20\
---------------------------------------------------------------------------
    \17\ See KIND, Women's Refugee Comm'n & Lutheran Immigration Serv., 
Betraying Family Values: How Immigration Policy at the United States 
Border is Separating Families 12 (2017) (hereinafter Betraying Family 
Values), https://www.womensrefugeecommission.org/rights/gbv/resources/
1450-betraying-family-values.
    \18\ KIND, How You Can Help Separated Families and Ensure 
Protection for Children (June 28, 2018), https://supportkind.org/
resources/how-you-can-help-end-family-separation-and-ensure-protection-
for-children/.
    \19\ Id.
    \20\ Id.
---------------------------------------------------------------------------
    Unsurprisingly, the Trump administration's ``Zero Tolerance'' 
policy sparked a global outcry. The United Nations Human Rights Office 
called for the United States to ``immediately halt'' the policy.\21\ In 
Ms. L v. Sessions, a class action case challenging family separations 
that had occurred prior to the start of the Zero Tolerance policy, the 
presiding judge ordered the Government to stop the policy and to 
reunify separated children with their parents.\22\ At the time, the 
Department of Health and Human Services (HHS) reported that 2,737 
children needed to be reunified.
---------------------------------------------------------------------------
    \21\ U.N. Human Rights Office to U.S.: Halt Trump Policy Separating 
Kids From Parents at Border, USA Today (June 5, 2018), https://
www.usatoday.com/story/news/world/2018/06/05/united-nations-tells-u-s-
stop-separating-children-parents/673090002/.
    \22\ Ms. L v. ICE, No. 18-0428 (S.D. Cal. June 26, 2018) (Order 
Granting Plaintiff's Motion for Classwide Preliminary Injunction), 
https://www.aclu.org/legal-document/ms-l-v-ice-order-granting-
plaintiffs-motion-classwide-preliminary-injunction.
---------------------------------------------------------------------------
    The Government is still separating families. The HHS Inspector 
General confirmed that at least 118 children were separated between 
July 1 and November 7, 2018 \23\ after the court order was issued. The 
total number and current status of children separated from their 
families are unknown.\24\
---------------------------------------------------------------------------
    \23\ U.S. Dep't of Health & Hum. Serv., Office of Inspector 
General, OEI-BL18-00511, Separated Children Placed in Office of Refugee 
Resettlement Care (2019), 1 (hereinafter Inspector General Report), 
https://oig.hhs.gov/oei/reports/oei-BL-18-00511.asp; Miriam Jordan, 
Family Separation May Have Hit Thousands More Migrant Children Than 
Reported, N.Y. Times (Jan. 17, 2019), https://www.nytimes.com/2019/01/
17/us/family-separation-trump-administration-migrants.html.
    \24\ Inspector General Report, supra note 23, at 13.
---------------------------------------------------------------------------
    Importantly, there are no established standards for family 
separation determinations. Under prior administrations, DHS separated 
children from parents who posed a danger to them. However, the sweeping 
``Zero Tolerance'' policy raised the urgent need for clear standards 
restricting the use of family separation for deterrence and permitting 
it only when it is in the best interests of a child. Currently, CBP 
officials, who lack specialized training in child development or 
welfare, are making these determinations;\25\ family separation 
determinations do not involve the participation of or oversight by a 
child welfare expert.\26\ Additionally, CBP officials are not required 
to provide any justification or written documentation to parents or 
guardians outlining the reasons for the separation. Because they have 
no vehicle to challenge assertions made against them, parents and 
guardians risk losing custody of their children without any judicial 
oversight.\27\
---------------------------------------------------------------------------
    \25\ Katie Tandy, Family Separations Continue in Homeland Security 
``Gray Area'' Despite Ban, The California Report (Feb. 9, 2019), 
https://www.kqed.org/news/11724799/family-separations-flourish-in-
homeland-security-grey-area-despite-ban.
    \26\ Betraying Family Values, supra note 17, at 7.
    \27\ Id.
---------------------------------------------------------------------------
    Recommendation.--First, KIND recommends that DHS enlist child 
welfare professionals to screen children. This way, separations are 
only conducted when professionals with expertise in child development 
and welfare have determined it is in the best interest of the child. At 
the very least, agents should receive training on how to apply the 
``best interests of the child'' framework when they believe a child's 
separation from his or her family is warranted.\28\ Second, family 
separation determinations and their rationale should always be recorded 
and shared with both parents and their legal counsel. Finally, DHS 
should implement an appeals process for challenging family separation 
determinations.
---------------------------------------------------------------------------
    \28\ Id.
---------------------------------------------------------------------------
 if separations occur, dhs should have adequate tracking mechanisms to 
                     record children's information
    DHS has no consistent or comprehensive means to properly document 
family separations. There is no database or hotline that can help 
identify a separated family member's location or assist with 
reunification.\29\ Separated families are left with little, if any, 
knowledge of their family members' locations. Even worse, many parents 
are deported without the knowledge of the child or the attorney.
---------------------------------------------------------------------------
    \29\ Id. at 4.
---------------------------------------------------------------------------
    Tracking mechanisms are failing. KIND continues to encounter cases 
in which neither ORR nor attorneys are notified when DHS separates a 
child from his or her family. In one case, a father was separated from 
his teenage daughter, and no information was given to justify the 
separation.
    KIND only found out this child had been separated through 
interviews with the child. The separation was not recorded anywhere in 
the child's files.\30\
---------------------------------------------------------------------------
    \30\ Trump Administration's Inhumane Family Separation Policy 
Before the H. Comm. on Energy & Com., 116th Cong. (Feb. 7, 2019) 
(Statement of Jennifer Podkul, Esq. KIND Senior Dir. for Policy and 
Advocacy), https://docs.house.gov/meetings/IF/IF02/20190207/108846/
HHRG-116-IF02-WState-PodkulJ-20190207-U1.pdf.
---------------------------------------------------------------------------
    Recommendation.--All family relationships and the reasons for 
separations should be recorded in writing. This information should be 
accessible to parents, guardians, ORR, and attorneys. Furthermore, DHS 
should implement mechanisms that allow continued communication between 
parents and children, particularly when the parent is soon to be 
deported.
 detention facilities holding children must implement better standards 
                                of care
    This past year, two migrant children died in CBP custody. Jakelin 
Caal Maquin and Felipe Gomez Alonzo were only 7 and 8 years old, 
respectively, when they died. Both were actively seeking asylum after 
they crossed the U.S.-Mexico border.\31\ Under the Trafficking Victims 
Protection Reauthorization Act (TVPRA), CBP must generally transfer 
migrant children to ORR within 72 hours of determining that the child 
is unaccompanied.\32\ However, children may be held in CBP custody for 
over 2 weeks.\33\ According to CBP's own recordkeeping, 16 percent of 
migrants were held for over 72 hours, including children.\34\ The 
American Academy of Pediatrics (AAP) has explained that detention 
impedes child development and causes severe psychological trauma.\35\ 
Dr. Julie Linton, who co-chairs the AAP's Special Interest Group on 
Immigrant Health, has stated, ``No amount of time in detention is safe 
for a child.''\36\
---------------------------------------------------------------------------
    \31\ Mariana Atencio, et al. Border Facilities Still Need Fixing 
After Second Migrant Child's Death, Say Democrats, NBC News (Jan. 7, 
2019), https://www.nbcnews.com/news/latino/border-facilities-still-
need-fixing-after-second-migrant-child-s-n955876.
    \32\ See generally William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2008, H.R. 7311, 110th Cong. (2008).
    \33\ Women's Refugee Comm'n, Forced From Home: The Lost Boys and 
Girls of Central America, (Nov. 9, 2015), https://
www.womensrefugeecommission.org/images/zdocs/forced_from- 
_home_ex_sum.pdf.
    \34\ Human Rights Watch, News Release, In the Freezer, Abusive 
Conditions for Women and Children in US Immigration Holding Cells (Feb. 
28, 2018), https://www.hrw.org/report/2018/02/28/freezer/abusive-
conditions-women-and-children-us-immigration-holding-cells.
    \35\ Julie M. Linton et al., Am. Acad. of Pediatrics, Detention of 
Immigrant Children 6 (2017), https://pediatrics.aappublications.org/
content/pediatrics/early/2017/03/09/peds.2017-0483.- full.pdf.
    \36\ Tara Law, Children in Border Patrol Custody Are Still at Risk 
Despite New Guidelines, Pediatricians Say, TIME (Dec. 17, 2018), http:/
/time.com/5489204/migrant-children-guidelines-health/.
---------------------------------------------------------------------------
    CBP facilities do not meet minimum standards of care for children. 
Neither CBP agents nor CBP medical care providers are trained to care 
for children.\37\ Under the Flores Settlement Agreement, the Government 
must provide children in custody with basic necessities like food, 
water, bathrooms, and emergency health services.\38\ However, CBP 
facilities that hold children are greatly lacking. Reports about these 
facilities reveal they lack even basic provisions. Children sit around 
for days in facilities called ``ice-boxes'' (``hieleras''), which are 
freezing rooms that have no beds, no private bathroom, and lack any 
form of entertainment or distraction for the children.\39\ Migrants 
sleep either on bare cement floors or on toilets. These rooms are not 
appropriate to house children for long periods of time.\40\
---------------------------------------------------------------------------
    \37\ Id.
    \38\ ``The 1997 Flores Settlement Agreement was the result of over 
a decade of litigation responding to the U.S. Government's detention 
policy of children. The Agreement set National standards regarding the 
detention, release, and treatment of all children in immigration 
detention and underscores the principle of family unity. It requires 
that: Juveniles be released from custody without unnecessary delay, and 
in order of preference to the following: A parent, legal guardian, 
adult relative, individual specifically designated by the parent, a 
child welfare licensed program, or, alternatively when family 
reunification is not possible, an adult seeking custody deemed 
appropriate by the responsible Government agency. Where they cannot be 
released because of significant public safety or flight risk concerns, 
juveniles must be held in the least restrictive setting appropriate to 
age and special needs, generally, in a non-secure facility licensed by 
a child welfare entity and separated from unrelated adults and 
delinquent offenders.'' KIND, Flores Settlement: Myth v. Fact (June 15, 
2018), https://supportkind.org/resources/flores-settlement-myth-v-
fact/.
    \39\ Laura Gomez, Deaths of migrant kids underscore risks of 
hieleras, AZ Mirror (Dec. 18, 2018), https://www.azmirror.com/2018/12/
28/deaths-of-migrant-kids-underscore-risks-of-hieleras/.
    \40\ Id.; see also Human Rights Watch, In the Freezer: Abusive 
Conditions for Women and Children in US Immigration Holding Cells (Feb. 
28, 2018), https://www.hrw.org/report/2018/02/28/freezer/abusive-
conditions-women-and-children-us-immigration-holding-cells.
---------------------------------------------------------------------------
    Recommendation.--The living conditions in DHS facilities are 
especially dangerous for unaccompanied children. These conditions must 
be improved for the welfare and safety of detained children. It is 
vital that Congress uphold the detention limits and other protections 
embodied in the Flores Settlement Agreement and the TVPRA. 
Additionally, Congress should direct the development of enforceable 
standards related to the transport and detention of children to ensure 
a minimum standard of care is provided.
   dhs should not use sponsors' information for enforcement purposes
    In April 2018, DHS and HHS entered into a Memorandum of Agreement 
(MOA) pledging to share information openly between their organizations. 
DHS later issued a notice of a modified system of records to carry out 
this agreement.\41\ Under the MOA, HHS has shared sponsors' information 
with DHS, including for immigration enforcement. As a result, potential 
sponsors have had to choose between taking in a child in need or 
risking deportation.
---------------------------------------------------------------------------
    \41\ 83 Fed. Reg. 20846 (May 8, 2018).
---------------------------------------------------------------------------
    The MOA has caused children to remain in Federal custody for longer 
periods of time. The use of sponsors' information for enforcement 
purposes frustrates ORR's ability to place children in the ``least 
restrictive setting'' in their best interest as required by the TVPRA 
and the Flores Settlement Agreement. Children have spent an average of 
over 70 days in custody, more than double the time under the Obama 
administration. This is a result of sponsors' fear to come forward.\42\ 
Under the MOA, Immigration and Customs Enforcement (ICE) has arrested 
170 potential sponsors of unaccompanied children.\43\ Nearly 64 percent 
of the sponsors, 109 in total, had no criminal record.
---------------------------------------------------------------------------
    \42\ Jonathan Blitzer, To Free Detained Children, Immigrant 
Families Are Forced to Risk Everything, The New Yorker (Oct. 16, 2018), 
https://www.newyorker.com/news/dispatch/to-free-detained-children-
immigrant-Families-are-forced-to-risk-everything. (``Officially, the 
H.H.S. claims that the average time is 59 days, but according to one of 
the Department's own officials, who agreed to speak with me on the 
condition of anonymity, detained children now spend an average of 74 
days in Federal custody.'').
    \43\ Geneva Sands, ICE arrested 170 potential sponsors of 
unaccompanied migrant children, CNN (Dec. 10, 2018), https://
www.cnn.com/2018/12/10/politics/ice-potential-sponsors-arrests/
index.html.
---------------------------------------------------------------------------
    This policy deters individuals from sponsoring children. KIND has 
heard of cases where even those who are lawfully present may choose not 
to sponsor children to either avoid interacting with ICE or for fear of 
exposing others living with them.\44\ For example, after Nicolas, a 
U.S. lawful permanent resident, received a call from his nephew 
requesting sponsorship, ICE aggressively questioned him and accused him 
of smuggling.\45\ This was a baseless accusation, but Nicolas was so 
fearful of the interaction with ICE that he ultimately decided not to 
sponsor his nephew.\46\ Similarly, KIND represented a child who had 
been separated from his father under the administration's ``Zero 
Tolerance'' policy. The father had been removed from the country and, 
due to the MOA, reunification with the child's uncle was delayed. The 
combined trauma of having been forcibly separated from his father and 
having been detained for a prolonged period resulted in the child's 
asking to be repatriated to his country of origin, even though he had a 
credible fear of harm.
---------------------------------------------------------------------------
    \44\ See KIND, Targeting Families (Dec. 2017) (hereinafter 
``Targeting Families''), https://supportkind.org/resources/targeting-
families/.
    \45\ Real name was changed to protect the identity of the person.
    \46\ Targeting Families, supra note 44, at 12-13.
---------------------------------------------------------------------------
    Recent language in the 2019 appropriations bill limits DHS's use of 
information obtained from HHS for immigration-related enforcement 
against sponsors.\47\ This language is an important first step in 
curtailing the negative impacts of the MOA. However, it is not a 
complete prohibition on information sharing. For example, information 
may be used for enforcement purposes if someone is charged with a 
crime--even if there has been no conviction. Moreover, because this 
provision was part of an annual appropriations bill, it will only last 
through September 2019.
---------------------------------------------------------------------------
    \47\ Conf. R., Continuing Appropriations for the Department of 
Homeland Security for Fiscal Year 2019, and For Other Purposes, Sec. 
224, at 24-25 (2019), https://docs.house.gov/billsthisweek/20190211/
CRPT-116hrpt9.pdf (``None of the funds provided by this Act or any 
other Act, or provided from any accounts in the Treasury of the United 
States derived by the collection of fees available to the components 
funded by this Act, may be used by the Secretary of Homeland Security 
to place in detention, remove, refer for a decision whether to initiate 
removal proceedings, or initiate removal proceedings against a sponsor, 
potential sponsor, or member of a household of a sponsor or potential 
sponsor of an unaccompanied alien child . . .  based on information 
shared by the Secretary of Health and Human Services.'').
---------------------------------------------------------------------------
    Recommendation.--Children endure psychological and emotional trauma 
when their detention is prolonged due to threats of immigration 
enforcement against their potential sponsors. DHS must carry out 
Congress' intent and formally and permanently cease using sponsors' 
information for enforcement purposes. Simultaneously, Congress should 
exercise its oversight authority to guarantee that the administration 
complies with Section 224 of the new appropriations bill.
                               conclusion
    Children and families seeking asylum in the United States are often 
escaping dangerous and violent conditions in their countries of origin. 
The opportunity of asylum seekers to pursue protection from harm is the 
very foundation of our country's asylum laws, and efforts to restrict 
access to humanitarian protection do nothing to make our country safer. 
Instead of restricting access to protection for unaccompanied children 
and families, the administration should ensure that all are provided 
due process and an opportunity to have their claims fully and fairly 
considered. We look forward to working with Members to ensure our 
country's continued commitment to justice and to the protection of the 
most vulnerable.
                                 ______
                                 
               Statement of Physicians for Human Rights*
---------------------------------------------------------------------------
    * The document has been retained in committee files and is also 
available at https://phr.org/resources/zero-protection-how-u-s-border-
enforcement-harms-migrant-safety-and-health/.
---------------------------------------------------------------------------
 zero protection: how u.s. border enforcement harms migrant safety and 
                                 health
January 2019
                                 ______
                                 
               Letters From Honorable Sheila Jackson Lee
                                      June 1, 2018.
The Honorable Kristjen Nielsen,
Secretary of Homeland Security, U.S. Department of Homeland Security, 
        Nebraska Avenue Complex, 3801 Nebraska Avenue, N.W., 
        Washington, DC 20528.
    Dear Secretary Nielsen: I am writing to you with concerns following 
news reports about the separation of children from parents at the 
southern border. I fear is being done not for their well-being, but to 
visit distress on them and their parents.
    The Administration's policy is resulting in increased separation of 
families. As parents remain in criminal proceedings or detention, 
children will be removed and placed in the care of the U.S. Department 
of Health and Human Services. Recent news reports of unaccounted 
children suggest, however, that the Administration lacks policies to 
ensure that such children are eventually reunified with their families. 
We also remain concerned about the negative health and social impacts 
of family separation. In fact, in response to DHS's new policy, the 
American Academy of Pediatrics released a statement urging the Agency 
to reverse course stating, ``In fact, highly stressful experiences, 
like family separation, can cause irreparable harm, disrupting a 
child's brain architecture and affecting his or her short- and long-
term health.'' This separation is even more alarming when considered in 
the context of comments made by Trump Administration officials that 
suggested that the separation of families will deter individuals from 
migrating to the United States.
    The actions by the Trump Administration are very alarming and if 
left unabated, could visit serious harm on the immigrant population 
within our borders, and could invite international criticism as a 
departure from the humane treatment of asylum seekers. Any 
justification that this policy is done under color of law is plainly 
wrong. Existing policies applicable for unaccompanied minors is not 
applicable for parents who come to the border seeking asylum with their 
children. If children appear at the border with their parents, there is 
no need to separate them. The Trump Administration's current tact is at 
best a perversion of the law, and at worse a misinterpretation.
    Please contact me [] if you have any questions or need additional 
information.
            Very truly yours,
                                        Sheila Jackson Lee,
                                                MEMBER OF CONGRESS.
                                 ______
                                 
                                     June 13, 2018.
The Honorable Kirstjen M. Nielsen,
Secretary of Homeland Security, Washington, DC 20528.
    Dear Secretary Nielsen: As a senior member of the House Committees 
on Homeland Security, and the Judiciary, the former Ranking Member of 
the Homeland Security Subcommittee on Border and Maritime Security, the 
current Ranking Member of the House Judiciary Committee's Subcommittee 
on Crime, Terrorism, Homeland Security, and Investigations, and the 
Member of Congress for the 18th Congressional District of Texas, I am 
writing to express my strong opposition to the proposal reported in the 
media of DHS's plans to build tent cities at military posts around 
Texas to shelter the increasing number of unaccompanied migrant 
children, separated from their parents at a port of entry being held in 
detention.
    At the outset, it should be emphasized that children who have been 
removed from their parents or accompanying adults, without cause, 
should not be categorized as ``unaccompanied.'' Unaccompanied children 
are foreign nationals or stateless persons below the age of 18, who 
enter the territory of the United States unaccompanied by a responsible 
adult, and so long as they are not effectively taken into care of such 
a person. The number of unaccompanied children should be accurately 
reported and the number of children forcibly removed from their parents 
or a responsible adults should not be categorized as unaccompanied. 
Reports indicate that since October 2017, DHS has taken as many as 700 
children from adults claiming to be their parents, including more than 
100 chilren under the age of four. It is the DHS's actions which turns 
accompanied children into unaccompanied children.
    I object in the strongest terms to the Administration's plan to 
construct tent cities at military installations around the state of 
Texas to warehouse immigrant children. The current practice of the 
Trump Administration the taking children from their parents is 
unconscionable and should end immediately. The safety and well-being of 
those children in U.S. custody must be at the utmost concern. Military 
bases are not child care facilities and it is impossible to conceive 
how someone could confuse the two. These children are wards of the 
United States government and should receive the care and support they 
need to suvive the trauma of traveling to the border over hundreds or 
thousands of miles in a desperate attempt to escape violence, poverty, 
or natural disasters.
    These children should not be placed in camps in the Texas summer 
heat, which woud be life-threatening. Further, the areas of Texas where 
military bases are located are known to be overpopulated with snakes, 
insects, and plants that are harmful or fatal if they come in contact 
with humans. Poisonous spiders like the black widow (Latrodectus 
mactans) and the brown recluse (Loxosceles reclusa) spiders pose a 
significant risk to children. Both of these species of spiders can be 
found indoors and outdoors throughout the State of Texas.
    A more thoughtful and humane policy is needed, not the proposal 
under consideration that would embarrassment our nation and cause 
irrepreable harm.
    Thank you for your consideration. Please contact me if you have any 
questions or need additional information. I can be reached to speak 
with you about this matter at my Washington DC office [.]
            Very truly yours,
                                        Sheila Jackson Lee,
                                                MEMBER OF CONGRESS.
    Chairman Thompson. The Members of the committee may have 
additional questions for the witness, and we ask that you 
respond expeditiously in writing to those questions. Pursuant 
to the Committee Rule VII(D), the hearing record will be held 
open for 10 days. Hearing no further business, the committee 
stands adjourned.
    [Whereupon, at 12:58 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson for Honorable Kirstjen M. 
                                Nielsen
                     national emergency declaration
    Question 1. President Trump declared a National emergency 25 days 
after first threatening to do so. What information was provided to the 
President that prompted him to declare a National emergency? Please 
provide any and all memos and related information, dated on or before 
February 15, 2019, that were provided to the White House and may have 
been used to justify the need for a National emergency declaration.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2. On March 5, 2019, your Department released updated 
Southwest Border migration statistics that estimated a little more than 
76,000 individuals were apprehended or inadmissible in February 2019. 
On March 6, you testified that you believed DHS was on track to 
apprehend over 900,000 in fiscal year 2019. Please provide the data and 
models that informed DHS estimates for apprehensions for the current 
fiscal year.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
                              border wall
    Question 3a. In February 2017, the Government Accountability Office 
(GAO) found that CBP had not developed any metrics to assess the 
effectiveness of physical infrastructure along the Southwest Border. 
GAO recommended that CBP develop metrics and CBP concluded and stated 
the metrics would be completed by September 2019.
    What is the status of CBP's development of border wall metrics? 
What metrics has CBP used to measure the effectiveness of border 
barriers?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3b. Will these metrics allow for a comparison of the cost-
effectiveness of barriers, additional CBP officers and agents, and 
technology at the border?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 4. How does DHS determine ``just compensation'' for 
property owners as required under the Fifth amendment in eminent domain 
proceedings?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 5. How many miles of the 654 miles of border fencing along 
the Southern Border were built before fiscal year 2017 without the use 
of the use of DHS's waiver authority? How many miles of the 33 miles 
appropriated in fiscal year 2018 will be built without the use of the 
waiver authority? Does DHS have any plans to use the waiver authority 
for the 55 miles Congress appropriated for fiscal year 2019?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 6. GAO found that when CBP prioritized locations for new 
barriers in 2017, CBP did not analyze the cost of the barrier in that 
location (GAO-18-614). Given topography, land ownership, remoteness of 
the area, and other factors, costs can vary greatly and affect the 
cost-effectiveness of the barrier. How is CBP selecting future 
locations for border barrier construction? Will the estimated cost of 
construction be a component of this analysis?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 7. The same GAO report found that locations for 
construction where barriers were categorized as low priority by a CBP 
model were recategorized as a high priority by an Operational Review 
Board. For example, El Centro dropped from first priority to fifth, 
Yuma dropped from second to sixth, and Laredo dropped from third to 
seventh. Instead, segments of the Rio Grande Valley became DHS's 
highest priorities. Did this change in prioritization based on land 
ownership, as identified in the GAO report? What other criteria were 
taken into consideration? Please explain the process and criteria used 
to reorder the segments.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
                 metering/migrant protection protocols
    Question 8. The DHS Inspector General found that ``metering'' may 
have the effect of pushing people toward areas between ports of entry 
to seek out Border Patrol agents to claim asylum. Given the numbers of 
asylum applicants waiting entry at land ports, what has DHS done to 
specifically improve its capacity to processes?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 9a. As of January 28, 277 people have been found amenable 
to the Migration Protection Protocols (MPP), which requires Central 
American asylum seekers from the Northern Triangle to remain in Mexico 
as they await the adjudication of their case.
    How is CBP determining which individuals are subject to MPP and 
which are not?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 9b. What exact criteria is being used?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 9c. What will the U.S. Government do if the Mexican 
government refuses to allow a migrant to return to Mexico after being 
processed?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 10. The Department of Justice's Executive Office for 
Immigration Review's (EOIR) current notice procedure relies entirely on 
the individual maintaining up-to-date addresses which EOIR uses to mail 
notice of hearings. How will DHS ensure that these individuals receive 
notice of their hearings if the individual has no permanent address in 
Mexico and the 1-800 number provided is unavailable? How is DHS 
ensuring that people have adequate and timely notice of their hearings, 
especially in cases when the initial hearing date is subsequently 
canceled or changed?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 11. How will the DHS regional compact with Central 
American countries address the root causes pushing people to leave the 
Northern Triangle and seek protection?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
                           custody management
    Question 12. In the past, Border Patrol agents apprehended 
primarily single Mexican adults who could communicate effectively in 
Spanish. But in recent years, a growing percentage of people 
apprehended by Border Patrol agents are from the Northern Triangle 
countries of Central America, and increasingly from Guatemala. Many of 
these individuals speak one of many indigenous languages. What steps 
does Border Patrol take to properly assess each migrant's language 
needs upon apprehension?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 13. According to reports, Jakelin Caal's father speaks 
Q'eqchi' and Felipe Gomez's father speaks Chuj. From public reports, it 
appears that both families were presented only with English-language 
documents that were explained to them in Spanish. Were any steps taken 
to secure interpretation services for either of these families prior to 
the time that their children died in Border Patrol custody?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 14a. On March 5, CBP notified the committee of their new 
Interim Enhanced Medical Efforts Directive issued on January 28, over a 
month after the death of Jakelin and a month after the death of Felipe.
    What is the status of the permanent, CBP-wide medical directive 
that once issued will supersede this interim guidance?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 14b. Has the CBP executive director for the Privacy and 
Diversity Office completed review of their five objectives and issued 
their recommendations? If not, when do you expect to receive their 
recommendations?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 14c. What improvements have been made to CBP's health 
interview questionnaire since the deaths of Jakelin Caal and Felipe 
Alonzo-Gomez?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 15. Recent media reports show an increase in ICE's 
detention of infants without providing adequate care, an issue cited in 
a recent complaint to the DHS civil liberties office, and sexual abuse 
of migrant children in U.S. custody. How does your Department intend to 
investigate and address these incidents?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
Questions From Honorable Xochitl Torres Small for Honorable Kirstjen M. 
                                Nielsen
                            border security
    Question 1. Secretary Nielsen, the mountainous and backcountry 
terrain in remote areas along the Southern Border presents Border 
Patrol a challenging environment to effectively secure the border. In 
these areas, advanced detection and surveillance technology can serve 
as a force multiplier by helping agents surveil hard-to-access areas. 
The recently-passed fiscal year 2019 spending package allocates $100 
million in funding for border security technology, along with the $200 
million in carryover from fiscal year 2018.
    Given the new challenges that Border Patrol agents are facing in 
between ports of entries, particularly in rural areas, do you believe 
DHS should ensure that a portion of these funds are used to deploy 
technology in rural and remote areas, such as the bootheel of New 
Mexico?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2. In recent years, has there been any border security 
technology deployed in New Mexico, and if not, does DHS plan to deploy 
technology projects in New Mexico?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3. Do you believe that border security investments in low-
traffic, rural, and remote areas along the border should prioritize 
surveillance technology over barrier construction?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 4. How is DHS ensuring that newly-appropriated funds are 
targeting the most up-to-date technologies and approaches to securing 
the border?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
            santa teresa port of entry/construction of wall
    Question 5. Secretary Nielsen, the Santa Teresa Port of Entry (POE) 
is one of the fastest-growing land ports of entry in the Nation and it 
is now in the top 10 southern land ports of entry in total trade. Last 
year, 20 miles of barriers were built along the Santa Teresa POE, which 
cost nearly $80 million.
    Why did DHS opt to spend nearly $80 million on 20 miles of barriers 
instead of investing those funds to modernize the port and build on its 
economic growth?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 6. Do you believe that investments in the Santa Teresa 
POE, such as extending its hours of operation or modernizing sectors of 
the port, could result in increased trade with Mexico and increased 
economic growth to the surrounding communities?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
            transportation of migrants within cbp facilities
    Question 7. Secretary Nielsen, on December 8, Jakelin Caal Maquin 
died after waiting over 8 hours for transportation to travel 90 minutes 
from Antelope Wells to Lordsburg. It is my understanding that a great 
deal of this delay was due to the wait for transportation from a 
contracted bus service.
    What efforts is CBP undertaking to increase its internal capacity 
to drive commercial vehicles for the transportation of migrants?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
  Questions From Honorable Lauren Underwood for Honorable Kirstjen M. 
                                Nielsen
    Question 1. Please provide an exact figure for the number of minors 
currently being held: (1) At any facility owned by, operated by, or in 
relationship with HHS and (2) at any facility owned by, operated by, or 
in relationship with DHS.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2. Please provide an exact figure for the volume of 
illegal drugs seized by DHS in the process of entering the United 
States through our border with Mexico, including those intercepted by 
the U.S. Coast Guard.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3. Please provide a detailed time line for the conclusion 
of investigations into the deaths of Felipe Gomez Alonzo and Jakelin 
Caal.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 4. When you officially began family separation in spring 
2018, were you aware that the effects of toxic stress and trauma are 
cumulative--that they get worse the longer the trauma and stress go on?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 5. When the family separation policy officially began in 
spring 2018, were you aware that family separation can lead to 
behavioral changes and learning delays for children?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 6. When the family separation policy officially began in 
spring 2018, were you aware that family separation can increase a 
child's risk of heart disease, diabetes, and cancer?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 7. When the family separation policy officially began in 
spring 2018, were you aware that it increases a child's recent risk of 
anxiety, depression, and substance abuse?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 8. The American Psychological Association reports that 
family separation is on par with beating and torture in terms of its 
relationship to mental health. When the family separation policy 
officially began in spring 2018, were you aware of that research?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 9. Did DHS consult with any pediatric health experts 
before reportedly beginning the El Paso pilot program for family 
separation in 2017?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 10. As you promised in the hearing, please provide a copy 
of all data that DHS collected or analyzed from the pilot program to 
evaluate how family separation affects a child's physical and mental 
health.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 11. As you promised in the hearing, please provide a copy 
of the report produced by your ``bipartisan advisory council'' that 
addresses how family separation affects children's mental and physical 
health.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 12. As you promised in the hearing, please provide a copy 
of any DHS communication with pediatric experts prior to May 1, 2018, 
regarding the effects of family separation on children's mental and 
physical health.
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
  Questions From Ranking Member Mike Rogers for Honorable Kirstjen M. 
                                Nielsen
    Question 1a. A significant number of State and local governments 
are considering or have passed legislation that would blacklist or 
otherwise discriminate against any company involved in the design or 
construction of any extension of the wall along the Southwest Border. 
In addition, several cities are considering blacklisting contractors 
that provide database services that support Federal immigration 
priorities. I'm concerned that unless checked, this legislation will 
embolden State and local officials to obstruct the Federal Government's 
lawful functions whenever it may serve their narrow political 
interests. Threatened by discrimination and without assurance that the 
Department of Homeland Security (DHS) will take a stand on such 
legislation, private companies are, understandably, hesitating to 
deliver on the goods and services necessary to protect our homeland 
security interests.
    How does DHS plan to respond to these State and local governments 
on this issue?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 1b. Will DHS be working with other agencies to react to 
these State and local governments on this issue?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 1c. Can you provide a time line of any actions DHS plans 
to take?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 1d. How do we prevent these harmful acts from affecting 
efforts to secure our homeland?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2a. Secretary Nielsen, can you provide a breakdown of how 
CBP plans to use the fiscal year 2019 appropriated funds for border 
security technology, including the leftover fiscal year 2018 funds?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2b. How are you ensuring that the newly-appropriated funds 
are targeting the most up-to-date technologies and approaches to 
securing the border especially in the high-traffic areas such as the 
Rio Grande Valley and the San Diego and El Paso sectors?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3. Madame Secretary, was there anything asked of you or 
said over the course of the hearing that you would like to correct the 
record on?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
Questions From Honorable Clay Higgins for Honorable Kirstjen M. Nielsen
    Question 1a. Secretary Nielsen, there are ``dead spots'' along both 
the Southwest and Northern Borders that have been a persistent officer 
safety issue due to the lack of ability for communication devices to 
work in those spots. I've also heard from agents and officers in the 
field that their devices need to be encrypted or their location 
information and communications could be intercepted by cartels. 
Coupling this with the increase in CBP agent assaults that you 
mentioned in your testimony and responses to member questions, this is 
a very troubling problem. CBP agents are deployed in isolated areas 
across the borders, where off-grid communications may be necessary.
    How will the new ATAK secure communication devices address current 
communication problems along our borders? Are there gaps left after 
ATAK implementation such as with ``dead spots''?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 1b. How is DHS responding to the ``dead spot'' issue in 
terms of procurement?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 1c. Is DHS considering low-cost commercial products to 
remedy some of these issues?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2a. Secretary Nielsen, there are a lot of numbers we keep 
track of when assessing operational control of our borders. The ones I 
most frequently hear about are ``apprehensions'' between the ports of 
entry and ``inadmissibles'' at the ports of entry. However, it is safe 
to say that we do not catch a lot of what or who crosses our border 
illegally.
    What percent of people who enter illegally are we not apprehending?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2b. What percent of drugs that enter illegally are we not 
seizing?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 2c. How accurate would you say your ``got away'' 
statistics are?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3a. We understand that AMO currently leases satellite 
communication (SATCOM) downlink functionality from the Defense 
Information Systems Agency for both its manned and unmanned operations. 
AMO has already committed considerable resources to this capability, 
yet it is our understanding that given the technological limitations of 
its currently leased satellite threads, AMO cannot utilize this 
functionality in more than one manned aircraft simultaneously without 
sacrificing unmanned operations.
    What limitations exist that prevent full utilization of direct 
downlink capabilities across the entire manned aircraft fleet?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3b. What is the Department's strategy to address these 
limitations?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3c. Has the Department considered what technologies are 
needed to address these limitations?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
    Question 3d. If so, are there any procurement plans moving forward?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.
Question From Honorable Michael Guest for Honorable Kirstjen M. Nielsen
    Question. On March 4, 2019, a bi-partisan coalition of Members of 
the House and Senate sent a letter asking you to release supplemental 
H-2B visas per the authority granted by H.J. Resolution 31. Would you 
be able to provide more details on the number of H-2B visas DHS plans 
to release and the time line for this action?
    Answer. Response was indicated to be For Official Use Only and is 
retained in committee files.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
